APPENDIX

TABLE OF CONTENTS
Page
En Banc Opinion of the United States Court of
Appeals for the Eleventh Circuit, Marion E.
Pitch v. United States of America, 953 F.3d
1226 (11th Cir. 2020).………………………………1a
Opinion & Order of the United States District
Court for the Middle District of Georgia,
In re Petition of: Anthony S. Pitch, 275 F.
Supp.3d 1373 (M.D.Ga. 2017).…………………108a
Opinion of the United States Court of Appeals
for the Eleventh Circuit, Marion E. Pitch v.
United States of America, 915 F.3d 704
(11th Cir. 2020)……………….……………….…126a
Order of the United States Court of Appeals
for the Eleventh Circuit Ordering Rehearing
En Banc, 925 F.3d 1224 (11th Cir. 2019) …….151a
Federal Rule of Criminal Procedure 6(e).…………153a
Federal Rule of Criminal Procedure 57……………160a
Civil Rights Cold Case Records Collection Act
of 2018, Pub. L. No. 115-426, 132 Stat. 5489
(2019) (codified at 44 U.S.C. § 2107) …………..162a

1a

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
MARION E. PITCH, The Personal Representative of
the Estate of Anthony S. Pitch, Plaintiff – Appellee,
LAURA WEXLER, Intervenor,
v.
UNITED STATES OF AMERICA, Defendant –
Appellant.
No. 17-15016
(March 27, 2020)
953 F.3d 1226
Before ED CARNES, Chief Judge, WILSON,
WILLIAM PRYOR, MARTIN, JORDAN,
ROSENBAUM, JILL PRYOR, NEWSOM, BRANCH,
GRANT, TJOFLAT, and MARCUS, Circuit Judges.*
TJOFLAT, Circuit Judge:

Judges Gerald Bard Tjoflat and Stanley Marcus were members
of the en banc Court that heard oral argument in this case.
Judges Tjoflat and Marcus took senior status on November 19,
2019, and December 6, 2019, respectively, and both have elected
to participate in this decision pursuant to 28 U.S.C. § 46(c)(2).
Judges Robert J. Luck and Barbara Lagoa joined the Court on
November 19, 2019, and December 6, 2019, respectively, and did
not participate in these en banc proceedings.

*

2a
The grand jury, as an institution, has long been
understood as a “constitutional fixture in its own
right,” operating independently of any branch of the
federal government. United States v. Williams, 504
U.S. 36, 47, 112 S. Ct. 1735, 1742 (1992) (internal
quotation marks omitted). That independence allows
the grand jury to serve as a buffer between the
government and the people with respect to the
enforcement of the criminal law. But the ability of the
grand jury to serve this purpose depends upon
maintaining the secrecy of its proceedings. The longestablished policy of upholding the secrecy of the
grand jury helps to protect the innocent accused from
facing unfounded charges, encourages full and frank
testimony on the part of witnesses, and prevents
interference with the grand jury’s deliberations. See
Douglas Oil Co. v. Petrol Stops Nw., 441 U.S. 211, 219,
99 S. Ct. 1667, 1673 (1979).
Rule 6 of the Federal Rules of Criminal
Procedure, which governs matters related to the
grand jury, continues this traditional practice of
secrecy.
In particular, Rule 6(e) codifies the
traditional rule of grand jury secrecy and provides a
comprehensive framework for determining whether
and under what conditions the records of grand jury
proceedings may be released. The issue we must
decide is whether a district court may order the
release of grand jury materials in circumstances not
explicitly covered by Rule 6(e).
In this case, Anthony S. Pitch, an author and
historian, petitioned the U.S. District Court for the
Middle District of Georgia for the grand jury
transcripts related to the Moore’s Ford Lynching—a
horrific event involving the murders of two African
American couples for which no one has ever been

3a
charged—to be used in his book about the lynching.
His request admittedly did not fall within any of Rule
6(e)’s stated exceptions to the general rule of grand
jury secrecy. The District Court nonetheless granted
his petition, relying on our decision in In re Petition to
Inspect & Copy Grand Jury Materials (Hastings), 735
F.2d 1261 (11th Cir. 1984). In Hastings, we held that
a district court may, pursuant to its inherent,
supervisory power over the grand jury, authorize the
disclosure of grand jury records outside of Rule 6(e)’s
enumerated exceptions in certain “exceptional
circumstances.” Id. at 1268–69. Here, the District
Court found that the historical significance of the
grand jury’s investigation, and the critical role the
records of that investigation would play in enhancing
the historical record on this tragic event, amounted to
“exceptional circumstances” that justified the Court’s
use of its inherent power to order disclosure. In re
Pitch, 275 F. Supp. 3d 1373, 1383 (M.D. Ga. 2017),
aff’d sub nom. Pitch v. United States, 915 F.3d 704
(11th Cir. 2019), reh’g en banc granted, opinion
vacated, 925 F.3d 1224 (11th Cir. 2019).
A panel of this Court, “bound by our decision in
Hastings,” affirmed the District Court’s exercise of its
inherent, supervisory power to authorize disclosure of
grand jury records outside the confines of Rule 6(e) for
matters of historical significance. 915 F.3d at 707; see
also id. at 713 (Jordan, J., concurring) (“Given our
decision in Hastings, I do not see how we can say that
the district court abused its discretion in relying on its
inherent authority.”). We reheard the case en banc to
reconsider our holding in Hastings—that district
courts have inherent power to go beyond the
exceptions listed in Rule 6(e)—and to determine
whether, if such inherent power does exist, district

4a
courts may exercise that power to recognize an
exception to grand jury secrecy for matters of
historical significance. We now hold that Rule 6(e) is
exhaustive, and that district courts do not possess
inherent, supervisory power to authorize the
disclosure of grand jury records outside of Rule
6(e)(3)’s enumerated exceptions.
We therefore
overrule our holding in Hastings to the contrary.
I.
To appreciate why Pitch is seeking the grand
jury records in a decades-old case, we begin by
describing the incident that prompted the grand jury’s
investigation and the continued interest in that
investigation. In July 1946, a crowd of people in
Walton and Oconee Counties, Georgia gathered as two
African American couples were dragged from a car
and brutally murdered in what some consider to be
the last mass lynching in American history. The
event, known as the Moore’s Ford Lynching, sparked
national outrage and eventually led both the Georgia
Bureau of Investigation (“GBI”) and the Federal
Bureau of Investigation (“FBI”) to investigate the
murders. In late 1946, after approximately four
months of investigation, a federal grand jury was
convened in the U.S. District Court for the Middle
District of Georgia in Athens. The grand jury heard
sixteen days of testimony from countless witnesses,
but nonetheless failed to charge anyone with the
murders. The case remains unsolved.
The circumstances surrounding the Moore’s
Ford Lynching, and especially the grand jury’s failure
to indict, continue to draw attention from activists
and scholars alike. The Moore’s Ford Memorial
Committee—a group of politicians, civil rights

5a
activists, and victims’ relatives—gather each year to
lead a rally and a reenactment in honor of the victims.
The GBI and FBI have reopened their investigations
into the lynching several times over the past seven
decades, but to no avail. More recently, in 2007, over
three thousand pages of the FBI investigation file
were released to the public under a Freedom of
Information Act request.
The records of the
proceedings before the 1946 grand jury are one of the
few records related to the Moore’s Ford Lynching that
remain sealed.
Enter Anthony S. Pitch. Pitch was a historian
who authored several books about major historic
events, such as President Abraham Lincoln’s
assassination and the British invasion of Washington
in 1814. His latest work, published in March 2016,
focused on the Moore’s Ford Lynching. Seeking
additional source material for his book, Pitch
petitioned the District Court in 2014 to unseal the
federal grand jury records related to the Moore’s Ford
Lynching. The District Court initially denied the
petition because there was no evidence that the
records existed. Pitch renewed his petition in 2017,
after learning that the transcripts of the grand jury
testimony may be located at the National Archives in
Washington, D.C. The District Court ordered the
Government to produce the records for in camera
inspection, and the Government filed the transcripts
under seal.
This time, the District Court granted Pitch’s
request and ordered the transcripts unsealed.
Although the District Court acknowledged that
“Pitch’s request does not fit within any of Rule 6(e)’s
exceptions,” it invoked its inherent power to release

6a
the transcripts under our reasoning in Hastings. 275
F. Supp. 3d at 1381–83.
In Hastings, the Judicial Investigating
Committee of the Eleventh Circuit sought access to
the records of the grand jury that had indicted District
Judge Alcee Hastings on bribery charges—charges for
which Hastings was later tried and acquitted—to
determine whether Hastings should be disciplined for
violations of the Code of Judicial Conduct. 735 F.2d
at 1263. We noted1 that the Committee’s request did
not quite fall within the exception in then-Rule
6(e)(3)(C)(i)—now Rule 6(e)(3)(E)(i)—for disclosures,
“preliminarily to or in connection with a judicial
proceeding,” since the investigation of Hastings was
not a judicial proceeding in the “strict legal sense.” Id.
at 1271–72.2 Nonetheless, we held that the District
Court properly exercised its inherent, supervisory
power over the grand jury to authorize release of the
materials outside the strict bounds of Rule 6(e). Id. at

1

The panel that decided Hastings was composed of three nonEleventh Circuit judges selected by the Chief Justice of the U.S.
Supreme Court pursuant to 28 U.S.C. § 291. All Eleventh Circuit
judges had recused themselves because of the conflict presented
by the underlying investigation of a district judge within the
Eleventh Circuit.
2

We explained, however, that the proceedings “closely
mirror[ed] Justice Holmes’s definition” of a “judicial inquiry”: “[a]
judicial inquiry investigates, declares and enforces liabilities as
they stand on present or past facts and under laws supposed
already to exist. That is its purpose and end.” Id. at 1271
(quoting Prentis v. Atl. Coast Line Co., 211 U.S. 210, 226, 29 S.
Ct. 67, 69 (1908)).

7a
1272.3 In doing so, we explained that Rule 6(e)’s
exceptions “were not intended to ossify the law, but
rather are subject to development by the courts in
conformance with the rule’s general rule of secrecy.”
Id. at 1269 (citing Fallen v. United States, 378 U.S.
139, 142, 84 S. Ct. 1689, 1691 (1964)). District courts
therefore retained “inherent power beyond the literal
wording of Rule 6(e)” to authorize disclosure of grand
jury materials not explicitly covered by the rule. Id.
at 1268. We cautioned, however, that district courts
may only act outside Rule 6(e) in “exceptional
circumstances consonant with the rule’s policy and
spirit.” Id. at 1269.
In this case, a divided panel of this Court
affirmed that the District Court appropriately
exercised its substantial discretion under Hastings
when it decided to release the records of the Moore’s
Ford grand jury pursuant to its inherent, supervisory
power. Pitch, 915 F.3d at 713. Specifically, the panel
explained that “[u]nder the proper circumstances,
grand jury records on a matter of exceptional
historical significance may trigger a district court’s
inherent authority to disclose them.” Id. at 710. Put
differently, the “exceptional historical significance” of
the grand jury records may constitute the “exceptional
circumstances” described in Hastings that would
justify the district court in exercising its inherent
power to disclose the records, even though no Rule 6(e)
exception applies. See Hastings, 735 F.2d at 1269. In
determining whether the facts that Pitch presented
amounted to “exceptional circumstances,” the panel
We did so largely because we believed the committee’s
proceeding was so “closely akin” to the judicial-proceeding
exception. Id.

3

8a
(like the District Court) balanced the public interest
in the continued secrecy of the grand jury records
against the need for disclosure, id. at 709–10 (citing
Hastings, 735 F.2d at 1272, 1275; Douglas Oil, 441
U.S. at 223, 99 S. Ct. at 1675), relying primarily on
the multi-factor test outlined by the Second Circuit in
In re Petition of Craig, 131 F.3d 99, 106 (2d Cir.
1997).4 It ultimately found that, because of the
substantial historical interest in the records, which
has persisted over time, and the relatively low risk
that any witnesses, suspects, or their immediate
family members would be intimidated, persecuted, or
arrested, the District Court did not abuse its

4

The Second Circuit in In re Petition of Craig developed the
following “non-exhaustive list of factors” for a trial court to weigh
when applying the Douglas Oil balancing test to the disclosure
of historically significant grand jury records:
(i) the identity of the party seeking disclosure; (ii)
whether the defendant to the grand jury
proceeding or the government opposes the
disclosure; (iii) why disclosure is being sought in
the particular case; (iv) what specific information
is being sought for disclosure; (v) how long ago
the grand jury proceedings took place; (vi) the
current status of the principals of the grand jury
proceedings and that of their families; (vii) the
extent to which the desired material—either
permissibly
or
impermissibly—has
been
previously made public; (viii) whether witnesses
to the grand jury proceedings who might be
affected by disclosure are still alive; and (ix) the
additional need for maintaining secrecy in the
particular case in question.
131 F.3d at 106.

9a
discretion in unsealing the grand jury materials.
Pitch, 915 F.3d at 711–13.
We voted to rehear the case en banc to
determine whether we should overrule our holding in
Hastings—that district courts have inherent power to
go beyond the exceptions listed in Rule 6(e) to order
the disclosure of grand jury records—and, if not,
whether a district court may exercise its inherent
power to recognize a historical-significance exception
to the general rule of grand jury secrecy.5
II.
The questions before us implicate the longestablished policy that grand jury proceedings in
federal courts should be kept secret. See United States
5

Pitch passed away while this case was pending en banc. We
granted the unopposed motion to substitute Marion E. Pitch, the
personal representative of Anthony Pitch’s estate, as the
Petitioner-Appellee in this appeal pursuant to Federal Rule of
Appellate Procedure 43(a). We also asked the parties to file
supplemental letter briefs to address whether the appeal is moot
in light of Pitch’s death. Pitch’s Estate and his family have
expressed their intent to carry out Pitch’s research; they intend
to review the grand jury transcripts and to use those transcripts
to complete the book that Pitch had been working on until his
untimely death. To that end, they sought the assistance of Laura
Wexler, another historian who, like Pitch, has authored a book
on the Moore’s Ford Lynching. Ms. Wexler separately filed a
motion to intervene in this appeal, claiming that she had a
similar interest in securing the release of the grand jury records
so that she could complete her own scholarly work on the Moore’s
Ford Lynching. We granted the motion to intervene. In light of
the substitution of Pitch’s Estate and the addition of Ms. Wexler
as a party—and the apparent agreement between the two parties
to complete the project for which the grand jury records were
originally sought—we find that this appeal is not moot.

10a
v. Sells Eng’g, Inc., 463 U.S. 418, 424, 103 S. Ct. 3133,
3138 (1983); United States v. Procter & Gamble Co.,
356 U.S. 677, 681, 78 S. Ct. 983, 986 (1958). The
Supreme Court has long “recognized that the proper
functioning of our grand jury system depends upon
the secrecy of grand jury proceedings.” Douglas Oil,
441 U.S. at 218, 99 S. Ct. at 1672 (citing Procter &
Gamble, 356 U.S. at 681, 78 S. Ct. at 986). That
secrecy serves several vital purposes, including:
(1) To prevent the escape of those whose
indictment may be contemplated; (2) to
insure the utmost freedom to the grand
jury in its deliberations, and to prevent
persons subject to indictment or their
friends from importuning the grand
jurors; (3) to prevent subornation of
perjury or tampering with the witnesses
who may testify before [the] grand jury
and later appear at the trial of those
indicted by it; (4) to encourage free and
untrammeled disclosures by persons
who have information with respect to the
commission of crimes; (5) to protect
innocent accused who is exonerated from
disclosure of the fact that he has been
under investigation, and from the
expense of standing trial where there
was no probability of guilt.
Id. at 219 n.10, 99 S. Ct. at 1673 n.10 (alteration in
original) (quoting Procter & Gamble, 356 U.S. at 681–
82 n.6, 78 S. Ct. at 986 n.6). Accordingly, both
Congress and the Supreme Court have consistently
stood ready to defend the secrecy of the grand jury

11a
against any unwarranted intrusions. Sells Eng’g, 463
U.S. at 425, 103 S. Ct. at 3138.
Rule 6(e) codified the traditional rule of grand
jury secrecy. Id. Since its promulgation in 1946, Rule
6(e) has governed the disclosure of grand jury records.
Illinois v. Abbott & Assocs., 460 U.S. 557, 566, 103 S.
Ct. 1356, 1361 (1983). Even so, Pitch argues that Rule
6(e) is not exhaustive, and thus does not eliminate
district courts’ inherent, supervisory power over the
grand jury to authorize disclosure in circumstances
not covered by the rule. Relying on Carlson v. United
States, 837 F.3d 753, 763 (7th Cir. 2016), he argues
that Rule 6(e) is merely permissive, and as such does
not “abrogate the power of the courts” to exercise their
historic “inherent power” in the absence of a
contradictory Rule 6(e) provision. Accordingly, he
says, since Rule 6(e) does not cover the type of
disclosure requested here, “[a] judge may regulate
[the] practice in any manner consistent with federal
law, these rules, and the local rules of the district
[court].” Fed. R. Crim. P. 57(b); see also Carlson, 837
F.3d at 762 (explaining that Rule 57(b) informs a
district court what it may do when the Federal Rules
of Criminal Procedure are otherwise silent).
Since we first interpreted Rule 6(e) in Hastings,
several other circuits have considered whether
district courts may authorize the disclosure of grand
jury records outside the circumstances listed in that
rule. Some agree with Pitch and so have held, like we
did in Hastings, that district courts may invoke their
inherent, supervisory authority over the grand jury to
permit the disclosure of grand jury records outside the
text of Rule 6(e). See Carlson, 837 F.3d at 763–66; In
re Petition of Craig, 131 F.3d at 103; see also McKeever
v. Barr, 920 F.3d 842, 853–55 (D.C. Cir. 2019)

12a
(Srinivasan, J., dissenting), cert. denied, 140 S. Ct.
597 (2020); cf. In re Grand Jury Proceedings, 417 F.3d
18, 26 (1st Cir. 2005) (holding that a district court may
exercise its inherent judicial power to impose an
obligation of secrecy on a grand jury witness, even
though witnesses are not covered by Rule 6(e)(2)(B)’s
secrecy requirement). Other circuits have refused to
authorize the disclosure of grand jury records outside
of Rule 6(e)’s stated exceptions to the general rule of
secrecy, finding those exceptions to be exhaustive. See
McKeever, 920 F.3d at 845; United States v.
McDougal, 559 F.3d 837, 840–41 (8th Cir. 2009)
(“‘Because the grand jury is an institution separate
from the courts, over whose functioning the courts do
not preside,’ . . . courts will not order disclosure absent
a recognized exception to Rule 6(e) or a valid challenge
to the original sealing order or its implementation.”
(alteration omitted) (quoting Williams, 504 U.S. at 47,
112 S. Ct. at 1742)); In re Grand Jury 89-4-72, 932
F.2d 481, 488 (6th Cir. 1991) (“[W]ithout an
unambiguous statement to the contrary from
Congress, we cannot, and must not, breach grand jury
secrecy for any purpose other than those embodied by
the Rule.”); see also Carlson, 837 F.3d at 767–68
(Sykes, J., dissenting).6
6

Three other circuits have also suggested, in dicta, that Rule
6(e)’s exceptions are exhaustive. See United States v. Educ. Dev.
Network Corp., 884 F.2d 737, 740 (3d Cir. 1989) (“Rule 6(e)(2)
provides in general that matters occurring before the grand jury
may not be disclosed. Disclosure of such matters may only be
made under the narrow exceptions listed in Rule 6(e)(3).”
(emphasis added)); In re J. Ray McDermott & Co., Inc., 622 F.2d
166, 172 (5th Cir. 1980) (“Rule 6(e) . . . permit[s] disclosure of
grand jury materials in certain specific circumstances. A district
court to whom application for disclosure is made does exercise

13a
We now depart from our analysis in Hastings,
and join the Sixth, Eighth, and District of Columbia
Circuits in their interpretation of Rule 6(e). We
disagree with Pitch that Rule 6(e) is merely a
permissive rule—“a rule that permits a court to do
something and does not include any limiting
language.” Carlson, 837 F.3d at 763. To the contrary,
Rule 6(e) provides an exhaustive list of detailed
circumstances in which a district court may authorize
disclosure. It lays out a general rule of secrecy
followed by a set of carefully considered exceptions
that limit the district court’s authority to disclose the
records of a grand jury’s proceedings. The rule thus
leaves no room for district courts to fashion new
exceptions beyond those listed in Rule 6(e). We
therefore hold that Rule 6(e) by its plain terms limits
disclosures of grand jury materials to the
circumstances enumerated therein.
A.
Rule 6(e) covers both the recording of the grand
jury’s proceedings and the disclosure of those records.
With respect to disclosure, Rule 6(e)(2), entitled
“Secrecy,” announces a general rule of secrecy. It
mandates that various persons who participate before
the grand jury, other than witnesses, “must not
disclose a matter occurring before the grand jury,”
discretion in granting disclosure but may not thereby enlarge the
exceptions to grand jury secrecy.” (emphases added)); In re Grand
Jury Subpoenas, Apr., 1978, at Baltimore, 581 F.2d 1103, 1108–
09 (4th Cir. 1978) (“Rule 6(e), as recently amended, provides
generally that materials secured by the grand jury in the course
of its investigation shall not be disclosed except as authorized in
subsection (2).” (emphasis added) (footnote omitted)).

14a
“[u]nless these rules provide otherwise.” Fed. R.
Crim. P. 6(e)(2)(B).7
Rule 6(e)(3) then lays out a set of five detailed
“[e]xceptions” to this general rule of nondisclosure.
Fed. R. Crim. P. 6(e)(3). It provides that a government
attorney may,8 without prior court approval, disclose
grand jury records to other government attorneys or
officials for use in performing the attorneys’ duties, or
to other grand juries for the purpose of conducting
criminal or intelligence investigations. See Fed. R.
Crim. P. 6(e)(3)(A)–(D). It then specifies that a “court
may authorize disclosure—at a time, in a manner, and
subject to any other conditions that it directs—of a
grand-jury matter” (1) “preliminarily to or in
connection with a judicial proceeding,” Fed. R. Crim.
P. 6(e)(3)(E)(i), (2) “at the request of a defendant who
shows that a ground may exist to dismiss the
indictment because of a matter that occurred before
the grand jury,” Fed. R. Crim. P. 6(e)(3)(E)(ii), or (3)
at the request of the government for use in a foreign,
state, tribal, or military criminal investigation, Fed.
R. Crim. P. 6(e)(3)(E)(iii)–(v).

7

Rule 6(e)(2)(B) lists seven individuals who are prohibited from
disclosing a matter occurring before the grand jury: a grand
juror, an interpreter, a court reporter, an operator of a recording
device, a person who transcribes recorded testimony, an attorney
for the government, and a person to whom disclosure is made
under Rule 6(e)(3)(A)(ii) or (iii).
8

Under Rule 6(e)(1), the grand jury records remain in the
custody and control of a government attorney, unless the district
court orders otherwise. Thus, as a practical matter, it is the
government—and not the district court—that actually discloses
the grand jury records.

15a
The text and structure of Rule 6(e) thus
indicate that the rule is not merely permissive.
Rather, it imposes a general rule of nondisclosure,
then instructs that deviations from that rule are not
permitted “[u]nless these rules provide otherwise,”
and then provides a detailed list of exceptions that
specifies precisely when the rules “provide otherwise.”
“Where Congress explicitly enumerates certain
exceptions to a general prohibition, additional
exceptions are not to be implied, in the absence of
evidence of a contrary legislative intent.” Andrus v.
Glover Constr. Co., 446 U.S. 608, 616–17, 100 S. Ct.
1905, 1910 (1980). We find nothing in the text of Rule
6(e) to indicate an intent to permit a district court to
go beyond the enumerated exceptions. The Rule does
not, for example, introduce the exceptions with a term
like “including,” which might indicate that the
exceptions are merely illustrative. See McKeever, 920
F.3d at 845. Nor does it contain a residual exception
that might accommodate the judicial fashioning of
new exceptions in addition to the ones listed. See id.
In fact, the text of Rule 6(e) suggests just the
opposite intent. The drafters of Rule 6(e)(2) permitted
deviations from the general rule of secrecy only when
the “rules provide otherwise”—not when the court
provides otherwise. That choice of language is
significant because in another subsection of Rule 6(e),
the drafters directly and unambiguously gave the
district court the power to act outside the text of the
rule. Rule 6(e)(1) provides: “Unless the court orders
otherwise, an attorney for the government will retain
control of the recording, the reporter’s notes, and any
transcript prepared from those notes.” Fed. R. Crim.
P. 6(e)(1) (emphasis added).
This subsection
demonstrates that the drafters of Rule 6 knew how to

16a
craft a provision granting the district court the
authority to act outside the text of the rule, but
intentionally chose not to do so in Rule 6(e)(2). Their
decision to use the phrase “[u]nless these rules
provide otherwise,” instead of the phrase “[u]nless the
court orders otherwise” from the immediately
preceding subsection, indicates that the drafters
intended the general rule of secrecy to be breached
only in accordance with the Federal Rules of Criminal
Procedure, and not that a district court had the power
to do so outside the confines of the rule. See Carlson,
837 F.3d at 770 (Sykes, J., dissenting) (“The
straightforward meaning of th[e] text [of the rule,
which mandates secrecy ‘unless these rules provide
otherwise’] is that grand-jury secrecy may not be
breached except as specifically provided in the
rules.”).
This intentional choice of language
highlights the drafters’ understanding that disclosure
should be limited to the text of Rule 6(e).
Our interpretation of Rule 6(e) as exhaustive is
consistent with the Supreme Court’s warning that we
must be reluctant to conclude that a breach of grand
jury secrecy has been authorized in the absence of a
clear indication in a Rule or statute. Sells Eng’g, 463
U.S. at 425, 103 S. Ct. at 3138; see also Abbott &
Assocs., 460 U.S. at 572–73, 103 S. Ct. at 1364
(explaining that while Congress “has the power to
modify the rule of secrecy . . . the rule is so important,
and so deeply-rooted in our traditions, that we will not
infer that Congress has exercised such a power
without affirmatively expressing its intent to do so”).
Indeed, while the Supreme Court has not yet
addressed the question, the Court has on several
occasions suggested that Rule 6(e) is exclusive. See
McKeever, 920 F.3d at 846 (collecting cases). As early

17a
as 1959, the Supreme Court recognized that “any
disclosure of grand jury minutes is covered by [Rule]
6(e).” Pittsburgh Plate Glass Co. v. United States, 360
U.S. 395, 398, 79 S. Ct. 1237, 1240 (1959). And when
interpreting the exception in Rule 6(e) for grand jury
matters “preliminarily to or in connection with a
judicial proceeding,” the Supreme Court explained
that the exception “is, on its face, an affirmative
limitation on the availability of court-ordered
disclosure of grand jury materials.” United States v.
Baggot, 463 U.S. 476, 479, 103 S. Ct. 3164, 3167
(1983). More recently, the Supreme Court described
Rule 6(e) as “placing strict controls on disclosure of
‘matters occurring before the grand jury.’” Williams,
504 U.S. at 46 n.6, 112 S. Ct. at 1741–42 n.6 (citing
Sells Eng’g, 463 U.S. 418, 103 S. Ct. 3133).
The contrary interpretation proposed by
Pitch—that Rule 6(e)(3)(E)’s exceptions are only
permissive—would render the detailed list of
exceptions to Rule 6(e)(2) merely precatory. It is hard
to imagine why Congress and the Rules Committee
would bother to craft and repeatedly amend these
detailed exceptions if they were meant only to be an
illustration of when a district court may authorize the
disclosure of grand jury records.
We therefore
disagree with the Seventh Circuit that it is “entirely
reasonable” to infer that Congress and the Supreme
Court intended the list as a guideline of frequently
invoked reasons for disclosing grand jury materials,
simply to indicate to the district court that it should
not hesitate to authorize disclosure in those cases. See
Carlson, 837 F.3d at 764–65.
In fact, the Supreme Court has recognized that
the exceptions listed in Rule 6(e)(3) “reflect[] a
judgment that not every beneficial purpose, or even

18a
every valid governmental purpose, is an appropriate
reason for breaching grand jury secrecy.” Baggot, 463
U.S. at 480, 103 S. Ct. 3167 (interpreting what is now
Rule 6(e)(3)(E)(i)). Pitch’s interpretation of Rule 6(e)
would thus permit district courts to circumvent the
policy judgments made by Congress and the Supreme
Court that grand jury secrecy should be relaxed for
certain purposes and not others. It would allow a
single district court to disrupt the balance struck by
Congress and the Supreme Court to create such new
exceptions as it thinks make good public policy,9
contrary to the express limitation on the district
9

The problem is amplified here, as the creation of a historicalsignificance exception involves two layers of policy judgments.
The first is the decision to recognize an exception for matters of
historical significance generally. The second involves deciding
what it means for something to be so “historically significant”
that the interest in disclosure outweighs any interest that the
grand jurors, witnesses, and future generations, among others,
have in maintaining the secrecy of the proceedings. Under
Pitch’s interpretation of Rule 6(e), then, a single district judge
would have the authority to substitute his or her own judgments
on these policy questions on a case-by-case basis, with the
inevitable result that the exceptions to the general rule of grand
jury secrecy would vary from one court to the next across the
nation. Without consistent guidance as to when grand jury
testimony may be disclosed, future witnesses may be deterred
from testifying before the grand jury, and potential grand jurors
may be deterred from serving on grand juries, fearing that a
judge may someday decide that the subject-matter of the grand
jury’s investigation was so important that it should no longer be
kept secret. See Douglas Oil, 441 U.S. at 222, 99 S. Ct. at 1674.
The uncertainty would have a chilling effect on future grand jury
witnesses and would render the grand jury as an institution
inoperable. See, e.g., id. at 218, 99 S. Ct. at 1672 (recognizing the
importance of secrecy to the proper functioning of the grand jury
system).

19a
court’s power contained in Rule 6(e). See Dietz v.
Bouldin, 136 S. Ct. 1885, 1892 (2016); McKeever, 920
F.3d at 845; see also Carlisle v. United States, 517 U.S.
416, 426, 116 S. Ct. 1460, 1466 (1996) (“Whatever the
scope of this ‘inherent power,’ however, it does not
include the power to develop rules that circumvent or
conflict with the Federal Rules of Criminal
Procedure.”).
For these reasons, we find that the text of Rule
6(e) is best understood as limiting the disclosure of
grand jury materials to the circumstances carefully
defined in Rule 6(e)(3)(E). We therefore agree with
the Government that Rule 6(e)(3)(E)’s list of
exceptions to the general rule of grand jury secrecy is
exclusive, and that district courts may not rely on
their inherent, supervisory power to authorize
disclosure of grand jury materials outside the bounds
of that rule. To the extent that we held in Hastings
that such inherent power does exist, that holding is
overruled.
B.
Pitch’s textual arguments to the contrary are
not persuasive. Pitch first argues that district courts
are not bound by the obligation of secrecy in Rule
6(e)(2), because the district court is not on the list of
people in Rule 6(e)(2)(B) to whom the obligation of
secrecy applies. Rule 6(e)(2)(A) provides that “[n]o
obligation of secrecy may be imposed on any person
except in accordance with Rule 6(e)(2)(B).” Fed. R.
Crim. P. 6(e)(2)(A). Rule 6(e)(2)(B) then lists the
seven people who are prohibited from disclosing any
matter occurring before the grand jury: a grand juror,
an interpreter, a court reporter, an operator of a
recording device, a person who transcribes recorded

20a
testimony, an attorney for the government, and other
government personnel to whom disclosure is made
under the rules or by statute. Fed. R. Crim. P.
6(e)(2)(B). The district court is absent from this list.
Accordingly, the argument goes, the district court
cannot be bound by the obligation of secrecy in Rule
6(e)(2).
Pitch’s argument is difficult to square with how
the grand jury operates in practice. The grand jury is
by design an institution independent from the
Judicial Branch. Williams, 504 U.S. at 47–48, 112 S.
Ct. at 1742–43 (citing United States v. Calandra, 414
U.S. 338, 343, 94 S. Ct. 613, 617 (1974)). Accordingly,
the district court neither presides over the grand jury
nor monitors its proceedings. Id. at 48, 112 S. Ct. at
1742 (citing Calandra, 414 U.S. at 343, 94 S. Ct. at
617). In fact, Rule 6 does not permit the district judge
to be present in the grand jury room at all. See Fed.
R. Crim. P. 6(d). The extent of the district court’s
“involvement in the functioning of the grand jury has
generally been confined to the constitutive one of
calling the grand jurors together and administering
their oaths of office,” or to enforcing grand jury
subpoenas. Williams, 504 U.S. at 47–48, 112 S. Ct. at
1742–43 (citing Calandra, 414 U.S. at 343, 94 S. Ct.
at 617).
It is not surprising, then, that district courts
are not included in Rule 6(e)(2)(B). The individuals
listed in Rule 6(e)(2)(B) are those who are either
present in the grand jury room during its proceedings
or who are otherwise made privy to the grand jury’s
proceedings because Rule 6(e)(3) explicitly so
provides. Unlike the individuals listed, the district
court is not a participant in the grand jury
proceedings, and thus is not ordinarily privy to those

21a
proceedings unless and until a party raises an issue
having to do with the grand jury, see, e.g., Fed. R.
Crim. P. 6(e)(3)(E)(ii), or the district court is called
upon by the grand jury to enforce a subpoena. In fact,
Rule 6(e)(1) contemplates that, in the ordinary case, a
government attorney maintains custody of the grand
jury records—not the court.10 Therefore, the district
court’s absence from Rule 6(e)(2)(B) does not mean
that the district court has no secrecy obligations with
respect to grand jury proceedings.
Second, Pitch points to the text of Rule
6(e)(3)(E), which prefaces its list of exceptions with
the following phrase: “The court may authorize
disclosure—at a time, in a manner, and subject to any
other conditions that it directs—of a grand jury
matter . . . .” Pitch argues that the use of the word
“may” here implies “some degree of discretion,” which
supports a permissive (rather than exclusive) reading
of Rule 6(e)(3)(E)’s enumerated exceptions.
See
Carlson, 837 F.3d at 765 (quoting United States v.
Rodgers, 461 U.S. 677, 706, 103 S. Ct. 2132, 2149
(1983)).
To be sure, a district court must exercise a
degree of discretion in deciding whether to release
grand jury materials under Rule 6(e). But it does not
follow that Rule 6(e) is merely permissive. “May” in
this context means only that, even if a request for
grand jury materials falls within one of Rule
10

See supra note 8. When the district court authorizes
disclosure under Rule 6(e)(3)(E), then, it must do so by ordering
a government attorney to disclose the grand jury records that are
in his or her possession. See McKeever, 920 F.3d at 848. In effect,
the court releases the government attorney from his or her
obligation of secrecy under Rule 6(e)(2)(B).

22a
6(e)(3)(E)’s enumerated exceptions, a district court
may nonetheless exercise its discretion to deny the
request. A petitioner is not entitled to the release of
grand jury materials simply because his or her
request falls within a listed exception to grand jury
secrecy. A district court must still exercise its
“substantial discretion” to weigh “the extent of the
need for continuing grand jury secrecy, the need for
disclosure, and the extent to which the request was
limited to that material directly pertinent to the need
for disclosure.” Douglas Oil, 441 U.S. at 223–24, 99 S.
Ct. at 1675.
The Supreme Court recognized as much in
Pittsburgh Plate Glass when it stated that “Rule 6(e)
is but declaratory” of the principle that the disclosure
of grand jury materials is committed to the discretion
of the trial court. 360 U.S at 399, 79 S. Ct. at 1240.
Pitch reads Pittsburgh Plate Glass as supporting the
proposition that district courts have broad discretion
to release grand jury materials outside of Rule 6(e)’s
enumerated exceptions. But in fact, Pittsburgh Plate
Glass involved a request for disclosure under one of
Rule 6(e)’s enumerated exceptions. See id. at 396 n.1,
79 S. Ct. at 1239 n.1; see also id. at 398, 79 S. Ct. at
1240 (“Petitioners concede, as they must, that any
disclosure of grand jury minutes is covered by [Rule]
6(e).”). Thus, “[t]he only ‘discretion’ at issue involved
the district court’s determination whether the party
seeking material covered by the exception had made a
sufficiently strong showing of need to warrant
disclosure.”
McKeever, 920 F.3d at 846 (citing
Pittsburgh Plate Glass, 360 U.S. at 398–99, 79 S. Ct.
at 1240); accord Douglas Oil, 441 U.S. at 217–24, 99
S. Ct. at 1672–75 (describing the same discretion).
While a district court’s determination whether to

23a
order disclosure under Rule 6(e) necessarily involves
some degree of discretion, that discretion is limited by
the text of the rule. Pittsburgh Plate Glass does not
suggest otherwise.
III.
Pitch also makes two arguments based on the
Advisory Committee’s notes to Rule 6. First, Pitch
points to language in the Advisory Committee note to
the original Rule 6(e), which states that the rule
“continues the traditional practice of secrecy on the
part of members of the grand jury, except when the
court permits a disclosure.” Fed. R. Crim. P. 6 original
advisory committee’s note (emphasis added) (citing
Schmidt v. United States, 115 F.2d 394 (6th Cir.
1940); Atwell v. United States, 162 F. 97 (4th Cir.
1908); United States v. Am. Med. Ass’n, 26 F. Supp.
429 (D.D.C. 1939)). Pitch argues that, as we said in
Hastings, this language demonstrates with
“certain[ty] that a court’s power to order disclosure of
grand jury records is not strictly confined to instances
spelled out in the rule.” See Hastings, 735 F.2d at
1268.
We disagree. Like the current version of Rule
6(e), the original version of the rule specified precisely
when a court may “permit[] a disclosure.”11 It first
11

The full text of Rule 6(e), as originally enacted, read:
SECRECY
OF
PROCEEDINGS
AND
DISCLOSURE. Disclosure of matters occurring
before the grand jury other than its deliberations
and the vote of any juror may be made to the
attorneys for the government for use in the
performance of their duties. Otherwise a juror,
attorney, interpreter or stenographer may

24a
provided that grand jury matters may be disclosed to
government attorneys for use in the performance of
their duties without any involvement by the court.
Fed. R. Crim. P. 6(e), 327 U.S. 827, 837 (1945). It then
provided two specific circumstances in which
disclosure was permitted only when directed by the
court: first, when disclosure was sought “preliminarily
to or in connection with a judicial proceeding,” and
second, “at the request of the defendant upon a
showing that grounds may exist for a motion to
dismiss the indictment because of matters occurring
before the grand jury.” Id. at 838. There is nothing in
the text of the rule to indicate that the phrase “except
when the court permits a disclosure” referred to
discretionary disclosures beyond those two exceptions
outlined in the rule itself. We read the Advisory
Committee’s note as referring to the exceptions in the
text of the rule.
disclose matters occurring before the grand jury
only when so directed by the court preliminarily
to or in connection with a judicial proceeding or
when permitted by the court at the request of the
defendant upon a showing that grounds may
exist for a motion to dismiss the indictment
because of matters occurring before the grand
jury. No obligation of secrecy may be imposed
upon any person except in accordance with this
rule. The court may direct that an indictment
shall be kept secret until the defendant is in
custody or has given bail, and in that event the
clerk shall seal the indictment and no person
shall disclose the finding of the indictment except
when necessary for the issuance and execution of
a warrant or summons.
Fed. R. Crim. P. 6(e), 327 U.S. 827, 837–38 (1945).

25a
Our
understanding
of
the
Advisory
Committee’s note is consistent with the cases cited
therein. All three of the cases cited by the Advisory
Committee dealt with the question whether a
defendant may interrogate the members of the grand
jury that had returned an indictment against him for
the purpose of gathering evidence to challenge the
sufficiency of that indictment. See Schmidt, 115 F.2d
at 395; Atwell, 162 F. at 98; Am. Med. Ass’n, 26 F.
Supp. at 429. And in each of those three cases the
court exercised its discretion to determine whether
and to what extent the grand jurors’ oath of secrecy
may be relaxed to permit an inquiry into the adequacy
of the indictment. See Schmidt, 115 F.2d at 397
(holding that it is the court’s responsibility to
determine whether, in its discretion, to relax the rule
of grand jury secrecy, and determining that the
defendants had impermissibly obtained affidavits
from the grand jurors in violation of the grand jurors’
oath of secrecy and without prior application to or
permission from the court); Atwell, 162 F. at 99–100,
103 (weighing reasons for and against the policy of
grand jury secrecy and reversing the district court’s
decision to hold a grand juror in contempt for
disclosing a grand jury witness’s testimony to the
defendants, in violation of the grand juror’s oath of
secrecy); Am. Med. Ass’n, 26 F. Supp. at 430–31
(holding that only the court may release a grand juror
from his oath of secrecy, and finding that the
defendants’ bare assertions that the indictment was
inadequate were insufficient to trump the “public
policy demand[ing] a lasting secrecy” on the part
of the grand jurors).
The issue decided in these cases was explicitly
addressed by the original version of Rule 6(e), which

26a
provided that “a juror . . . may disclose matters
occurring before the grand jury only when . . .
permitted by the court at the request of the defendant
upon a showing that grounds may exist for a motion
to dismiss the indictment because of matters
occurring before the grand jury.” Fed. R. Crim. P. 6(e),
827 U.S. at 837–38. In other words, Rule 6(e) adopted
the holdings of these cases that (1) in certain
circumstances, and upon a proper showing,
allegations of impropriety before the grand jury may
justify relaxing the rule of grand jury secrecy, and (2)
even where such circumstances exist, a defendant
must receive authorization from the court to access
any grand jury information.
We therefore think that this note, when
understood in conjunction with the cases cited, refers
only to the exceptions listed in the rule that provide
for when a district court may “permit[] a disclosure.”
It does not mean that a district court may permit
disclosure in other circumstances that it deems
worthy.12 Understood in this context, the Advisory
Committee’s note in fact reinforces that Rule 6(e)
codified all the instances in which a district court may
authorize the disclosure of grand jury materials. And
other Advisory Committee notes underscore that Rule
6(e) is best understood as exclusive. See Fed. R. Crim.
P. 6 advisory committee’s note to 2002 amendment
(“Rule 6(e) continues to spell out the general rule of
12

At oral argument we asked Pitch’s counsel whether there were
any other pre-Rule 6 cases in which a district court had allowed
the disclosure of grand jury records to the general public, as Pitch
requests here. Counsel could not cite any cases in which a
district court had authorized such a broad disclosure, and we
have found none.

27a
secrecy of grand-jury proceedings and the exceptions
to that general rule.” (emphasis added)).
Second, Pitch argues that the Advisory
Committee explicitly recognized in 2012 that district
courts possess the inherent authority to authorize the
disclosure of historically significant grand jury
records. In 2012, the Advisory Committee rejected a
proposal from the Attorney General that would have
amended Rule 6(e) to explicitly provide for the
disclosure of historically significant grand jury
materials. In doing so, the Committee reached a
“consensus that, in the rare cases where disclosure of
historically significant materials had been sought,
district judges had reasonably resolved applications
by reference to their inherent authority.” Advisory
Committee on Criminal Rules, Minutes of Apr. 22–23,
2012, at 7,
https://www.uscourts.gov/sites/default/files/fr_import
/criminal-min-04-2012.pdf.
We do not give much weight to the Committee’s
decision not to recommend an amendment to the rule,
especially forty-three years after Congress had
directly enacted most of the critical language itself.13

13

Congress amended Rule 6(e) directly in 1977. See Federal
Rules of Criminal Procedure Act Amendments, Pub. L. No. 9578, 91 Stat. 319 (1977). Rule 6(e) was subsequently amended in
1979, 1983, and 1985, and was rearranged in large part in 2002
as part of the general restyling of the Federal Rules of Criminal
Procedure. Non-substantive changes were also made in 2006 to
accommodate the effect that the Intelligence Reform and
Terrorism Prevention Act of 2004, Pub. L. No. 108-458, Title VI,
§ 6501(a), 118 Stat. 3760, had on Rule 6, and again in 2014 to
update a citation. However, while the subsections of the rule
may have changed (for example, the 2002 amendments moved
certain exceptions from Rule 6(e)(3)(C) to 6(e)(3)(E), where they

28a
As the Supreme Court has reiterated, “[p]ostenactment legislative history (a contradiction in
terms) is not a legitimate tool of statutory
interpretation,” because by definition it could have
had no effect on the congressional vote. Bruesewitz v.
Wyeth LLC, 562 U.S. 223, 242, 131 S. Ct. 1068, 1081
(2011) (citing District of Columbia v. Heller, 554 U.S.
570, 605, 128 S. Ct. 2783, 2805 (2008); Jones v. United
States, 526 U.S. 227, 238, 119 S. Ct. 1215, 1221 (1999);
United States v. Mine Workers, 330 U.S. 258, 281–82,
67 S. Ct. 677, 690 (1947)); accord U.S. Steel Mining
Co. v. Director, OWCP, 719 F.3d 1275, 1283 n.9 (11th
Cir. 2013) (reasoning that a senator’s statement made
two days after enactment of a statute did not—as postenactment legislative history—constitute legitimate
legislative history, and declining to consider it in
interpreting the statute). The same reasoning applies
here to the committee’s minutes. Indeed, even the
Seventh Circuit in Carlson—which reached the
opposite conclusion that we do with respect to district
courts’ inherent power to authorize disclosure of
grand jury materials outside Rule 6(e)—refused to
give this failure to amend Rule 6(e) any weight. 837
F.3d at 765. As it correctly acknowledged, “the history
of some unsuccessful efforts to change the rules . . . is
notoriously unreliable evidence, even for those who
are sympathetic to legislative history.” Id. The
Advisory Committee minutes are especially
unreliable considering that they reflect statements
made not by Congress or the Supreme Court—the
only institutions with the authority to change the

are now located) the relevant language for our purposes has
remained substantially unchanged since 1977.

29a
rule—but by a subcommittee of judges and other legal
professionals. We decline the opportunity to use such
“history” to supplement the text of Rule 6(e), which
plainly permits a district court to authorize the
disclosure of grand jury materials only in the
circumstances listed in Rule 6(e)(3)(E).14
14

For similar reasons, we do not believe, as our dissenting
colleague does, that the Civil Rights Cold Case Records
Collection Act of 2018, Pub. L. No. 115-426, 132 Stat. 5489 (2019)
(codified at 44 U.S.C. § 2107) (“Cold Case Act”)—which was
enacted forty years after Congress enacted most of the relevant
language of Rule 6(e) itself—prevents us from adopting the most
natural interpretation of the text of Rule 6(e). See post at 76
(Rosenbaum, J., dissenting). While subsequent legislation
“declaring the intent of an earlier statute” may be entitled to
great weight in interpreting that statute, Red Lion Broad. Co. v.
F.C.C., 395 U.S. 367, 380–81, 89 S. Ct. 1794, 1801 (1969), the
Cold Case Act does not declare anything about the meaning of
Rule 6(e). It simply permits the newly established Civil Rights
Cold Case Records Review Board to “request the Attorney
General to petition any court in the United States to release any
information relevant to civil rights cold cases that is held under
the injunction of secrecy of a grand jury.” Pub. L. No. 115-426 at
§ 8(a)(2)(A). It then provides that “a request for disclosure of civil
rights cold case records under this Act shall be deemed to
constitute a showing of particularized need under rule 6 of the
Federal Rules of Criminal Procedure.” Id. at § 8(a)(2)(B). It says
nothing about the scope of the court’s authority under Rule 6 to
grant the Attorney General’s request and authorize the release
of grand jury materials in a civil rights cold case. It says nothing
about what Rule 6 means.
Nonetheless, the dissent divines from this language that
Congress must have thought that courts had the inherent
authority to authorize the release of these types of grand jury
materials outside the confines of Rule 6, since Rule 6(e) does not
clearly permit the release of civil rights cold case records. Post
at 85–86 (Rosenbaum, J., dissenting). But our task is not to
discern Congress’s unexpressed beliefs. It is to interpret the
objective meaning of the text of Rule 6(e). Because the Cold Case

30a
IV.
For the foregoing reasons, we hold that Rule
6(e) is exhaustive. District courts may only authorize
the disclosure of grand jury materials if one of the five
exceptions listed in Rule 6(e)(3)(E) applies; they do not
possess the inherent, supervisory power to order the
release of grand jury records in instances not covered
by the rule. We therefore overrule our holding in
Hastings that district courts have inherent power to
authorize the release of grand jury materials outside
the confines of Rule 6(e).
REVERSED.

Act on its face says nothing about the meaning of Rule 6(e), it is
not entitled to great weight in interpreting that Rule. It
certainly does not support abandoning the most natural reading
of the text of Rule 6(e).

31a
WILLIAM PRYOR, Circuit Judge, joined by ED
CARNES, Chief Judge, and NEWSOM, BRANCH,
GRANT, TJOFLAT, and MARCUS, Circuit Judges,
concurring:
I concur in the majority’s opinion, but I write
separately to explain why the result reached in In re
Petition to Inspect and Copy Grand Jury Materials
(Hastings), 735 F.2d 1261 (11th Cir. 1984), was right,
even though its reasoning, which we overrule today,
was wrong. In short, the “judicial proceeding”
exception, Fed. R. Crim. P. 6(e)(3)(E)(i), plainly
permitted the limited disclosure of the grand jury
records to the Investigating Committee of the Judicial
Council of the Eleventh Circuit in Hastings.
In 1981, a grand jury indicted Judge Alcee L.
Hastings of the United States District Court for the
Southern District of Florida for soliciting a $150,000
bribe in return for reducing the sentences of convicted
mobsters, but a federal jury acquitted him at trial.
Hastings, 735 F.2d at 1263; The Impeachment Trial of
Alcee L. Hastings (1989) U.S. District Judge, Florida,
U.S. SENATE,
https://www.senate.gov/artandhistory/history/commo
n/briefing/Impeachment_Hastings.htm (last visited
Jan. 10, 2020). Following his acquittal, “suspicions
arose that Hastings had lied and falsified evidence
during the trial.” The Impeachment Trial, supra. In
response to a complaint filed by two federal judges
that Hastings’ actions violated the Code of Judicial
Conduct, the Chief Judge of the Eleventh Circuit
formed a five-judge Committee, 28 U.S.C. § 372(c)(4)
(1982), to investigate. Hastings, 735 F.2d at 1263–64.
During the investigation, the Committee
petitioned the Southern District of Florida for access
to the grand jury records from Hastings’ criminal case.

32a
Id. at 1264. Hastings intervened to oppose the request
on the ground that any disclosure would not fall
within an exception in Rule 6(e)(3). Id. Although the
district court agreed with Hastings that the request
did not fall within any express exception in Rule
6(e)(3), it concluded that Rule 6(e)(3) did not abrogate
the inherent powers of the federal courts to release
grand jury information in other circumstances. Id. at
1265, 1267. So the district court relied on that
purported inherent power to grant the Committee’s
petition. Id.
On appeal, every judge of our Court recused, so
the Chief Justice of the United States designated
three judges from sister circuits to serve as a panel to
hear the appeal. Id. at 1265 n.3. That special panel
affirmed. Id. at 1275. It decided that the “district
court’s belief that it had inherent power beyond the
literal wording of Rule 6(e) [was] amply supported.”
Id. at 1268. And, it concluded “special circumstances”
existed due to the nature of the judicial investigation
and the breadth of the Committee’s authorizing
statute. Id. at 1268–69.
In reaching its decision, the panel equivocated
about whether the disclosure might fall within the
exception for disclosures made “preliminarily to or in
connection with a judicial proceeding.” Id. at 1271
(quoting Fed. R. Crim. P. 6(e)(3)(E)(i)). The panel
explained that the proceeding before the Eleventh
Circuit Judicial Council and its investigatory
Committee was plainly a “judicial inquiry” based on
the composition of the Council and Committee and the
statutory protections afforded the accused. Id. at
1271–72. But it doubted whether the proceeding
satisfied the definition of “judicial proceeding” first
articulated by Judge Learned Hand. Id. (“[A] judicial

33a
proceeding . . . includes any proceeding determinable
by a court.” (quoting Doe v. Rosenberry, 255 F.2d 118,
120 (2d Cir. 1958)). In the end, the panel affirmed the
disclosure in part because the proceeding was at least
“closely akin” to a judicial proceeding, even if it was
not “a judicial proceeding in the strict legal sense” of
the term. Id. at 1272.
After a three-year investigation, which
included “hearing testimony from over 100 witnesses
and receiving approximately 2800 exhibits,” the
Committee concluded in a report to the Judicial
Council that Hastings solicited a monetary bribe,
committed perjury, and tampered with evidence. Alan
I. Baron, The Curious Case of Alcee Hastings, 19 Nova
L. Rev. 873, 874 (1995); see also The Impeachment
Trial, supra. The Judicial Council then referred the
complaint to the Judicial Conference of the United
States, which “concurred in the Council’s assessment
that . . . impeachment may be warranted” and
“certified this determination to the House of
Representatives.” Hastings v. Judicial Conference of
U.S., 829 F.2d 91, 93 (D.C. Cir. 1987).
The House approved 17 articles of
impeachment, and the Senate convicted Hastings on
8 articles. The Impeachment Trial, supra. President
pro tempore Robert C. Byrd ordered Hastings
removed from office but did not disqualify Hastings
from holding future office. Id. Indeed, Hastings
currently serves as a United States Representative
from Florida. Id.
In my view, the Hastings panel had no reason
to doubt whether the judicial proceeding exception
applied. The disclosure of the grand jury records was
plainly “in connection with a judicial proceeding.” Fed.

34a
R. Crim. P. 6(e)(3)(E)(i). That is, Hastings reached the
right result, even if for the wrong reason.
Consider first the ordinary meaning of the term
“judicial proceeding.” When Rule 6(e)(3)(E)(i) was
adopted, Black’s Law Dictionary defined “judicial
proceeding” as “any proceeding wherein judicial
action is invoked and taken.” Judicial Proceeding,
Black’s Law Dictionary (4th ed. 1951). It in turn
defined “judicial action” to include “the investigation
and determination of . . . facts” “[w]hen an inferior
officer or board is charged with an administrative act,
the performance of which depends upon and requires
the existence or ascertainment of facts.” Judicial
Action, Black’s Law Dictionary (4th ed. 1951) (“An
adjudication upon rights of parties who in general
appear or are brought before tribunal by notice or
process, and upon whose claims some decision or
judgment is rendered. . . . Action of a court upon a
cause, by hearing it, and determining what shall be
adjudged or decreed between the parties, and with
which is the right of the case.”); see also Judicial
Proceeding, Black’s Law Dictionary (11th ed. 2019)
(“Any court proceeding; any proceeding initiated to
procure an order or decree, whether in law or in
equity.”). Indeed, courts have long given “[t]he term
judicial proceeding . . . a broad interpretation.” In re
Sealed Motion, 880 F.2d 1367, 1379–80 (D.C. Cir.
1989) (collecting cases); see also In re In re Comm. on
the Judiciary, U.S. House of Representatives, No. 195288, 2020 WL 1149883, at *1, 5 (D.C. Cir. Mar. 10,
2020) (citing In re Sealed Motion to support conclusion
that an impeachment proceeding qualifies as a
“judicial proceeding” within the meaning of Rule
6(e)(3)(E)(i)). Predating the passage of Rule 6, some
courts defined “judicial proceedings” “as proceedings

35a
before a court or a judge.” Lybrand v. The State Co.,
184 S.E. 580, 583 (S.C. 1936); see also Campbell v.
N.Y. Evening Post, Inc., 157 N.E. 153, 155 (N.Y. 1927).
And soon after the passage of Rule 6, courts continued
to explain that “[t]he term judicial proceeding is not
restricted to trials, but includes every proceeding of a
judicial nature before a court or official clothed with
judicial or quasi judicial power.” Richeson v. Kessler,
255 P.2d 707, 709 (Idaho 1953); accord Jarman v.
Offutt, 80 S.E.2d 248, 251 (N.C. 1954); Quasi Judicial,
Black’s Law Dictionary (4th ed. 1951) (“A term applied
to the action, discretion, etc., of public administrative
officers, who are required to investigate facts, or
ascertain the existence of facts, and draw conclusions
from them, as a basis for their official action, and to
exercise discretion of a judicial nature.”).
Consider next the Judicial Conduct and
Disability Act of 1980, which governed the complaint
against Hastings. The Act required the chief judge of
each circuit to form a Judicial Council to oversee the
administration of justice within the circuit, including
the review of ethics complaints against judges. See 28
U.S.C. §§ 332(a)(1), (d), 372(c)(6) (1982). The Judicial
Council consisted solely of Article III judges who were
statutorily “authorized to hold hearings, to take sworn
testimony, and to issue subpoenas.” Id. § 332 (a)(4),
(d)(1). The Act required the chief judge of a circuit
where a complaint against a judge was filed to review
the complaint and take one of three actions. He could
by “written order stating his reasons” either “dismiss
the complaint” or “conclude the proceeding.” Id. §
372(c)(3). Both the complainant and the accused judge
could petition the Judicial Council for review of that
decision if desired. Id. § 372(c)(10). Otherwise, the Act
required the chief judge to create a special committee,

36a
again composed of only federal judges, to investigate
the complaint. Id. § 372(c)(4). The Committee then
conducted as “extensive” an investigation “as it
consider[ed] necessary” and, like the Judicial Council,
had full subpoena powers. Id. § 372(c)(5), (c)(9)(A).
The Act provided rights to the accused judge
and complainant and required specific procedures for
every investigation. The accused judge was entitled to
receive written notice of the investigation, to appear
in person or by counsel before the Committee, to
submit written briefing, “to present oral and
documentary evidence, to compel the attendance of
witnesses or the production of documents, [and] to
cross-examine witnesses.” Id. § 372(c)(4)(C), (c)(11). A
complainant also was entitled to appear before the
Committee if he “could offer substantial information.”
Id. § 372(c)(11)(C). The statute provided for mileage
allowance and witness fees paid out of the funds
appropriated for the courts and commensurate with
the rate provided for witnesses appearing in federal
court. 28 U.S.C. § 604(h)(1) (1982); id. § 1821. After
the Committee completed its investigation, it was
required to draft a report containing “the findings of
the
investigation
and
the
committee’s
recommendations for necessary and appropriate
action.” Id. § 372(c)(5). The Committee then forwarded
its report to the Judicial Council. Id.
The
Judicial
Council
acted
as
the
decisionmaker on the complaint. It reviewed the
Committee’s report and recommendation, and it could
also conduct additional investigation, including
holding hearings. Id. §§ 332(d)(1), 372(c)(6)(A). The
Act then empowered the Judicial Council to take
several different actions, including “censuring or
reprimanding” the accused judge and certifying the

37a
matter to the Judicial Conference to determine
whether the judge should be referred to Congress for
impeachment. Id. at § 372(c)(6), (c)(7). Any “written
order to implement any action . . . by a judicial council
. . . [had to] be made available to the public through
the appropriate clerk’s office of the court of appeals.”
Id. § 372(c)(15). And ordinarily “each such order” was
“accompanied by written reasons.” Id. In any event,
the Judicial Council was required to provide “written
notice” of any decision to both the complainant and
the accused judge. Id. § 372(c)(6)(C), (c)(7)(C). Any
complainant or judge “aggrieved by” the action could
petition for review by the Judicial Conference of the
United States, id. § 372(c)(10), which was composed of
the Chief Justice, the chief judge of each circuit, and
one district judge of each circuit, id. § 331. In sum, the
proceedings included the taking of evidence and
ordinarily culminated in a publicly available written
order that affected the rights of the accused judge and
that was appealable to the Judicial Conference.
The ordinary meaning of “judicial proceeding”
plainly included the process required by the Judicial
Conduct and Disability Act. Once a complaint was
forwarded to a special investigating committee,
federal judges had to investigate, preside, find facts,
and issue orders that affected the accused’s rights. See
Lybrand, 184 S.E. at 583 (defining “judicial
proceedings” “as proceedings before a court or a
judge”); Campbell, 157 N.E. at 155 (same); Richeson,
255 P.2d at 709 (defining a “judicial proceeding” as
“every proceeding of a judicial nature before a court or
official clothed with judicial or quasi judicial power”);
Jarman, 80 S.E.2d at 251 (same). The accused judge
was afforded the opportunity to present evidence and
argument. The complainant and the accused judge

38a
could petition for review of the Judicial Council’s
order, which was ordinarily public and accompanied
by written reasons. See Judicial Action, Black’s Law
Dictionary (4th ed. 1951) (“An adjudication upon
rights of parties who in general appear or are brought
before tribunal by notice or process, and upon whose
claims some decision or judgment is rendered. . . .
Action of a court upon a cause, by hearing it . . . .”). So
the misconduct proceedings in Hastings bore all the
hallmarks of a “judicial proceeding.”
The definition provided by Judge Hand in Doe
also covered the proceeding in Hastings, despite the
special panel’s doubts. See Hastings, 735 F.2d at 1271.
Judge Hand defined “judicial proceeding” as including
“any proceeding determinable by a court, having for
its object the compliance of any person, subject to
judicial control, with standards imposed upon his
conduct in the public interest, even though such
compliance is enforced without the procedure
applicable to the punishment of crime.” Doe, 255 F.2d
at 120. Judge Hand stressed that a narrower
interpretation of “judicial proceeding” “would not only
be in the teeth of the language employed, but would
defeat any rational purpose that can be imputed to”
the judicial-proceeding exception of Rule 6. Id. The
Judicial Council, composed of federal judges, is “[a]n
organ of the government, belonging to the judicial
department, whose function is the application of the
laws to controversies brought before it and the public
administration of justice.” Court, Black’s Law
Dictionary (4th ed. 1951). And the purpose of review
of the complaint by the Judicial Council was to assure
Hastings had not “engaged in conduct prejudicial to
the effective and expeditious administration of the
business of the courts” or in violation of either the

39a
Constitution or the Code of Judicial Conduct. See 28
U.S.C. § 372(c)(1), (c)(7)(B)(i); Hastings, 735 F.2d at
1263. So that “proceeding determinable by a court
ha[d] for its object the compliance of” judges with
“standards imposed . . . in the public interest.” Doe,
255 F.2d at 120.
The proceeding in Hastings also qualified as a
“judicial proceeding” under Supreme Court precedent.
The Supreme Court has explained that “judicial
proceedings” are proceedings that call upon a court “to
investigate, declare, and enforce ‘liabilities as they
[stand] on present or past facts and under laws
supposed already to exist.’” D.C. Court of Appeals v.
Feldman, 460 U.S. 462, 479 (1983) (quoting Prentis v.
Atl. Coast Line Co., 211 U.S. 210, 226 (1908)). The
adjudication of a “present right” is “the essence of a
judicial proceeding.” Id. at 481. “The form of the
proceeding is not significant” in evaluating whether a
proceeding is judicial. In re Summers, 325 U.S. 561,
567 (1945). “It is the nature and effect which is
controlling.” Id. Indeed, the Court found a state
supreme court’s proceeding on a bar petition
“judicial,” even though the state court had “not
treated [the proceeding] as judicial” and its clerk had
not “enter[ed] [the proceeding] in the file, on a docket,
or on a judgment roll.” Id. at 563, 567. That the state
court considered the petition “on its merits” and
“passed an order which [was] validated by the
signature of the presiding officer” sufficed to make the
proceeding “judicial.” Id. at 567–68. Similarly, the
Court found a D.C. Circuit proceeding on a bar
petition “judicial” even though the petitioner failed to
“cite case authority” or “make any explicitly legal
contentions.” Feldman, 460 U.S. at 481. The D.C.
Circuit “consider[ed] policy and equitable arguments”

40a
in evaluating the petition, which is “essentially [a]
judicial inquir[y].” Id.
The process in Hastings offered “the essence of
a judicial proceeding” despite the fact that it did not
“assume the form commonly associated with judicial
proceedings.” Id. at 481–82. When reviewing the
complaint, the Council was required to consider
policy, the Code of Judicial Conduct, and the “good
Behaviour” requirement of Article III, U.S. Const. art
III, § 1. That is, it was required to evaluate the
complaint “on [the] merits,” Summers, 325 U.S. at
567, and “on present or past facts and under laws [or
policies] supposed already to exist,” Feldman, 460
U.S. at 479 (internal quotation marks omitted). The
Council was then required to issue an order on the
complaint that would affect Hastings’ “present
right[s],” id., by possibly requesting he voluntarily
retire, temporarily ordering that no other cases be
assigned to him, censuring or reprimanding him, or
recommending him to the Judicial Conference for
impeachment consideration. 28 U.S.C. § 372(c)(6)(B),
(c)(7)(B). And because the disclosure of the grand jury
materials in Hastings was for use in the misconduct
proceeding, the disclosure was plainly “in connection
with a judicial proceeding.” United States v. Baggott,
463 U.S. 476, 479–80 (1983) (approving the “sensibl[e]
understand[ing of] the term ‘in connection with,’ [as]
refer[ring] to a judicial proceeding already pending”
where “the primary purpose of disclosure is . . . to
assist in . . . conduct[ing] a judicial proceeding”).
Our sister circuit has concluded that certain
proceedings by the Fifth Circuit Judicial Council are
“judicial in nature.” In re McBryde, 117 F.3d 208, 221
(5th Cir. 1997). In that case, the Chief Judge of the
Northern District of Texas reassigned two cases from

41a
another district judge to himself. Id. at 215. That
district judge disagreed with the reassignment and
requested review by the Fifth Circuit Judicial Council
by filing a complaint under the Judicial Conduct and
Disability Act of 1980—the same proceedings as those
initiated in Hastings. Id. at 217, 227. The Chief Judge
of the Fifth Circuit referred the matter to a special
investigatory committee, which held a hearing, heard
testimony, and took evidence. Id. at 217. After the
committee forwarded its report and recommendation,
the Judicial Council concluded the reassignments
were warranted and issued an order reassigning the
cases. Id. The district judge petitioned the Fifth
Circuit for a writ of mandamus preventing the
reassignment. Id. at 219. The Fifth Circuit was then
confronted with the question whether it could issue a
preemptory writ to the Judicial Council. Id. It
examined whether the Judicial Council should be
viewed “as an administrative body subservient to the
judiciary,” which would then allow it to review the
order on mandamus. Id. at 220.
The Fifth Circuit acknowledged that the
Judicial Council acts in an administrative capacity in
some circumstances but concluded that “it acted as a
court in this case.” Id. at 221 (citing Feldman, 460
U.S. at 477). That the Judicial Council took sworn
testimony, examined records, and issued its order
“because of alleged misconduct,” supported that these
proceedings were “judicial in nature.” Id. Because the
proceeding was not “administrative,” it could not issue
a writ to the Judicial Council. Id. (stopping short of
definitively calling the Judicial Council a “judicial
body” because that question only mattered if the
parties sought relief from the Supreme Court); cf.
Chandler v. Judicial Council of Tenth Cir. of the U.S.,

42a
398 U.S. 74, 102–03 (1970) (Harlan, J., concurring)
(“[A]t least in the issuance of orders to district judges
to regulate the exercise of their official duties, the
Judicial Council acts as a judicial tribunal for
purposes of this Court’s appellate jurisdiction under
Article III. . . . [There is] no doubt that the Councils’
architects regarded the authority granted the
Councils as closely bound up with the process of
judging itself.”).
Several of our sister circuits’ decisions that
attorney disciplinary proceedings can be “judicial
proceedings” within the meaning of Rule 6(e)(3)(E)(i)
also support the result in Hastings. So long as there is
substantial judicial involvement in the process, like
the disciplinary proceedings being held before a
judicial tribunal, our sister circuits have concluded
that these disciplinary proceedings are preliminarily
to or in connection with a judicial proceeding.” See In
re Grand Jury 89-4-72, 932 F.2d 481, 485–86 (6th Cir.
1991); In re Fed. Grand Jury Proceedings, 760 F.2d
436, 438–39 (2d Cir. 1985); In re Barker, 741 F.2d 250,
254–55 (9th Cir. 1984); United States v. Bates, 627
F.2d 349, 351 (D.C. Cir. 1980); Doe, 255 F.2d at 120.
We too have said in dicta that we agree that
“proceedings to discipline attorneys where bar
committees act as an arm of the court are part of
judicial proceedings because this function has been
assigned to the judiciary from time immemorial.” In
re J. Ray McDermott & Co., 622 F.2d 166, 170–71 (5th
Cir. 1980) (holding disclosure of grand jury records to
the Federal Energy Regulatory Commission
impermissible because the hearings before the
Commission were not “closely tied to” a judicial
proceeding).

43a
In short, there is no reason to distinguish
judicial disciplinary proceedings from those of
attorney disciplinary proceedings or from the decision
in McBryde calling these proceedings “judicial in
nature.” The disclosure of grand jury documents in
Hastings was plainly “in connection with a judicial
proceeding,” so the result in Hastings, although not its
reasoning, was right.

44a
JORDAN, Circuit Judge, concurring in the judgment:
This is a difficult case, as illustrated by the
circuit split on the issue. I agree with the court that
the better view is that the exceptions set out in Rule
6(e) to the general requirement of grand jury secrecy
are exclusive. See Carlson v. United States, 837 F.3d
753, 769–70 (7th Cir. 2016) (Sykes, J., dissenting);
McKeever v. Barr, 920 F.3d 842, 844–49 (D.C. Cir.
2019). “Inherent authority” is not available to create
additional exceptions because “the exercise of an
inherent power cannot be contrary to any express
grant of or limitation on the district court’s power
contained in a rule or statute.” Dietz v. Bouldin, 136
S. Ct. 1885, 1892 (2016) (citations omitted). I therefore
concur in the judgment.
I write separately for two reasons. First, it
seems to me that the concept of grand jury secrecy is
not as neat as the court suggests. Second, given the
circuit split, I encourage the Judicial Conference’s
Advisory Committee on Criminal Rules to address
whether Rule 6(e) should be amended to permit the
disclosure of grand jury materials for matters of
exceptional historical significance.
*******
As the court recognizes, the rule of grand jury
secrecy is firmly entrenched in our criminal justice
system. See Douglas Oil Co. of Cal. v. Petrol Stops
Nw., 441 U.S. 211, 218 n.9 (1979). The court identifies
five oft-cited reasons animating the need for secrecy:
(1) to prevent the escape of the accused whose
indictment might be contemplated; (2) to ensure the
utmost freedom to grand jury deliberations and
prevent tampering with jurors; (3) to prevent perjury
or tampering with witnesses; (4) to encourage free

45a
sharing of information from people who may have
knowledge of a crime; and (5) to protect an innocent
accused who is exonerated. See Maj. Op. at 10–11
(quoting Douglas Oil, 441 U.S. at 219 n.10). This list—
which was “summarized” from decades of case law and
treatises on the subject—glosses over the evolution in
thinking about the reasons for grand jury secrecy and
does not tell the whole story about the federal
judiciary’s approach to secrecy before the adoption of
the Federal Rules of Criminal Procedure.
From its inception in England, the rule of
secrecy appears to have functioned to secure the
grand jury’s independence from the crown. See
Richard Calkins, The Fading Myth of Grand Jury
Secrecy, 1 J. Marshall J. Prac. & Proc. 18, 18–19
(1967). As the grand jury continued to evolve in
England, the secrecy component became seen as a
means to prevent escape by suspected criminals. See
George Edwards, Jr., The Grand Jury 116 (1906)
[Legal Classics Library ed. 2003]. See also Mark
Kadish, Behind the Locked Doors of an American
Grand Jury: Its History, its Secrecy, and its Process,
24 FL. ST. U. L. REV. 1, 13 (1996) (explaining that,
during the grand jury’s beginnings in England,
secrecy was part of the process in order to prevent
escape by offenders). In the early days of the republic,
American and English commentators alike held
“many diverse views” regarding the reasons for
secrecy, while others attacked these views and the
need for grand jury secrecy more generally. See
Edwards, The Grand Jury, at 116 & nn.80–83. One
late 1800s American commentator focused on two
prominent reasons for secrecy, while criticizing the
concept: to give the government a proper advantage in
conducting its investigation, and to provide grand

46a
jurors freedom from fear or restraint. See Eugene
Stevenson, Our Grand Jury System, 8 Crim. L. Mag.
& Rep. 711, 720 (1886). By the early twentieth
century, many courts had already begun to recite the
full set of traditional justifications for secrecy later set
out in Douglas Oil. See, e.g., Schmidt v. United States,
115 F.2d 394, 396–97 (6th Cir. 1940) (citing United
States v. Amazon Chem. Corp., D.C., 55 F.2d 254, 261
(D. Md. 1931)).
Whatever the reasons for secrecy in the preRules era, when the grand jury’s functions had
concluded courts had the authority to disclose
materials “where the ends of justice require[d] it.”
United States v. Socony-Vacuum Oil Co., 310 U.S. 150,
234 (1940) (citation omitted). Courts facing the
question of whether to disclose grand jury materials
looked to the specific circumstances before them to
determine whether the need for secrecy had
dissipated. For example, several pre-Rules cases
concluded that the need for secrecy was lessened after
the grand jury had made its presentment and
indictment, the indictment had been made public, the
grand jury had been discharged, and/or the accused
was in custody. See Atwell v. United States, 162 F. 97,
99–101 (4th Cir. 1908) (holding that the rule of secrecy
did not preclude a grand juror, post-indictment, from
disclosing evidence presented to the grand jury);
Metzler v. United States, 64 F.2d 206 (9th Cir. 1923)
(allowing an assistant U.S. attorney present at the
grand jury to read in evidence at trial from shorthand
notes taken at the proceedings because “[a]fter the
indictment has been found and made public and the
defendants apprehended, the policy of the law does
not require the same secrecy as before”) (citations
omitted); In re Grand Jury Proceedings, 4 F. Supp.

47a
283, 285 (E.D. Pa. 1933) (“The fact that the grand jury
has adjourned and been discharged has often been
considered as one reason for abandoning secrecy as to
its deliberations.”). In these cases, concerns about an
escaping offender or tampering with jurors and
witnesses were no longer at issue.
Likewise, other pre-Rules cases involving
challenges to the evidence supporting an indictment
concluded that it would be proper to relax the rule of
secrecy to prevent abuses in the grand jury proceeding
itself. See Murdick v. United States, 15 F.2d 965, 967–
68 (8th Cir. 1926) (“There is no divinity surrounding
[the grand jury’s] action, and the court has the right
to go behind the secrecy imposed upon a grand jury as
to its proceedings, where the interests of justice
demand it.”); United States v. Byoir, 147 F.2d 336,
336–37 (5th Cir. 1945) (acknowledging that a court
“had discretionary authority to permit disclosure of
what happened before the grand jury when necessary
to advance the cause of justice,” and affirming an
order allowing the defendant to examine grand jury
minutes related to evidence as to him, and relieving
the stenographer of his secrecy obligation to allow him
to testify before the court); McKinney v. United States,
199 F. 25, 27 (8th Cir. 1912) (noting that “doubtless in
extreme instances a court may do what is needful to
prevent clear injustice or an abuse of judicial process”
at the grand jury stage). Indictments had already
been returned in these cases, so again concerns such
as protecting innocent and/or exonerated accused
persons were naturally not relevant and did not
support maintaining the veil of secrecy.
Consistent with this circumstance-specific
approach, even when courts in the pre-Rules era
determined that disclosure was appropriate, they

48a
recognized distinctions among the types of materials
sought to be obtained, and the policy reasons to afford
greater secrecy to some kinds of records and
information (e.g., juror discussions and votes). In the
words of one court, “infinite secrecy” might be desired
for discussions and votes of individual jurors to
protect them from the “the malice and consequent
injury growing out of his neighbor’s knowledge that he
had advocated or voted for a presentment against
him.” Atwell, 162 F. at 100. See also United States v.
Farrington, 5 F. 343, 347 (N.D.N.Y. 1881)
(“[W]henever it becomes essential to ascertain what
has transpired before a grand jury it may be shown,
no matter by whom; and the only limitation is that it
may not be shown how the individual jurors voted or
what they said during their investigations . . . because
this cannot serve any of the purposes of justice.”)
(citations omitted); McKinney, 199 F. at 38 (Sanborn,
J., dissenting) (“[T]he modern and the true rule is that
the veil of secrecy may be removed from all the
proceedings before the grand jury, except the votes
and sayings of the grand jurors . . . .”) (citations
omitted).
The guidepost for disclosure in each of these
pre-Rules cases was only whether the ends of justice
would be furthered. See Metzler, 64 F.2d at 206; In re
Grand Jury Proceedings, 4 F. Supp. at 285. At least
one circuit court—somewhat inverting the default—
said that secrecy should be maintained “[t]o the full
extent necessary to fulfill the ends of justice, and no
further.” Atwell, 162 F. at 100. This broad standard
gave courts substantial discretion to decide whether
disclosure was appropriate after weighing the need for
secrecy against competing concerns.

49a
*******
In 2012, the Advisory Committee on Criminal
Rules decided not to proceed with a proposal from
then–Attorney General Eric Holder to amend to Rule
6(e) to allow disclosure for historically significant
grand jury materials. See Judicial Conference
Committee on Rules of Practice and Procedure
Minutes, June 11–12, 2012, at 44. See also Summary
of the Report of the Judicial Conference Committee on
Rules of Practice and Procedure, Sept. 2012, at 32–33.
The proposal was not rejected out of the concern the
majority hints at—that it would be difficult to
determine when something was “so ‘historically
significant’ that the interest in disclosure outweighs
the interest of that the grand jurors, witnesses, and
future generations, among others, have in
maintaining the secrecy of the proceedings.” See Maj.
Op. 19 n.9. On the contrary, the Advisory Committee
believed that amendment of Rule 6 “would be
premature” and that “district judges had reasonably
resolved” applications for disclosure on these grounds.
See Summary of the Report of the Judicial Conference
Committee on Rules of Practice and Procedure, Sept.
2012, at
33.1
1

A copy of Attorney General Holder’s proposal is attached as an
appendix to the Court’s opinion. The proposed amendment
would permit disclosure of grand jury materials of exceptional
historical significance that are at least 30 years old and that have
become part of the permanent records of the National Archives
under 44 U.S.C. § 2107. See Letter from Attorney General Eric
Holder to Judge Reena Raggi, Chair of the Judicial Conference’s
Advisory Committee on Criminal Rules, Oct. 18, 2011, at 6–8, 6
n.3. As to cases at least 30 years old, the proposed amendment
would authorize district courts to determine whether disclosure

50a
Although the Advisory Committee deemed
Attorney General Holder’s proposed amendment
unnecessary,
its
determination
implicitly
contemplated that a historical importance exception
might be ripe for consideration at some future date.
Given the current circuit split and the Supreme
Court’s recent denial of certiorari on the issue, see
McKeever v. Barr, No. 19-307, 2020 WL 283746 (U.S.
Jan. 21, 2020), it appears that day is upon us. See id.
at *1 (Breyer, J., respecting the denial of certiorari)
(noting that this is an “important question” that the
Rules Committee “can and should revisit”).
I
therefore urge the Advisory Committee on Criminal
Rules to consider whether Rule 6(e) should be
amended to permit the disclosure of grand jury
materials for matters of exceptional historical
significance and, if so, under what circumstances.2
*******
With these thoughts, I concur in the judgment.

is warranted on a case-by-case basis. See id. at 6–8. Records 75
years or older would become available to the public under the
same standards applicable to other records in the National
Archives. See id. at 6, 8 (citation omitted).
2

Ms. Pitch’s motion for leave to file a supplemental brief
suggests that an amendment to Rule 6 indeed may be the only
way of obtaining the grand jury records. Congress has provided
a means to access materials like the Moore’s Ford Lynching
grand jury records in the Civil Rights Cold Case Records
Collection Act of 2018, Pub. L. No. 115-426, 132 Stat. 5489 (2019)
(codified at 44 U.S.C. § 2107 note). But according to Ms. Pitch,
apparently there have not been any congressional
appropriations. Nor have there been any appointments to the
Review Board charged with evaluating petitions under the Act.

51a
WILSON, Circuit Judge, joined by MARTIN, as to
Parts II and III, and JILL PRYOR, Circuit Judges,
dissenting:
For nearly 40 years, our precedent has been
consistent with both history and the text of Rule 6(e).
It has been the law in this Circuit that district courts
have inherent authority to order the disclosure of
sealed grand jury materials outside of Rule 6(e)’s list
of enumerated exceptions. We previously stated:
Although Rule 6(e)(3) enumerates the
exceptions to the traditional rule of
grand jury secrecy, the Supreme Court
and this Court have recognized that the
district courts have inherent power
beyond the literal wording of Rule 6(e)(3)
to disclose grand jury material and that
Rule 6(e)(3) is but declaratory of that
authority.
United States v. Aisenberg, 358 F.3d 1327, 1347
(11th Cir. 2004) (citing Pittsburgh Plate Glass Co. v.
United States, 360 U.S. 395, 398–99 (1959)).
The fountainhead for this precedent in our
Circuit is In re Petition to Inspect and Copy Grand
Jury Materials, where we held that “a petition by a
judicial investigating committee presents one of the
occasions when a district court may act outside the
strict bounds of Rule 6(e), in reliance upon its historic
supervisory power.” 735 F.2d 1261, 1273 (11th Cir.
1984) [hereinafter Hastings].1 Our reasoning in
1

Before our decision in Hastings, the Second Circuit reached the
same conclusion in In re Biaggi, 478 F.2d 489, 490–94 (2d Cir.
1973) (holding that—despite Rule 6(e)’s enumerated

52a
Hastings has been adopted by two other circuits. See,
e.g., Carlson v. United States, 837 F.3d 753, 766 (7th
Cir. 2016); In re Petition of Craig, 131 F.3d 99, 103 (2d
Cir. 1997).2
Today, we do an about-face and hold that Rule
6(e) is exhaustive.” Majority Op. at 4, 31. Now,
“[d]istrict courts may only authorize the disclosure of
grand jury materials if one of the five exceptions listed
in Rule 6(e)(3)(E) applies; they do not possess the
inherent, supervisory authority to order the release of
grand jury records in instances not covered by the
rule.” Id. at 30.
I dissent for two reasons.
I.
First, this case does not justify an abrupt
departure from several decades of settled Eleventh
Circuit precedent, especially to overrule a district
judge’s well-reasoned decision relying on that
precedent.
exceptions—grand jury secrecy is not absolute and therefore,
“under the special circumstances” of that case, disclosure was to
the public’s benefit and would not undermine the values
protected by the “rule of secrecy”).
2

2 Two additional circuits—the First and the Tenth—have
acknowledged that district courts may release grand jury
materials outside Rule 6(e)’s enumerated exceptions. See In re
Grand Jury Proceedings, 417 F.3d 18, 26 (1st Cir. 2005) (holding
that Rule 6(e)’s “phrasing can, and should, accommodate rare
exceptions premised on inherent judicial power” and endorsing
our holding in Aisenberg); In re Special Grand Jury 89-2, 450
F.3d 1159, 1178–79 (10th Cir. 2006) (recognizing that there is
“substantial support” for the notion that courts may order
disclosure using their “inherent authority,” even when Rule 6(e)
does not apply).

53a
“[N]o judicial system could do society’s work if
it eyed each issue afresh in every case that raised it.”
Chicago Truck Drivers, Helpers & Warehouse Union
(Indep.) Pension Fund v. Steinberg, 32 F.3d 269, 272
(7th Cir. 1994). “Indeed, the very concept of the rule
of law underlying our own Constitution requires such
continuity over time that a respect for precedent is, by
definition, indispensable.” United States v. Aman, 31
F.3d 550, 554 (7th Cir. 1994).
That is not to say that this Court lacks the
authority to revisit prior precedent in a case of
exceptional importance when the “prior judicial ruling
should come to be seen so clearly as error that its
enforcement was for that very reason doomed.” Id.
But, there is a high bar for en banc review. It “is not
favored,” and will ordinarily not be conducted unless
it is necessary to resolve an intra-Circuit split or
“involves a question of exceptional importance.” Fed.
R. App. P. 35(a). This appeal falls into neither
category.
The majority says times have changed, and it
interprets the rule differently now. But our precedent
should not zigzag back and forth based on the outcome
of each case.
Moreover, release of grand jury
materials is not an everyday occurrence—before this
case, district courts in the Eleventh Circuit had only
unsealed grand jury transcripts, over an objection,
twice since the Court was established in 1981.3 See
Aisenberg, 358 F.3d at 1331; Hastings, 735 F.2d at
1264–65, 1275. And if a district judge abuses that
3

Moreover, the Department of Justice has admitted that,
nationwide, the use of inherent authority to disclose grand jury
records has been “rare.” See Advisory Comm. on Crim. Rules,
Agenda Book 223 (Apr. 2012).

54a
authority, there is a safeguard—the exercise of that
discretion is subject to our review. See Aisenberg, 358
F.3d at 1350–52.
In short, while the underlying circumstances in
this case were exceptional, the underlying opinion
was not. Therefore, I would maintain our longstanding precedent permitting district judges to
exercise their inherent supervisory authority to
unseal grand jury records “in an appropriate factual
situation.” See Hastings, 735 F.2d at 1272.
II.
More importantly, I dissent because we
correctly interpreted the text of Rule 6(e) the first time
around, and the second. I advance this argument in
three parts. First, our decision in Hastings was in line
with the common-law tradition of courts exercising
their inherent authority to disclose grand jury
materials in circumstances both “mundane” and
“weighty.” See Carlson, 837 F.3d at 762. Second,
Hastings was in harmony with the Federal Rules of
Criminal Procedure because Rule 6(e) did not
eliminate the inherent authority of district courts to
disclose grand jury materials in extraordinary
circumstances. And third, Rule 6(e)’s history further
demonstrates that the rule did not and does not
abrogate district courts’ authority to disclose grand
jury materials.
A.
District courts have limited inherent power to
supervise grand jury proceedings; the existence of
that power is supported by its history and use. Before
the advent of the Federal Rules of Criminal
Procedure, there was no question as to whether

55a
district courts had discretion to relax the traditional
rule of secrecy. See Schmidt v. United States, 115 F.2d
394, 397 (6th Cir. 1940). The Supreme Court said as
much: “Grand jury testimony is ordinarily
confidential. But after the grand jury’s functions are
ended, disclosure is wholly proper where the ends of
justice require it.” United States v. Socony-Vacuum
Oil Co., 310 U.S. 150, 233–34 (1940) (citation
omitted).
It is true that grand juries are functionally
independent from district courts, but they remain “an
arm of the court,” Levine v. United States, 362 U.S.
610, 617 (1960), and operate “under general
instructions from the court[s] to which [they are]
attached,” Cobbledick v. United States, 309 U.S. 323,
327 (1940); see also In re Grand Jury Subpoena Duces
Tecum, 797 F.2d 676, 680 n.4 (8th Cir. 1986) (stating
that the grand jury “acts under the inherent
supervision of the court”).4 For example, though the
grand jury “must initiate prosecution for . . . federal
4

I use the phrase “functionally independent” advisedly, because
the Supreme Court has recognized that the grand jury has a
degree of independence from courts. However, the Court has not
decided the extent of that independence. Compare Levine, 362
U.S. at 617 (“The grand jury is an arm of the court . . . . The
Constitution itself makes the grand jury a part of the judicial
process.”) (citation omitted) (internal quotation mark omitted),
with United States v. Williams, 504 U.S. 36, 47 (1992) (“Although
the grand jury normally operates, of course, in the courthouse
and under judicial auspices, its institutional relationship with
the Judicial Branch has traditionally been, so to speak, at arm’s
length.”). As I explain infra, this functional independence
means, at a minimum, that courts’ inherent supervisory power
over grand juries is limited in nature. See Williams, 504 U.S. at
50.

56a
crimes,” it “does so under general instructions from
the court,” and “from time to time, it reports its
findings” to the court. Cobbledick, 309 U.S. at 327.
Furthermore, to subpoena a witness, a grand jury may
appeal “to the court under whose aegis the grand jury
sits.” Levine, 362 U.S. at 617. And several courts
have recognized that grand jury records are court
records. See Carlson, 837 F.3d at 758 (“Because the
grand jury is part of the judicial process, its minutes
and transcripts are necessarily records of the court.”
(citation omitted) (internal quotation marks
omitted)); Standley v. Dep’t of Justice, 835 F.2d 216,
218 (9th Cir. 1987) (holding that “[g]rand jury
materials are records of the district court”); In re
Grand Jury Investigation of Cuisinarts, Inc., 665 F.2d
24, 31 (2d Cir. 1981) (same); United States v. Penrod,
609 F.2d 1092, 1097 (4th Cir. 1979) (same); see also
United States v. Procter & Gamble Co., 356 U.S. 677,
685 (1958) (Whittaker, J., concurring).
To be sure, a court’s inherent supervisory
power over grand juries is “very limited” and “not
remotely comparable to the power” that a court
maintains over its own proceedings. Williams, 504
U.S. at 50. Grand juries’ functional independence
prevents “judicial reshaping of the grand jury
institution.” Id. Therefore, courts’ supervisory power
is used to “preserve or enhance the traditional
functioning of the grand jury.” Carlson, 837 F.3d at
762 (internal quotation mark omitted).
Within the inherent supervisory power of
district courts is “the discretion to determine when
otherwise secret grand-jury materials may be
disclosed.” Id. Though grand juries are subject to a
general rule of secrecy, that secrecy has never been
absolute. See Michael A. Foster, Cong. Research

57a
Serv., R45456, Federal Grand Jury Secrecy: Legal
Principles and Implications for Congressional
Oversight 5 (2019) (stating that the general rule of
grand jury secrecy is “not unyielding”). Instead, the
rule of secrecy has been relaxed and disclosure
permitted “whenever the interest of justice requires,”
and that decision “rests largely within the discretion
of the court.” In re Grand Jury Proceedings, 4 F. Supp.
283, 284 (E.D. Pa. 1933); see also United States v.
Farrington, 5 F. 343, 346 (N.D.N.Y. 1881) (stating
that “[i]t is only practicable” for courts “to exercise a
salutary supervision over the proceedings of a grand
jury” by “removing the veil of secrecy whenever
evidence of what has transpired before them becomes
necessary to protect public or private rights”). This is
because grand jury secrecy is derived from common
law, and like any common-law fixture, it has changed
in both its scope and purpose.5 See Douglas Oil Co. of
Ca. v. Petrol Stops Nw., 441 U.S. 211, 218 n.9 (1979)
(citing Richard M. Calkins, Grand Jury Secrecy, 63
Mich. L. Rev. 455, 457 (1965)).
This history is crucial to our understanding of
Rule 6(e) and its effects on the courts’ inherent power
to disclose grand jury materials. It demonstrates that
Rule 6(e) is “not the true source of the district court’s
power with respect to grand jury records, but rather
is a codification of standards pertaining to the scope
of the power entrusted to the discretion of the district
court.” Hastings, 735 F.2d at 1268. In other words,
Rule 6(e) is only “declaratory” of the traditional
5

The grand jury and grand jury secrecy are components of our
English political heritage that were transplanted into our federal
common law. See Douglas Oil Co. of Ca. v. Petrol Stops Nw., 441
U.S. 211, 218 n.9 (1979).

58a
common-law rule that the disclosure of grand jury
materials is “committed to the discretion of the trial
judge.” Pittsburgh Plate Glass Co., 360 U.S. at 399.
The majority ignores this history and examines
Rule 6(e) as if it has no backdrop. But we read rules
“against the entire background of existing customs,
practices, rights, and obligations” already existing in
common law and not expressly displaced by statute.
See David L. Shapiro, Continuity and Change in
Statutory Interpretation, 67 N.Y.U. L. REV. 921, 925
(1992); see also Astoria Fed. Sav. & Loan Ass’n. v.
Solimino, 501 U.S. 104, 108 (1991) (recognizing that
“Congress is understood to legislate against a
background of common-law . . . principles”). And
although district courts’ inherent power may be
limited by statute and rule, we are not permitted to
“lightly assume that Congress has intended to depart
from established principles such as the scope of a
court’s inherent power.” Chambers v. NASCO, Inc.,
501 U.S. 32, 47 (1991); see also Link v. Wabash R.R.
Co., 370 U.S. 626, 630–32 (1962). Thus, to have
displaced that inherent power, Rule 6 would need a
“clear[] expression of [that] purpose,” Link, 370 U.S.
at 631–32, or for there to be a contradiction between
the power and the rule, see Dietz v. Bouldin, 579 U.S.
____, ____, 136 S. Ct. 1885, 1892 (2016). As explained
below, Rule 6(e) has neither.
B.
In statutory (and rule) interpretation, we are
expected to hold tight to the words of the law. But the
majority flouts that command by discerning a clear
expression of exhaustiveness in Rule 6(e) that is not
at all evident. The unambiguous words of Rule 6(e) do
not clearly demonstrate an intention to abrogate

59a
courts’ inherent authority to release grand jury
materials. Nor do the words of Rule 6(e) conflict with
the exercise of that authority.
Rule 6(e)—entitled “Recording and Disclosing
the Proceedings”—contains three subparts, of which
only two are important in this case: 6(e)(2) (Secrecy)
and 6(e)(3) (Exceptions). Rule 6(e)(2)(A) states that
“[n]o obligation of secrecy may be imposed on any
person except in accordance with Rule 6(e)(2)(B).”
Rule 6(e)(2)(B) provides that “[u]nless these rules
provide otherwise, the following persons must not
disclose a matter occurring before the grand jury.”
The rule then lists seven types of persons to which
secrecy applies: grand jurors, interpreters, court
reporters, operators of a recording device, persons who
transcribe recorded testimony, attorneys for the
government, and persons to whom disclosure was
made under either Rule 6(e)(3)(A)(ii) or (iii). District
court judges appear nowhere on this list.
Rule 6(e)(3) provides exceptions to secrecy
rules. Subparts (A), (B), (C), and (D) of that rule
describe circumstances in which grand jury materials
may be disclosed without court permission. Subpart
(E) describes circumstances in which courts may
authorize disclosure. It says that a “court may
authorize disclosure—at a time, in a manner, and
subject to any other conditions that it directs—of a
grand-jury matter” under certain circumstances. Fed.
R. Crim. P. 6(e)(3)(E) (emphasis added). Those
circumstances are
(i) preliminarily to or in connection with
a judicial proceeding;
(ii) at the request of a defendant who
shows that a ground may exist to dismiss

60a
the indictment because of a matter that
occurred before the grand jury;
(iii) at the request of the government,
when sought by a foreign court or
prosecutor for use in an official criminal
investigation;
(iv) at the request of the government if it
shows that the matter may disclose a
violation of State, Indian tribal, or
foreign criminal law, as long as the
disclosure is to an appropriate state,
state-subdivision, Indian tribal, or
foreign government official for the
purpose of enforcing that law; or
(v) at the request of the government if it
shows that the matter may disclose a
violation of military criminal law under
the Uniform Code of Military Justice, as
long as the disclosure is to an
appropriate military official for the
purpose of enforcing that law.
Id. Nothing in this language suggests the court’s
ability to disclose is restricted to only these
circumstances.
The majority claims that the clause “[u]nless
these rules provide otherwise”—which appears only in
Rule 6(e)(2)(B)—applies to all of Rule 6(e) and is proof
of a clear intent to eliminate a court’s inherent power
to disclose grand jury materials in all circumstances
except those listed in subpart (e)(3)(E). Majority Op.
at 15–17. That is a strained interpretation. I cannot
think of a basis in statutory interpretation (or any
interpretation for that matter) that would allow the
majority to copy the exclusivity requirement from

61a
subpart (e)(2)(B)—which excludes courts and judges
from those who are barred from disclosure—and paste
it into subpart (e)(3)(E). See Carlson, 837 F.3d at 764.
Nor does the majority provide any basis in statutory
construction for this interpretation.
Instead, the majority says that the “text and
structure” of Rule 6(e) support its interpretation.
Majority Op. at 15. But far from offering support for
the majority’s interpretation, the text and structure of
the rule undermine it. In fact, the text of the rule
explicitly prohibits the majority’s interpretation: “No
obligation of secrecy may be imposed on any person
except in accordance with Rule 6(e)(2)(B).” Fed. R.
Crim. P. 6(e)(2)(A). And, as the Carlson majority
noted, the fact that limiting language exists elsewhere
in Rule 6(e), but not in (3)(E), proves “that its absence
in (3)(E) was intentional.” See 837 F.3d at 764.
Therefore, the right reading is the plain one: the
unless-these-rules-provide-otherwise limitation in
Rule 6(e)(2)(B) applies only to those listed in (e)(2)(B).
Courts and judges are not listed there, so they are
unaffected by that provision.
The majority attempts yet another end run
around the plain text. It concludes that, given the
limited role of courts in grand jury proceedings, the
absence of “courts” or “judges” from Rule 6(e)(2)(B) is
understandable and “does not mean that the district
court has no secrecy obligations with respect to grand
jury proceedings.” Majority Op. at 22. But that is the
right answer to the wrong question. As explained
above, there is no doubt that district courts have
secrecy obligations under common law. See supra at
61. The right question is whether Rule 6(e)(2)(B)
clearly alters district court secrecy obligations so that
they are absolute in all circumstances except those

62a
listed in Rule 6(e)(3). In other words, does Rule
6(e)(2)(B) clearly evince a purpose to eliminate district
courts’ inherent authority over grand jury materials?
See Link, 370 U.S. at 631–32. The answer is no. Rule
6(e)(2)(B) does not include courts or judges, so they
cannot be constrained by the unless-these-rulesprovide-otherwise limitation.
Having stripped the majority’s interpretation
of its (e)(2)(B) disguise, our focus next turns to Rule
6(e)(3)(E), which explains when the court “may
authorize disclosure.” Fed. R. Crim. P. 6(e)(3)(E).
That language is plainly permissive.6 “[T]he ‘word’
may . . . implies some degree of discretion.” See
Carlson, 837 F.3d at 765 (citing United States v.
Rodgers, 461 U.S. 677, 706 (1983)). And permissive
language does not compel the conclusion that it was
the purpose of the rule to abrogate the courts’ inherent
power to disclose grand jury materials. See Link, 370
U.S. at 630–32. The rule’s text is devoid of terms of
exclusivity; it only specifies some circumstances in
which disclosure is authorized. The rule’s drafters
used limiting language in other parts of Rule 6 but
omitted such language from the only part of the rule
6

6 Some of our sister circuits that have considered this issue
have come to this same conclusion. See Carlson, 837 F.3d at 766
(“The text and history of the Rules indicate that Rule 6(e)(3)(E)
is permissive, not exclusive, and it does not eliminate the district
court’s long-standing inherent supervisory authority to make
decisions as needed to ensure the proper functioning of a grand
jury.”); Craig, 131 F.3d at 102 (“Although, by delimiting the
exceptions to grand jury secrecy, Rule 6(e)(3) governs almost all
requests for the release of grand jury records, this court has
recognized that there are certain ‘special circumstances’ in which
release of grand jury records is appropriate even outside of the
boundaries of the rule.”).

63a
that discusses courts. We should view that choice as
intentional and not mistaken.
In a sleight of hand, the majority suggests that
while the Supreme Court has not squarely addressed
the issue in this case, it “has on several occasions
suggested that Rule 6(e) is exclusive.” Majority Op. at
17. Yet none of the cases it cites, either implicitly or
explicitly, analyzed the scope of a district court’s
inherent authority to disclose grand jury materials.
See Pittsburgh Plate Glass Co., 360 U.S. at 396
(holding that a “trial court did not err in refusing to
make . . . grand jury testimony available to
[defendants] for . . . cross-examination”); United
States v. Baggot, 463 U.S. 476, 479 (1983) (holding
that disclosure for use in a tax audit was not
“preliminarily to or in connection with a judicial
proceeding” within the meaning of then Rule
6(e)(3)(c)(i), now 6(e)(3)(E)(i)); Williams, 504 U.S. at
55 (holding that a district court may not dismiss an
otherwise valid indictment on the ground that the
government failed to disclose substantial exculpatory
evidence to the grand jury).
The majority also complains that this
interpretation of Rule 6(e)(3)(E) would make the
enumerated exceptions to Rule 6(e) “merely
precatory.” Majority Op. at 18. Quite the contrary.
As the Seventh Circuit explained, it is not
unreasonable to infer that the rule’s drafters provided
a list of frequent invocations to disclose grand jury
material, “so that the court knows that no special
hesitation is necessary in those circumstances.” See
Carlson, 837 F.3d at 765. That inference is far more
reasonable than guessing that the rule’s drafters
excluded district court judges from the list of persons
prevented from disclosing grand jury materials, and

64a
yet intended the secrecy requirement to apply to them
anyway. Especially given that, as explained further
below, “exceptions to the secrecy rule generally have
developed through conformance of Rule 6 to the
‘developments wrought in decisions of the federal
courts,’ not vice versa.” In re Am. Historical Ass’n, 49
F. Supp. 2d 274, 286 (S.D.N.Y. 1999) (emphasis
added).
Moreover, continuing to recognize district
courts’ limited inherent authority to release grand
jury materials would not “circumvent or conflict with
the Federal Rules of Criminal Procedure.” See
Carlisle v. United States, 517 U.S. 416, 426 (1996). A
district court’s decision to disclose grand jury
materials in extraordinary circumstances would not
annul any portion of Rule 6, nor could exercising that
authority contradict Rule 6(e)(3)(E)’s permissive
language.
For those reasons, it seems plain to me that the
rule did not expressly eliminate courts’ inherent
authority to release grand jury materials.
C.
If the text of Rule 6(e) were not clear enough,
the history of the rule and the Advisory Committee
Notes also support our instinct in Hastings: Rule 6(e)
was meant to codify—not “ossify”—the common law.7
See 735 F.2d at 1269. Rule 6 was enacted to
“continue[] the traditional practice of secrecy on the
7

“[A]lthough [Advisory Committee Notes] do not foreclose
judicial consideration of the Rule’s validity and meaning, the
construction given by the Committee is of weight.” Schiavone v.
Fortune, 477 U.S. 21, 31 (1986) (internal quotation mark
omitted).

65a
part of members of the grand jury, except when the
court permits a disclosure.” Fed. R. Crim. P. 6
advisory committee’s notes to 1944 adoption
(emphasis added). In other words, in the first
iteration of the rule, the drafters intended for courts
to maintain their power to disclose grand jury
materials “where the ends of justice require it.” See
Socony-Vacuum Oil Co., 310 U.S. at 234. The
Advisory Committee Notes even cite cases that held
that district courts have discretion to relax the rule of
secrecy.
See Fed. R. Crim. P. 6(e) advisory
committee’s notes to 1944 adoption (citing Schmidt v.
United States, 115 F.2d 394, 397 (6th Cir. 1940)
(“Logically, the responsibility for relaxing the rule of
secrecy and of supervising any subsequent inquiry
should reside in the court, of which the grand jury is
a part and under the general instructions of which it
conducted its ‘judicial inquiry.’ It is a matter which
appeals to the discretion of the court when brought to
its attention.” (citations omitted)); United States v.
Am. Med. Ass’n, 26 F. Supp. 429, 430 (D.D.C. 1939)
(stating that nothing can “release a juror from the
oath of secrecy” but “a court acting in a given case
[may do so] when in its judgment the ends of justice
so require”); Atwell v. United States, 162 F. 97, 100–
03 (4th Cir. 1908)).
Since the adoption of Rule 6, courts have
exercised the authority to order disclosure in a variety
of cases not expressly provided for in the rule. And
Rule 6(e) has been frequently amended to conform to
“subsequent developments wrought in decisions of the
federal courts” and not vice versa. Hastings, 735 F.2d
at 1268; see Am. Historical Ass’n, 49 F. Supp. 2d at
286; In re Kutler, 800 F. Supp. 2d 42, 45–46 (D.D.C.
2011). Three examples are instructive. In 1977, the

66a
rule was amended to allow disclosure to government
personnel who assist prosecutors with the grand jury.
The Advisory Committee Notes explain that change
followed a trend of cases allowing this kind of
disclosure.
See Fed. R. Crim. P. 6(e) advisory
committee’s notes to 1977 amendment (citing In re
William H. Pflaumer & Sons, Inc., 53 F.R.D. 464 (E.D.
Pa. 1971)). Then, in 1983, the rule was further
amended to allow disclosure to other federal grand
juries. The Advisory Committee Notes explain that
“[e]ven absent a specific provision to that effect, the
courts have permitted such disclosure in some
circumstances.” See Fed. R. Crim. P. 6 advisory
committee’s notes to 1983 amendment (citing SoconyVacuum Oil Co., 310 U.S. at 150; United States v.
Garcia, 420 F.2d 309 (2d Cir. 1970)). Finally, in 1985,
the rule was amended to allow disclosure to state and
local government employees, following the example in
In re 1979 Grand Jury Proceedings, 479 F. Supp. 93
(E.D.N.Y. 1979). See Fed. R. Crim. P. 6 advisory
committee’s notes to 1985 amendment.
This amendment history underscores that Rule
6(e) was never intended to “strictly confine[]” the
instances in which disclosure of grand jury materials
is appropriate. Hastings, 735 F.2d at 1268; see id. at
1269; Carlson, 837 F.3d at 765.
This history
demonstrates that the Advisory Committee accepted
and adopted these subsequent developments by
adding them to the existing list of exceptions. Had the
rule eliminated courts’ inherent power to disclose
grand jury material beyond the enumerated
exceptions, the Advisory Committee would have
amended the rule and included a clear expression of
that intent.

67a
A recent Advisory Committee action supports
this viewpoint. In 2012, the Advisory Committee
considered the exact question at issue in this case and
reaffirmed that Rule 6(e) is permissive and not
exhaustive.8 In 2011, the Department of Justice
proposed an amendment to Rule 6(e) that would have
“allow[ed] district courts to permit the disclosure, in
appropriate circumstances, of archival grand-jury
materials of great historical significance.”
See
Advisory Comm. On Crim. Rules, Agenda Book 217
(Apr. 2012); see generally id. at 209–271. The
Department even put forward the same hobbled
argument the majority has: “federal courts have no
inherent authority to develop rules that circumvent or
conflict with the Federal Rules,” and the courts that
had applied “historical significance exception[s] to
Rule 6(e) threaten[ed] to undermine” the rule. Id. at
217. But the Advisory Committee rejected the
proposal because it viewed it as unnecessary. The
Committee explained, that “in the rare cases where
disclosure of historically significant materials had
been sought, district judges had reasonably resolved
applications by reference to their inherent authority.”
Advisory Comm. on Crim. Rules, Minutes 7 (Apr.
2012).

8

The majority rightly acknowledges that Advisory Committee
minutes are different from Advisory Committee Notes and the
text of the rule itself, and they cannot be given much weight. I
rely on these minutes only to the extent that they demonstrate
that learned minds—namely, judges and other legal
professionals—also recognize that the inherent authority of
district courts to relax grand jury secrecy is unaltered by Rule
6(e).

68a
* * *
In sum, the majority’s view is anti-textual and
anti-historical. The text and history of the Rules
support the conclusion that Rule 6(e)(3)(E) was not
intended to abrogate courts’ inherent power to
disclose grand jury materials, as the rule remains
subject to the common law that preceded it. See
Hastings, 735 F.2d at 1268.
Without a clear
expression of the desire to displace courts’ inherent
power to disclose grand jury materials, the reasonable
interpretation of the rule is a permissive one: Rule 6(e)
was intended to codify traditional law, not ossify it.
See id. at 1269. And the exercise of the inherent
power to disclose grand jury materials does not
conflict with the rule.
III.
Because the district court had the inherent
authority to disclose grand jury materials, I would
affirm its decision that the facts in this case present
exceptional circumstances justifying the exercise of
that authority.9
“[W]hile district courts have inherent authority
to act outside Rule 6(e)(3), any inherent disclosure
authority is exceedingly narrow.” Aisenberg, 358 F.3d
at 1347. “[C]ourts are not empowered to act outside
Rule 6(e) in other than exceptional circumstances
consonant with the rule’s policy and spirit.” Hastings,
735 F.2d at 1269 (emphasis added). Exceptional
9

I have provided only an abridged analysis of this issue here.
For a fuller analysis, including a detailed discussion of the Craig
factors, see Pitch v. United States, 915 F.3d 704, 709–13 (11th
Cir. 2019), reh’g en banc granted and opinion vacated, 925 F.3d
1224 (11th Cir. 2019).

69a
circumstances exist when the need for disclosure
outweighs the public interest in continued secrecy.
See id. at 1272–73 (quoting Douglas Oil, 441 U.S. at
223 (“[T]he court’s duty in a case of this kind is to
weigh carefully the competing interests in light of the
relevant circumstances and standards announced by
this Court.”)); id. at 1275. And in the proper
circumstances, grand jury records on a matter of
exceptional historical significance may trigger a
district court’s inherent authority to disclose them.
See Craig, 131 F.3d at 106 (outlining a “nonexhaustive list of factors that a trial court might want
to consider when confronted with these highly
discretionary and fact-sensitive” motions).
Here, the district judge appropriately
recognized that the Pitch petition was not a run-ofthe-mill Rule 6 petition. The records are more than
70 years old. There are no surviving witnesses or
grand jurors. And no one disagrees that the Moore’s
Ford Lynching is an exceptional historical event, tied
to the Civil Rights Movement. For nearly 100 years,
mass lynchings were the dual-purpose weapon of the
Klan’s war for white supremacy: they served to both
eradicate large numbers of African Americans and
terrorize generations more. Punctuating that century
of terror, the Moore’s Ford mass lynching is thought
to be the last in our history. Of course, given the
importance of grand jury secrecy, the burden on the
petitioner is high in cases like these. It takes an event
so profound in our country’s dark past—so demanding
of deep study and thought—to overcome that burden.
After balancing the competing interests, it seems
obvious to me that this case would meet that burden
and that disclosure outweighs the interest in
continued secrecy.

70a
* * *
To conclude, I would maintain our Circuit’s
precedent that district courts have an inherent power
to disclose grand jury materials. That power is
limited and should be invoked advisedly. That was
done here, and so I would affirm.

71a
ROSENBAUM, Circuit Judge, dissenting:
I agree that the Majority Opinion’s reading of
Rule 6(e)(2) is the most natural one: Rule 6(e)(2) sets
forth a general rule of secrecy, and Rule 6(e)(3)
provides the only exceptions to that rule. Maj. Op. at
15–16. But a major problem with that interpretation
precludes it from being the correct one: we know for
a fact that Congress itself—which, of course, is the
branch that adopted Rule 6—does not agree with it.
In fact, Congress has enacted recent legislation that
depends for its operability on construing Rule 6(e) not
to abrogate the courts’ common-law inherent power to
authorize release of grand-jury materials when
appropriate, even in the absence of an articulated
exception under Rule 6(e). The Majority Opinion has
no answer to this problem.
To show why Rule 6(e) necessarily preserves
the courts’ common-law inherent authority to permit
release of grand-jury materials, Section I of this
dissent briefly reviews the origins of Rule 6(e)—the
common law. Section II.A then demonstrates that
Congress, in legislating against this common-law
background, necessarily and undoubtedly retained
courts’ common-law inherent power to authorize
release of grand-jury materials, even in the absence of
an express exception to Rule 6(e).1 As proof of this
fact, I explain how the viability of a 2018 law depends
on this construction of Rule 6(e). Section II.B shows
1

Judge Wilson and some of our sister Circuits have reached this
same ultimate conclusion that Rule 6(e) preserves courts’
common-law inherent power to authorize release of grand-jury
materials outside the specified exceptions to Rule 6(e). See
Carlson v. United States, 837 F.3d 753, 766–67 (7th Cir. 2016);
In re Petition of Craig, 131 F.3d 99, 102–03 (2d Cir. 1997).

72a
that, in contrast to the Majority Opinion’s
unsupported view to the contrary, Supreme Court
precedent forcefully validates the conclusion that
where, as here, the efficacy of a later Congress’s
legislative enactment necessarily depends on that
later Congress’s plausible construction of an earlier
law, it is entitled to deference. Finally, Section III
establishes that Congress’s reading of its own
enactment is consistent with Supreme Court
precedent.
I.
Judge Wilson’s dissent ably reviews courts’
traditional supervisory power over grand juries, so I
do not cover that again here, see Wilson Dissent at 59–
63 & n.5, except to emphasize that before Rule 6(e)’s
enactment, courts had the power to disclose grandjury materials when appropriate. The Majority
Opinion does not dispute this fact.
That common-law historical background, see
Douglas Oil Co. of Cal. v. Petrol Stops Nw., 441 U.S.
211, 218 n.9 (1979), is crucial to our interpretation of
Rule 6(e) because “Congress is understood to legislate
against a background of common-law principles.”
Samantar v. Yousuf, 560 U.S. 305, 320 n.13 (2010)
(quoting Astoria Fed. Sav. & Loan Assn. v. Solimino,
501 U.S. 104, 108 (1991)) (quotation marks and
ellipses omitted). And when a statute “covers an issue
previously governed by the common law, we interpret
the statute with the presumption that Congress
intended to retain the substance of the common law.”
Id. (citing Isbrandtsen Co., Inc. v. Johnson, 343 U.S.
779, 783 (1952)).
As Judge Wilson explains, under the common
law, courts always had the inherent authority to

73a
permit the breach of grand-jury secrecy when
circumstances so required. And since Rule 6(e) was
intended to “codif[y] the traditional rule of grand jury
secrecy,” see United States v. Sells Eng’g, Inc., 463
U.S. 418, 425 (1983), we cannot lightly conclude that
Rule 6(e) jettisoned that common-law inherent
authority. See United States v. Socony-Vacuum Oil
Co., Inc., 310 U.S. 150, 233–34 (1940). To the
contrary, we must keep this historical background in
mind when we consider the meaning of Rule 6(e).
II.
A.
That brings me to a review of Congress’s
understanding of Rule 6(e). Despite the attraction of
Rule 6’s most natural reading, that construction does
not control our decision here, where “a clearly
expressed legislative intention to the contrary” exists.
Consumer Prod. Safety Comm’n v. GTE Sylvania, Inc.,
447 U.S. 102, 108 (1980). We do not have to wonder
whether Congress intended Rule 6(e) to preserve
courts’ common-law-based inherent authority to
permit the disclosure of grand-jury records; we know
that Congress understands Rule 6(e) to do just that.
That’s because less than two years ago, it enacted the
Civil Rights Cold Case Records Collection Act of 2018,
Pub. L. No. 115-426, 132 Stat. 5489 (2019) (codified at
44 U.S.C. § 2107) (the “Cold Case Act”). And as the
Majority Opinion does not deny, see Maj. Op. at 30
n.14, a significant chunk of that Act can function only
if Rule 6(e) preserves courts’ inherent authority to
allow the release of grand-jury materials.
The Cold Case Act is a vital tool in trying to
bring at least some form of closure to a deplorable
chapter in our history—that of violence against racial

74a
minorities. Broadly described, the law requires the
Archivist of the United States to establish and
disclose to the public a collection of records relating to
unsolved civil-rights cases that arose from January 1,
1940, through December 31, 1979. See Pub. L. No.
115-426 at §§ 2(1)–(3), 3(a)–(b).
The Senate
committee that recommended passage of the law
noted that the records are “valuable for researchers,
journalists, historians, and those interested in solving
these unsolved crimes,” and that “public disclosure of
information may actually increase the likelihood of
enforcement by crowdsourcing the materials.” Civil
Rights Cold Case Records Collection Act of 2018:
Report of the Committee on Homeland Security and
Governmental Affairs, S. Rep. No. 115-424, 115th
Cong., 2d Sess. 2 (2018) (“Senate Rpt.”).
To allow for a deeper understanding of the
covered civil-rights cases, the Cold Case Act creates a
multi-step mechanism for the United States Attorney
General to seek court-authorized release of grand-jury
materials to the public. As relevant here, under that
process, the Attorney General can petition the
relevant court for the disclosure of the grand-jury
records. See Pub. L. No. 115-426 at § 8(a). Then, the
court determines whether the requested materials
should be released.
But here’s the part that’s important for our
analysis of Rule 6(e): significantly, the Cold Case Act
is not a freestanding grant of authority—separate and
apart from Rule 6(e)—to the courts to authorize the
release of grand-jury materials. Rather, the Act
expressly anticipates that a court will be able to
authorize the disclosure of any covered grand-jury
records through only the Rule 6 mechanism.

75a
In this respect, the statute specifies that “[a]
request for disclosure of civil rights cold case records
under this Act shall be deemed to constitute a showing
of particularized need under rule 6 of the Federal
Rules of Criminal Procedure.” Id. at § 8(a)(2)(B)
(emphasis added). Not only does the statute expressly
invoke only Rule 6 as the mechanism under which the
Attorney General can seek to obtain disclosure of
grand-jury materials, but the reference to
“particularized need” is also significant. That is the
standard the Supreme Court has articulated for
determining when a court may authorize release of
grand-jury materials under Rule 6(e).2
Rule 6(e)(3)(E) sets forth Rule 6(e)’s articulated
exceptions under which a court may authorize release
of grand-jury materials. Yet it is not enough for a
party seeking disclosure to point to an exception
under Rule 6(e)(3)(E); rather, movants must also
“show that the material they seek is needed to avoid a
2

The Majority Opinion correctly notes that disclosures made
under Rule 6(e)(3)(A)–(D) may occur without court approval.
Maj. Op. at 14–15. But for two reasons, these exceptions clearly
do not authorize disclosure of the grand-jury records sought
under the Cold Case Act. First, the Cold Case Act requires the
Attorney General to petition a court in the United States for the
release of grand-jury materials. See Pub. L. No. 115-426 at §
8(a)(2)(A). So it cannot be the case that any of these selfexecuting exceptions in Rule 6(e)(3)(A)–(D) authorize disclosure
under the Act. And second, even the most cursory review of these
exceptions—which permit disclosure for law-enforcement
purposes to other government attorneys or personnel assisting
government attorneys (Rule 6(e)(3)(A)(i)–(iii)), to a separate
grand jury (Rule 6(e)(3)(C)), or in limited circumstances to
foreign intelligence officials (Rule 6(e)(3)(D))—reveals that, by
their terms, they do not authorize disclosure of grand-jury
materials to the general public.

76a
possible injustice in another judicial proceeding, that
the need for disclosure is greater than the need for
continued secrecy, and that their request is structured
to cover only material so needed.” Douglas Oil, 441
U.S. at 222; see Sells Eng’g, 463 U.S. at 443 (“We have
consistently construed the Rule, however, to require a
strong showing of particularized need for grand jury
materials before any disclosure will be permitted.”)
(emphasis added) (citations omitted).
We must presume that Congress deliberately
used the term “particularized need.” As the Supreme
Court has explained, “if a word is obviously
transplanted from another legal source . . . it brings
the old soil with it.” Evans v. United States, 504 U.S.
255, 260 n.3 (1992)) (quoting Frankfurter, Some
Reflections on the Reading of Statutes, 47 Colum. L.
Rev. 527, 537 (1947)). Indeed, “[a]ny word or phrase
that comes before a court for interpretation is . . . .
part of an entire corpus juris. So, if possible, it should
no more be interpreted to clash with the rest of that
corpus than it should be interpreted to clash with
other provisions of the same law.” Antonin Scalia &
Bryan A. Garner, Reading Law: The Interpretation of
Legal Texts § 39, at 252 (2012); cf. Holloway v. United
States, 526 U.S. 1, 9 (1999) (recognizing that “it is
reasonable to presume that Congress was familiar
with the cases and the scholarly writing” concerning
its laws) (citing Cannon v. University of Chicago, 441
U.S. 677, 696–68 (1979)). So rather than creating a
new exception, the plain language of Section 8(a)(2)(B)
of the Cold Case Act requires courts considering Cold
Case Act requests from the Attorney General to act
under only Rule 6(e).
But significantly, when we look at the specific
exceptions Rule 6(e) authorizes for a court to allow

77a
disclosure, we readily find that not a single one
permits a court to authorize the Attorney General’s
disclosure of grand-jury materials to the public. To
show why that is so, I review the articulated
exceptions.
Rule 6(e)(3)(E)(i) permits the disclosure of
materials “preliminarily to or in connection with a
judicial proceeding.” As the Supreme Court has
explained, under this exception to Rule 6(e), “it is not
enough to show that some litigation may emerge from
the matter in which the material is to be used, or even
that litigation is factually likely to emerge.” United
States v. Baggot, 463 U.S. 476, 480 (1983). Rather,
“[t]he focus is on the actual use to be made of the
material. If the primary purpose of disclosure is not
to assist in preparation or conduct of a judicial
proceeding, disclosure under [this exception] is not
permitted.” Id.
In contrast, the primary purpose of the Cold
Case Act is to provide public access to the records of
the covered cold cases, for educational, historical, and
scholarly uses. Perhaps in a rare case, the public’s
research into the released materials may yield enough
evidence to allow a governmental agency to reopen a
cold case if it desires to do so and not all suspects are
dead. But even accounting for that exceptional
circumstance, the primary purpose of the Cold Case
Act is, most certainly, not to assist in preparation or
conduct of a judicial proceeding. Indeed, a covered
civil-rights case from the 1940-1979 period is subject
to the Act for the very reason that the Attorney
General has no promising leads that would suffice to
identify and indict a living potential defendant. So
this exception has no bearing here.

78a
Next, Rule 6(e)(3)(E)(ii) allows for breach of
grand-jury secrecy that comes “at the request of a
defendant who shows that a ground may exist to
dismiss the indictment because of a matter that
occurred before the grand jury.” Under the Cold Case
Act, though, the Attorney General—not an indicted
defendant—is the one authorized to request
disclosure of the grand-jury materials. Besides, a
defendant obtains the grand-jury materials under this
exception for the purpose of seeking to dismiss his
indictment, not to release them to the public. So this
exception has no bearing here.
Rule 6(e)(3)(E)(iii) authorizes disclosure of
grand-jury records “at the request of the government,
when sought by a foreign court or prosecutor for use
in an official criminal investigation.” But while the
materials the Attorney General asks for under the
Cold Case Act are at the request of the government,
she does not seek them for Rule 6(e)(3)(iii)’s required
purpose—that is, because they are “sought by a
foreign court or prosecutor for use in an official
criminal investigation.” Cf. Baggot, 463 U.S. at 480.
This exception also does not authorize release to the
Attorney General for disclosure to the general public.
So this exception has no bearing here.
Like Rule 6(e)(3)(E)(iii), Rule 6(e)(3)(E)(iv)
permits disclosure at the government’s request, but
this time, only if the government “shows that the
matter may disclose a violation of State, Indian tribal,
or foreign criminal law, as long as the disclosure is to
an appropriate state, state-subdivision, Indian tribal,
or foreign government official for the purpose of
enforcing that law.” Again, though, the exception does
not authorize disclosure by the government to the
general public, as the Cold Case Act requires. And on

79a
top of that, release of records under the Cold Case Act
is not “for the purpose of enforcing [state, Indian
tribal, or foreign criminal law].” Cf. Baggot, 463 U.S.
at 480. So this exception has no bearing here.
Finally, Rule 6(e)(3)(E)(v) allows for disclosure
“at the request of the government if it shows that the
matter may disclose a violation of military criminal
law under the Uniform Code of Military Justice, as
long as the disclosure is to an appropriate military
official for the purpose of enforcing that law.” Once
again, the exception does not authorize disclosure by
the government to the general public, as the Cold Case
Act requires. Nor is release of records under the Cold
Case Act “for the purpose of enforcing [military
criminal law under the Uniform Code of Military
Justice].” Cf. Baggot, 463 U.S. at 480.
So this
exception has no bearing here.
That’s it. We’re fresh out of Rule 6(e)(3)(E)
specified exceptions. And just to avoid any doubt, I
note that Rule 6(e) also does not authorize disclosure
merely upon a showing of “particularized need.”
So how under Rule 6(e) did Congress expect a
court to authorize the Attorney General’s disclosure of
cold-case-civil-rights
grand-jury
materials?
Obviously, it construed Rule 6(e) to somehow endow
courts with that authority. Otherwise, we would have
to assume that Congress enacted the grand-juryrecords-release mechanism of the Cold Case Act
knowing that it would be an exercise in futility. That
can’t be right. Indeed, “one of the most basic
interpretive canons” requires us to construe a statute
“so that effect is given to all its provisions, so that no
part will be inoperative or superfluous, void or
insignificant.” Corley v. United States, 556 U.S. 303,
314 (2009) (citation and quotation marks omitted).

80a
Then why did Congress view Rule 6(e) to permit
courts to authorize the Attorney General’s release of
cold-case-civil-rights grand-jury materials to the
public? There’s only one possible answer: Congress
construed Rule 6(e) to maintain from the common-law
tradition the inherent authority of courts to release
grand-jury materials upon an appropriate showing—
that of “particularized need.”
B.
As I have noted, the Majority Opinion does not
deny this. Rather, it fudges a bit, acknowledging only
that under the Majority Opinion’s construction of Rule
6(e), “Rule 6(e) does not clearly permit the release of
civil rights cold case [grand-jury] records.” Maj. Op.
at 30 n.14.
That is quite an understatement of the problem
with the Majority Opinion’s interpretation of Rule
6(e): Rule 6(e)’s express exceptions neither clearly nor
unclearly permit the release of Cold Case Act grandjury materials. They simply don’t allow the disclosure
of Cold Case grand-jury materials at all. Even the
Majority Opinion does not try to explain how, under
its view of Rule 6(e), the grand-jury-release provisions
of the Cold Case Act can be operable—even in an
unclear way. And no wonder—there is no way.
Because the Majority Opinion cannot deny that
the Cold Case Act proves that Congress construes
Rule 6(e) to retain courts’ common-law inherent power
to authorize disclosure of grand-jury materials
outside of rule 6(e)’s enumerated exceptions, it is
reduced to arguing that we should simply ignore
Congress’s interpretation of Rule 6(e) because
Congress revealed it in the Cold Case Act. Not only

81a
does this interpretation contradict Supreme Court
precedent, but it also defies logic.
The Supreme Court has long held that
“subsequent legislation declaring the intent of an
earlier statute is entitled to great weight in statutory
construction.” Loving v. United States, 517 U.S. 748,
770 (1996) (cleaned up and citations omitted); Red
Lion Broadcasting Co. v. FCC, 395 U.S. 367, 381 n.8
(1969) (describing this proposition as a “venerable”
principle and citing in support Alexander v. Mayor &
Commonalty of Alexandria, 9 U.S. 1 (1809); United
States v. Freeman, 44 U.S. 556 (1845); Stockdale v.
Ins. Cos., 87 U.S. 323 (1874)). The Majority Opinion
tries to escape this “venerable” principle by
contending that “the Cold Case Act does not declare
anything about the meaning of Rule 6(e),” since it does
not expressly mention Rule 6(e) in its text (other than
to require the Attorney General to obtain grand-jury
materials from the courts through the Rule 6(e)
process). Maj. Op. at 30 n.14.
But Supreme Court precedent shows that
Congress can declare its intent expressly or implicitly.
See Almendarez-Torres v. United States, 523 U.S. 224,
237 (1998).
As the Majority Opinion correctly
observes, Congress can, for example, state in later
legislation what the earlier law “mean[s],” id. (citing
Fed. Hous. Admin. v. Darlington, Inc., 358 U.S. 84, 90
(1958)), or it may “seek to clarify an earlier enacted
general term.” Id. (citing Red Lion, 395 U.S. at 380–
81).
But just as effectively, Congress can express its
intent through implicit means, such as by enacting a
law that “depend[s] for [its] effectiveness upon
clarification … of an earlier statute.” Id. (citing
Seatrain Shipbuilding Corp. v. Shell Oil Co., 444 U.S.

82a
572, 595–96 (1980)); see also Loving, 517 U.S. at 770.
This is so because a later statute that relies for
operability on a particular construction of an earlier
law “is either a legislative exposition of a power
formerly granted, or the grant of a new power.”
Alexander, 9 U.S. at 8; see also Freeman, 44 U.S. at
564– 65 (“[I]f it can be gathered from a subsequent
statute in pari materia, what meaning the legislature
attached to the words of a former statute, they will
amount to a legislative declaration of its meaning, and
will govern the construction of the first statute.”); see
also Scalia & Garner, Reading Law § 39, at 252
(“Several acts in pari materia, and relating to the
same subject, are to be taken together, and compared
in the construction of them, because they are
considered as having one object in view, and as acting
upon one system.”) (citation and quotation marks
omitted).
This makes perfect sense. “With respect to
subsequent legislation[,] . . . Congress has proceeded
formally through the legislative process.” South
Carolina v. Regan, 465 U.S. 367, 378 n.17 (1984)
(cleaned up and citations omitted). And if Congress
had enough votes to pass legislation that depends for
its efficacy on a particular plausible interpretation of
an earlier law, it by definition had enough votes to
enact legislation that expressly adopts the necessary
construction of the earlier law.3 That it did not do so
3

So if Congress did believe that Rule 6 stripped courts of
inherent authority to authorize the release of grand-jury
materials, it could have changed the rule to accommodate the
Cold Case Act. Indeed, Congress substantively amended Rule 6
as recently as 2011 to “allow[] a judge to take a grand jury return
by video teleconference.” Fed. R. Crim. P. 6 advisory committee’s
note to 2011 amendments. Nothing prevented it from again

83a
proves only that it had no reason to believe that, in
the future (and in violation of separation-of-powers
principles), we would insist on imposing our own
opposing construction of the earlier law, even though
that interpretation would render Congress’s most
recent enactment nonfunctional.
Otherwise, we
would have to believe that Congress went to the
trouble of enacting the grand-jury provisions of the
Cold Case Act knowing full well that they could never
function. That would make about as much sense as
concrete life preservers.
Yet the Majority Opinion simply dismisses the
fact that the Cold Case Act’s grand-jury-recordsrelease provisions are inoperable under its
amending it in 2018, to enable the operability of the Cold Case
Act, if it had construed Rule 6(e) not to have preserved courts’
inherent authority. After all, it made changes to several other
Federal Rules of Criminal Procedure that year. For example,
Rule 12.4 (“Disclosure Statement”) was amended in 2018 to
specify the deadline for filing a Rule 12.4(a) statement and to
allow the government to “show[] good cause” for why it need not
file a statement identifying any organization victim of an alleged
criminal activity. See Fed. R. Crim. P. 12.4 advisory committee’s
note to 2018 amendments. Likewise, Congress made multiple
changes to Rule 49 (“Serving and Filing Papers”), including
introducing subsections (a)(3) and (a)(4) that list the permissible
means of service. See Fed. R. Crim. P. 49 advisory committee’s
note to 2018 amendments. And Rule 45 (“Computing and
Extending Time”) was amended to reflect the revisions to Rule
49. See Fed. R. Crim. P. 45 advisory committee’s note to 2018
amendments. That Congress did not amend Rule 6(e) when it
enacted the Cold Case Act, which depends for functionality on
the construction of Rule 6(e) that recognizes courts’ continuing
inherent power to order release of grand-jury records outside an
articulated exception, therefore demonstrates that Congress did
not need to do so, since Rule 6(e) already included courts’
inherent authority to release grand-jury materials.

84a
interpretation of Rule 6(e), arguing that “the Cold
Case Act on its face says nothing about the meaning
of Rule 6(e).” Maj. Op. at 31 n.14 (emphasis added).
This argument completely ignores the Supreme Court
precedent I have reviewed above, which holds that a
later Congress’s legislation that relies for its efficacy
on a particular plausible interpretation of an earlier
Congress’s law necessarily declares the meaning of
the earlier law—even if it does not do so explicitly.
And the Majority Opinion brushes aside this principle
that the Supreme Court has relied on without
exception for more than two-hundred years, without
so much as citing a single authority supporting its
position. See Maj. Op. at 30–31 n.14. This sinks the
Majority Opinion faster than the concrete life
preserver its analysis would saddle onto the Cold Case
Act.
We must always keep in mind that construing
a statute or rule is not an academic exercise; our aim
is to read it as Congress intended. After all, Congress,
not the Judiciary, holds the legislative power. Often,
it is hard to know precisely what congressional intent
was, so we rely on the most natural interpretation of
the text. That rule generally makes sense. But
where, as here, congressional construction of the rule
we are interpreting is objectively and undeniably
determinable from another legislative enactment and
is consistent with the common-law background
against which the rule was adopted, we have no
business imposing our own conflicting interpretation
of the rule—especially when doing so invalidates
portions of another law and violates more than twohundred years of Supreme Court precedent.

85a
III.
This conclusion is, of course, at odds with the
Majority Opinion’s assertion that the Supreme Court
“has on several occasions suggested that Rule 6(e) is
exclusive.” Maj. Op. at 17. Respectfully, I believe the
Majority Opinion has it wrong.
Consider Sells Engineering, which the Majority
Opinion cites. The Supreme Court’s language in that
case suggests the Court reached the same conclusion
that I have, which is that Rule 6(e) imports the
common-law tradition of courts’ inherent power to
authorize disclosure. There, after reiterating the
critical importance of grand-jury secrecy, the Court
explained that “[i]n the absence of a clear indication
in a statute or Rule, we must always be reluctant to
conclude that a breach of this secrecy has been
authorized.” Sells Eng’g, 463 U.S. at 425 (citation
omitted).
Significantly, the Court used the term
“reluctant” to describe the approach a court should
take in evaluating whether to authorize a breach of
grand-jury secrecy not “clear[ly] indicat[ed] in a
statute or Rule.” In other words, while the general
rule requires that a court permit only expressly
authorized disclosures, rare exceptions are sometimes
appropriate. If that were not the case, the Supreme
Court would have simply said that “in the absence of
a clear indication in a statute or Rule, we must
conclude that a breach of this secrecy has not been
authorized.”
That it instead only cautioned
“reluctan[ce]” in finding authorization to release
grand-jury materials in the absence of an express
exception implicitly acknowledges the continuing
authority of courts to go beyond the enumerated

86a
exceptions in Rule 6(e)(3) in at least some—albeit
quite rare—circumstances.
The other cases that the Majority Opinion
relies on fare no better. The Majority Opinion invokes
Pittsburgh Plate Glass Co. v. United States, 360 U.S.
395, 398 (1959), for the proposition that “any
disclosure of grand jury minutes is covered by [Rule]
6(e).” Maj. Op. at 17. But significantly, the Supreme
Court made this statement in the context of
determining that release of grand-jury testimony of a
trial witness was governed ultimately by Rule 6(e),
not by Jencks v. United States, 353 U.S. 657 (1957). It
neither had reason to opine nor did it opine on
whether Rule 6(e)’s listed exceptions are exclusive
when Rule 6 controls a potential disclosure.
The Majority Opinion’s reliance on the
Supreme Court’s statement in Baggot, 463 U.S. at
479, that Rule 6(e)’s exception for release of grandjury materials “preliminarily to or in connection with
a judicial proceeding” “is, on its face, an affirmative
limitation on the availability of court-ordered
disclosure of grand jury materials,” is similarly
misplaced. Maj. Op. at 17–18. In Baggot, the
Supreme Court was interpreting the “preliminarily to
or in connection with a judicial proceeding” exception
to Rule 6(e). At the outset of its analysis, the Court
made the statement the Majority Opinion invokes. In
context, it is clear that the Court was simply
identifying the provision it was analyzing—a
provision that each party agreed was the relevant one
and argued the terms of which supported its position.
So as in Pittsburgh Plate Glass, the Court had no
reason to consider—and did not in fact consider—
whether Rule 6(e)’s listed exceptions are exclusive
when Rule 6 controls a potential disclosure.

87a
Finally, the Majority Opinion points to United
States v. Williams, 504 U.S. 36 (1992), for the
proposition that Rule 6(e) “plac[es] strict controls on
disclosure of matters occurring before the grand jury.”
Maj. Op. at 18 (citing id. at 46 n.6) (cleaned up).
Williams wasn’t even about disclosure of grand-jury
information at all.
Rather, the question there
concerned whether a district court had the power to
dismiss an otherwise-valid indictment because the
government did not disclose to the grand jury
“substantial exculpatory evidence” in its possession.
Williams, 504 U.S. at 37–38.
In concluding courts do not enjoy that
authority, the Court gave examples of the
circumstances under which a court may rely on its
supervisory power to dismiss an indictment,
specifically referring to situations where the
government has violated certain rules created “to
ensure the integrity of the grand jury’s functions.” Id.
at 46. In a footnote, it listed several such rules. One
of those listed was Rule 6(e), described in passing in
the terms the Majority Opinion quotes. Id. at 46 n.6.
In context, it is clear that the Court was not referring
to aspects of Rule 6(e) that address the courts’
authority to permit release of grand-jury materials
but rather to the parts of Rule 6(e) that allow release
of grand-jury materials without the courts’
authorization. And in any case, at no time in Williams
did the court evaluate—or have any reason to
evaluate—whether Rule 6(e)’s listed exceptions are
exclusive.
Thus, Supreme Court precedent does not
“suggest[] that Rule 6(e) is exclusive.” Maj. Op. at 17.
If anything, it supports the opposite conclusion.

88a
IV.
In short, we don’t have to guess whether
Congress intended to maintain courts’ common-law
inherent power to authorize release of grand-jury
materials in appropriate circumstances. We know
indisputably that it did. Otherwise, we must accept
that Congress created the grand-jury-records-release
mechanism of the Cold Case Act knowing that no way
to utilize that provision exists. That would be
nonsensical. When, as here, a later Congress’s
statutory enactment depends for its efficacy on a
particular plausible interpretation of an earlier law,
that later Congress’s interpretation is entitled, under
longstanding Supreme Court precedent, to “great
weight.” Loving, 517 U.S. at 770 (cleaned up and
citations omitted). And well it should be, in line with
the proper roles of the Legislative and Judicial
branches. The Majority Opinion offers no answer to
this sturdy principle. Because the Majority Opinion
does not defer to Congress’s plausible legislative
interpretation of Rule 6(e), I respectfully dissent.
* * *

89a
[EXHIBIT]
11-CR-C
[SEAL]

Office of the Attorney General
Washington, DC 20530
October 18, 2011

The Honorable Reena Raggi, Chair
Advisory Committee on the Criminal Rules
704S United States Courthouse
225 Cadman Plaza East
Brooklyn, New York 11201-1818
Dear Judge Raggi:
The Department of Justice recommends an
amendment to Rule 6(e) of the Federal Rules of
Criminal Procedure to allow district courts to permit
the disclosure, in appropriate circumstances, of
archival grand-jury materials of great historical
significance and to provide a temporal end point for
grand-jury secrecy with respect to materials that
become part of the permanent records of the National
Archives.
Although most other categories of historically
significant federal records, including classified
records, eventually become part of the public
historical record of our Nation, Rule 6(e) recognizes no
point at which the blanket of grand-jury secrecy is
lifted. The public policies that justify grand-jury
secrecy are, of course, “manifold” and “compelling.”
Pittsburgh Plate Glass Co. v. United States, 360 U.S.

90a
395, 399 (1959). But they do not forever trump all
competing considerations. After a suitably long
period, in cases of enduring historical importance, the
need for continued secrecy is eventually outweighed
by the public’s legitimate interest in preserving and
accessing the documentary legacy of our government,
For this reason, a number of federal courts have
granted third-party petitions to disclose historically
significant grand-jury materials—most recently, for
example, the transcript of President Nixon's 1975
testimony to the Watergate grand jury—by invoking
the inherent authority of federal courts as a
justification for deviating from the requirements of
Rule 6(e).
The difficulty is that, as the Supreme Court has
made clear, federal courts have no inherent authority
to develop rules that circumvent or conflict with the
Federal Rules of Criminal Procedure. See, e.g.,
Carlisle v. United States, 517 U.S. 416, 426 (1996). In
our view, the growing acceptance among federal
courts of a “historical significance” exception to Rule
6(e) threatens to undermine the essential principle
that Rule 6(e) encompasses, within its four corners,
the rule of grand-jury secrecy and all of its exceptions
and limitations, We therefore propose an amendment
to Rule 6(e) that would accommodate society's
legitimate interest in securing eventual public access
to grand-jury materials of significant historical
importance, while at the same time defining the
contours of that access within the text of Rule 6(e).
A. Background
Rule 6(e) “codifies the traditional rule of grand
jury secrecy,” United States v. SellsEngineering, Inc.,

91a
463 U.S. 418, 425 (1983), which is “older than our
Nation itself,” Pittsburgh Plate Glass, 360 U.S. at 399.
Rule 6(e) imposes a flat prohibition on disclosures by
non-witness participants in grand-jury proceedings
“[u]nless these rules provide otherwise.” Fed. R. Crim.
P. 6(e)(2)(B). Most of the exceptions, which are
enumerated in Rule 6(e)(3), concern disclosures to
other government officials or related persons in the
course of government business. See Rule 6(e)(3)(A)(D).
Rule 6(e)(3)(E), in turn, identifies five
circumstances in which a district court may order the
disclosure of grand-jury materials in its own
discretion. It is not an open-ended list: by its plain
terms, the rule defines the universe of circumstances
in which a district court “may authorize disclosure of
a grand-jury matter.” Of the five circumstances listed,
only two permit disclosures to non-government
officials:
(E) The court may authorize disclosure—
at a time, in a manner, and subject to any
other conditions that it directs—of a
grand-jury matter:
(i) preliminarily
connection
with
proceeding;

to
a

or in
judicial

(ii) at the request of a defendant
who shows that a ground may
exist to dismiss the indictment
because of a matter that occurred
before the grand jury; . . .

92a
Fed R. Crim. P. 6(e)(3)(E)(i)-(ii).
Neither of these provisions—nor any other
provision of law—authorizes a third party to obtain
access to grand-jury material merely because it is
historically significant. The first
exception
(“preliminarily to or in connection with a judicial
proceeding”) cannot support a freestanding petition to
release historical grand-jury records. “[O]bviously the
permission to disclose for use in connection with ǥa
judicial proceeding’ does not encompass a proceeding
instituted solely for the purpose of accomplishing
disclosure.” In re Biaggi, 478 F.2d 489, 492 (2d Cir.
1973) (Friendly, J.). Rather, disclosure under Rule
6(e)(3)(E)(I) is permitted only if “the primary purpose”
is “to assist in preparation or conduct of a judicial
proceeding,” United States v. Baggot, 463 U.S. 476,
480 (1983), and only where the materials are “needed
to avoid a possible injustice” and the disclosure is
tailored “to cover only material so needed,” Douglas
Oil Co. v. Petrol Stops Northwest, 441 U.S. 211, 222
(1979). And all of the other exceptions address specific
circumstances in which the need for the materials and
identity of the recipient is carefully delineated. In this
sense, Rule 6(e) “is, on its face, an affirmative
limitation on the availability of court-ordered
disclosure of grand jury materials.” Baggot, 463 U.S.
at 479. The court-ordered disclosure to third-party
requesters of grand-jury records in their entirety,
unconnected to any otherwise pending judicial
proceeding, without a particularized showing of need,
and based solely on the records' historical
significance, is outside the contemplation of Rule 6(e).
Nonetheless, some courts have exercised what
they have described as their inherent authority to

93a
release historically significant grand-jury material.
These courts have held that “special circumstances”
may justify disclosure of grand-jury materials even
when none of Rule 6(e)'s specific exceptions applies.
The leading decision is In re Craig, 131 F.3d 99 (2d
Cir. 1997), in which the Second Circuit stated that
“there are certain ǥspecial circumstances’ in which
release of grand jury records is appropriate even
outside of the boundaries of the rule.” Id. at 102
(quoting In re Biaggi, 478 F.2d at 494 (supplemental
opinion)). Under that doctrine, the court reasoned,
“historical interest, on its own,” may “justify[] release
of grand jury material in an appropriate case,” Id. at
105, “To the extent that the John Wilkes Booth or
Aaron Burr conspiracies, for example, led to grand
jury investigations, historical interest might by now
overwhelm any continued need for secrecy.” Ibid. To
the government's argument that Rule 6(e) controls
the disclosure of grand-jury material, the court
responded that the rule “reflects rather than creates
the relationship between federal courts and grand
juries,” id. at 102 (citing Pittsburgh Plate Glass, 360
U.S. at 399), and that “permitting departures from
Rule 6(e)” is therefore “fully consonant with the role
of the supervising court,” id. at 103.1
The Eleventh Circuit reached a similar conclusion about the
scope of a district court's inherent authority in In re Petition to
Inspect and Copy Grand Jury Materials (Hastings), 735 F.2d
1261 (11th Cir.), cert. denied, 469 U.S. 884 (1984), which
concerned a petition filed on behalf of a special committee of the
court of appeals that was investigating misconduct by a district
judge. The Eleventh Circuit rejected the contention that Rule
6(e) spells out the exclusive basis on which a court may order the
disclosure of grand-jury records and held that the district court
had properly exercised its “inherent power” to grant the special
committee’s request. Id. at 1268; see also Haldeman v. Sirica, 501

1

94a

Embracing this approach, district courts in
several circuits have granted petitions for access to
grand-jury materials of historical importance, See, e.g,
In re Petition of Kutler, No. 10-547, 2011 WL 3211516
(D.D.C. July 29, 2011) (granting petition for access to
grand-jury testimony by President Nixon); In re
Tabac, No. 3:08-mc-0243, 2009 WL 5213717 (M.D.
Tenn. Apr. 14, 2009) (same, grand-jury records
concerning the jury-tampering indictment of Jimmy
Hoffa); In re Petition of National Security Archive, No.
1 :08-cv-6599, Docket entry No. 3 (S.D.N.Y. Aug. 26,
2008) (same, espionage indictment of Julius and Ethel
Rosenberg); In re American Historical Ass’n, 49 F.
Supp. 2d 274 (S.D.N.Y. 1999) (same, espionage
investigation of Alger Hiss). Following the Second
Circuit's reasoning in In re Craig, these decisions have
all relied on a notion of inherent authority to approve
the release of grand-jury records that Rule 6(e) would
otherwise require to remain secret. In the Kutler case,
for example, the district court granted a petition filed
by historian Stanley Kutler and various historical
organizations for access to the transcript of President
Nixon’s 1975 testimony before the Watergate special
grand jury and certain related files of the Watergate
Special Prosecution Force. The petitioners conceded
that no provision of Rule 6(e) would permit the court
F.2d 714 (D.C. Cir. 1974) (en banc). Although Hastings relied on
inherent authority, the disclosure might alternatively be
understood as being “in connection with a judicial proceeding,”
The court viewed the disclosure to the special committee as “at
least closely analogous to the situation for which the explicit Rule
6(e)(3)(C)(I) exception was created.” 735 F.2d at 1268.

95a
to approve their request. The court nevertheless
approved it, holding that the power to release
historically significant grand-jury records is “well
grounded in courts’ inherent supervisory authority to
order the release of grand jury materials.” 2011 WL
3211516, at *5; see also id. at *3 (“[C]ourts’ ability to
order the disclosure of grand jury records has never
been confined by Rule 6(e)’s enumerated exceptions.”).
Although historians have an understandable
desire for access, many decades after the
investigations have closed, to grand-jury records
concerning the Watergate investigation, the
espionage trial of the Rosenbergs, and similar matters
of enduring historical resonance—provided that
interests in personal privacy and governmental
functions are taken into account and appropriately
weighed—the Supreme Court has specifically rejected
the proposition that a district court has inherent
authority to create exceptions to the rules of criminal
procedure adopted by the Court in its rulemaking
capacity. “Whatever the scope of [a court’s] ɇinherent
power,’ * * * it does not include the power to develop
rules that circumvent or conflict with the Federal
Rules of Criminal Procedure.” Carlisle v. United
States, 517 US. 416, 426 (1996); see also Bank of Nova
Scotia v. United States, 487 U.S. 250, 254-255 (1988);
Johnson v. United States, 520 U.S. 461, 466 (1997)
(refusing to “creat[e] out of whole cloth * * * an
exception to” Rule 52(b), “an exception which we have
no authority to make” (citing Carlisle, 517 U.S. at 425
426)). As the Supreme Court explained in Bank of
Nova Scotia, the Rules Enabling Act provides that
“[a]ll laws in conflict with such rules shall be of no
further force or effect after such rules have taken
effect.” 28 U.S.C. 2072(b); see 487 U.S. at 255. That

96a
principle applies a fortiorari under Rule 6(e),
which in relevant part was enacted directly by
Congress. Pub. L No. 95-78, § 2(a), 91 Stat. 319 (1977);
see Thomas v. Arn, 474 U.S. 140, 148 (1985) (even a
“sensible and efficient use of the supervisory power . .
. is invalid if it conflicts with constitutional or
statutory provisions”). Because Rule 6(e) is, “on its
face, an affirmative limitation on the availability of
court-ordered disclosure of grand jury materials,”
Baggot, 463 U.S. at 479, a judicially created doctrine
of public access to historically significant grand-jury
material exceeds the bounds of courts' inherent
authority. Indeed, federal courts do not typically
regulate the conduct of a grand jury, which is “an
institution separate from the courts, over whose
functioning the courts do not preside.” United States
v. Williams, 504 U.S. 36, 47 (1992). “Although the
grand jury normally operates, of course, in the
courthouse and under judicial auspices, its
institutional relationship with the Judicial Branch
has traditionally been, so to speak, at arm's length.
Judges’ direct involvement in the functioning of the
grand jury has generally been confined to the
constitutive one of calling the grand jurors together
and administering their oaths of office.” Ibid.
Consequently, “any power federal courts may have to
fashion, on their own initiative, rules of grand jury
procedure is a very limited one, not remotely
comparable to the power they maintain over their own
proceedings.” Id. at 50. The notion that a court
possesses “inherent supervisory authority to order the
release of grand jury materials,” Kutler, 2011 WL
3211516, at *5, is therefore not only inconsistent with
the prescriptive force of Rule 6(e), but also in tension

97a
with the institutional relationship between courts and
grand juries.
Notably, Judge Friendly's 1973 decision in In re
Biaggi, the wellspring of the “special circumstances”
doctrine, predates the Supreme Court’s decisions in
Carlisle, Bank of Nova Scotia, and Williams. So, too,
does the Eleventh Circuit's decision in Hastings. See
note 1, supra. Indeed, In re Biaggi also predates
Congress's direct enactment of Rule 6(e) in 1977,
which undermines any claim that the rule is open to
circumvention through a court's inherent authority.
And although the Second Circuit decided In re Craig
in 1997, the court “reaffirm[edl the continued vitality
of our ɇspecial circumstances’ test of Biaggi,” 131 F.3d
at 103, without citing or discussing Carlisle, Bank of
Nova Scotia, or Williams. 2
In sum, the Second Circuit's basic insight in In
re Craig—that in long-closed cases of enduring
historical significance, the public’s interest in access
to the primary-source records of our national history
may on occasion “overwhelm any continued need for
secrecy,” 131 F.3d at 105—seems fundamentally
correct. Although the justifications for grand-jury
secrecy “are not eliminated merely because the grand
jury has ended its activities,” Douglas Oil, 441 U.S. at
222, neither do those interests remain paramount for
all time. But the present state of the doctrine, in which
2 The Second Circuit in In re Craig also relied on Pittsburgh Plate
Glass for the proposition that Rule 6(e) commits disclosure to
the discretion of the trial judge. 131 F.3d at 102. But the
Supreme Court in that case emphasized that “any disclosure of
grand jury minutes is covered by Fed. Rules Crim. Proc. 6(e)
promulgated by this Court in 1946 after the approval of
Congress.” 360 U.S. at 398-399.

98a
individual district courts entertain motions for
disclosure under their inherent authority and subject
to their unbounded discretion, is untenable under
governing Supreme Court precedent. It is also
harmful to the fundamental principle that Rule 6(e)
controls the secrecy of grand-jury materials within its
four corners.
B. Description of Proposed Amendment
The Department of Justice therefore proposes
amending Rule 6(e) to authorize the disclosure of
historically significant grand-jury materials after a
suitable period of years, subject to appropriate
limitations and procedural protections. By expressly
permitting district courts to act on requests for such
records, yet at the same time cabining their discretion
through a formal exception to Rule 6(e), the
Committee can maintain the primacy of the Criminal
Rules and the exclusivity of the framework created by
Rule 6(e). Such an amendment would recognize the
public’s legitimate interest in gaining access to
records that may cast new light on important people
and events in American history, while at the same
time protect the important goals served by the rule of
grand-jury secrecy.
Our proposal limits the release of grand-jury
records to those determined to have permanent
historical value under Title 44, United States Code.3

3

In relevant part, 44 U.S.C. 2107 provides:
When it appears to the Archivist to be in the public
interest, he may—

99a
Such records are transferred to the National Archives
and Records Administration (NARA) as part of
Department of Justice case files and form part of its
permanent collection. This threshold screening
requirement ensures that grand-jury secrecy is not
abrogated in routine cases that do not, in themselves,
have any recognized historical value. Within the
universe of those documents transferred to NARA, the
proposal embodies a two-tier approach. First, as to
cases at least 30 years old, the rule would authorize
district courts, on a case-by-case basis, to determine
(l) accept for deposit with the National
Archives of the United States the records
of a Federal agency, the Congress, the
Architect of the Capitol, or the Supreme
Court determined by the Archivist of the
United States to have sufficient
historical or other value to warrant their
continued preservation by the United
States Government; [and]
(2) direct and effect the transfer to the
National Archives of the United States of
records of a Federal agency that have
been in existence for more than thirty
years and determined by the Archivist of
the United States to have sufficient
historical or other value to warrant their
continued preservation by the United
States Government, unless the head of
the agency which has custody of them
certifies in writing to the Archivist that
they must be retained in his custody for
use in the conduct of the regular current
business of the agency[.]
44 U.S.C. 2107(1)-(2).

100a
that the requirements of grand-jury secrecy are
outweighed by the records’ historical significance.
Second, as to cases that are 75 years old or older,
grand-jury secrecy interests would cease to be
applicable and the records would become available to
the public under the same standards applicable to
other public records held by NARA.
The current treatment of grand-jury records
helps illuminate this proposal. Much grand-jury
material is deemed to be of no particular historical
value. After the relevant cases are closed and a
suitable period has passed, these materials are
destroyed pursuant to record schedules approved by
NARA. Grand-jury materials of continuing interest or
value to the Department of Justice are stored for a
period of time. Of these materials, some are
ultimately transferred to the Archives' custody on the
basis that they have been “determined by the
Archivist of the United States to have sufficient
historical or other value to warrant their continued
preservation by the United States Government.” 44
U.S.C. 2107(1). The standards and timetables
governing that determination for case files that
contain grand-jury information are set forth in records
schedules already in place for the Department of
Justice and approved by NARA. Under present law, a
Freedom of Information Act (FOIA) request filed with
NARA for grand-jury records in NARA’s custody will
be denied under FOIA Exemption 3, 5 U.S.C.
552(b)(3), on the ground that disclosure is barred
under Rule 6(e). See, e.g., Fund for Constitutional
Government v. National Archives and Records Service,
656 F.2d 856, 866-870 (D.C. Cir. 1981).
Under the proposed rule, courts would have
authority to consider requests for the disclosure of

101a
grand-jury records of great historical significance
after they have been transferred to the permanent
custody of the Archives. No request could be
entertained until the records have been in existence
for 30 years. The 30-year benchmark corresponds to
the statutory time after which the Archivist may
direct that agencies transfer historically significant
records to his custody. See note 3, supra. Those two
limitations ensure that (1) the grand-jury records
might have some value to historians and (2) sufficient
time has passed both to gauge their historical
significance and to create a reasonable possibility that
privacy interests have faded to a degree that
disclosure might be warranted, with or without
redactions.
But even within that universe of records,
grand-jury secrecy interests still have presumptive
force, and the grant of a disclosure order under Rule
6(e) should not be routine. Rather, it should be
relatively rare—as it has been to date. Courts should
evaluate each request on a case-by-case basis to assess
whether the records have true value to historians and
the public and whether that value outweighs the
secrecy interests of living persons. While such an
evaluation will inevitably involve a measure of
judgment and discretion in light of the specific facts
and context, courts will be guided by the paradigm
examples of disclosure to date—e.g., the Nixon,
Rosenberg, and Hiss grand-jury testimony—and by
the factors considered by the courts that ordered
disclosure in those cases. Those factors include:
(i) the identity of the party seeking
disclosure; (ii) whether the defendant to
the grand jury proceeding or the

102a
government opposes the disclosure; (iii)
why disclosure is being sought in the
particular case; (iv) what specific
information is being sought for
disclosure; (v) how long ago the grand
jury proceedings took place; (vi) the
current status of the principals of the
grand jury proceedings and that of their
families; (vii) the extent to which the
desired material—either permissibly or
impermissibly—has been previously
made public; (viii) whether witnesses to
the grand jury proceedings who might be
affected by disclosure are still alive; and
(ix) the additional need for maintaining
secrecy in the particular case in
question.
In re Craig, 131 F,3d at 106. The proposed rule
authorizing disclosure of grand-jury material does not
spell out these factors, which are better left to
elaboration in the Advisory Committee Notes and
then to development in the case law. But it does
require the district court to make appropriate
findings, before authorizing disclosure, to determine
that the records have “exceptional historical
importance” above and beyond their possession in the
custody of the Archivist; to confirm that they have
been in existence for at least 30 years; to ensure that
the legitimate interests of any living witnesses or
investigative targets whose interests might be
prejudiced through disclosure are not prejudiced; and
to confirm that no impairment of ongoing law
enforcement activities would result. The rule also
allows the court to impose reasonable conditions,

103a
such as redaction, to protect ongoing privacy or other
interests.

Our proposal provides that an order granting or
denying a petition for the release of historically significant
grand-jury material is a final decision subject to appeal
under 28 U.S.C. 1291. The Rules Enabling Act specifically
provides that the federal Rules “may define when a ruling
of a district court is final for the purposes of appeal under
section 1291 of this title.” 28 U.S.C. 2072(c). Because a
petition to disclose grand-jury materials created in
connection with a long-closed investigation or criminal case
is neither a continuation of a criminal matter nor a
traditional civil action, it seems appropriate to clarify that
a district court order granting or denying such a petition
is an appealable decision in its own right.
After 75 years, the interests supporting grand-jury
secrecy and the potential for impinging upon legitimate
privacy interests of living persons have virtually entirely
faded. That is generally true for government records that
are highly protected against routine disclosure. For
example, most classified records in the custody of the
Archivist that have not previously been declassified
become automatically declassified after 75 years.4 Thus, we

Under Executive Order 13526, many classified records are
automatically declassified at 25 years and most of the remaining
classified records are automatically declassified after 75 years:

4

Records
exempted
from
automatic
declassification under this paragraph shall be
automatically declassified on December 31 of a
year that is no more than 75 years from the date
of origin unless an agency head, within 5 years
of that date, proposes to exempt specific
information from declassification at 75 years and
the proposal is formally approved by the Panel.
Exec. Order No. 13,526, § 3.3(h)(3), 3 C.F.R. 310 (2010).

104a
propose that Rule 6(e) be amended to provide that, after 75
years, grand-jury records would become available to the
public in the same manner as other archival records in
NARA's collections, typically by requesting access to the
records at the appropriate NARA research facility or by
filing a FOIA request. See generally 36 C.F.R. Part 1256,
Subpart B.

C. Language of Proposed Amendment
Our proposed amendment includes three parts.
1.
We propose to define the term “archival
grand-jury records” by adding a new Rule 6(j),
following the existing definition of “Indian Tribe” in
Rule 6(1). (Alternatively, if the Committee preferred,
these definitions could be consolidated into a single
“definitions” paragraph.)
(j)
“Archival
Grand-jury
Records” Defined. For purposes of
this Rule, “archival grand-jury
records” means records from grandjury
proceedings,
including
recordings,
transcripts,
and
exhibits, where the relevant case
files have been determined to have
permanent historical or other value
warranting
their
continued
preservation under Title 44, United
States Code.
For additional information on the automatic declassification
process,
see
http://www.justice.gov/open/declassificationfaq.html.

105a

2.
We propose the following addition to
Rule 6(e)(3)(E) to permit district courts to grant
petitions for the release of archival grand-jury records
that have exceptional historical importance after 30
years in appropriate cases:
(E) The court may authorize disclosure—
at a time, in a manner, and subject to any
other conditions that it directs—of a
grand-jury matter:
....
(vi) on the petition of any interested
person if, after notice to the
government and an opportunity for
a hearing, the district court finds on
the record by a preponderance of
the evidence that:

(a) the

petition
archival
records;

seeks only
grand-jury

(b) the

records
have
exceptional
historical
importance;

(c) at least 30 years have
passed since the relevant
case files associated with
the grand-jury records
have been closed;

106a

(d) no living person would be
materially prejudiced by
disclosure, or that any
prejudice could be avoided
through redactions or such
other reasonable steps as
the court may direct;

(e) disclosure

would
not
impede
any
pending
government investigation
or prosecution; and

(f) no other reason exists why
the public interest requires
continued secrecy.
An order granting or denying a
petition under this paragraph is
a final decision for purposes of
Section 1291, Title 28.
Finally, we propose to make the
3.
following addition to Rule 6(e)(2) to establish the
authority of NARA to release archival grand-jury
materials in its collections after 75 years. Because
Rule 6(e) is the only impediment to NARA’s acting on
a FOIA request for grand-jury records, all that is
necessary is to state that Rule 6(e) shall not prohibit
disclosure after that time. The “require . . . to
withhold from the public” formulation tracks the
terms of FOIA Exemption 3, 5 U.S.C. 552(b)(3).
(2) Secrecy.

107a
....
(C) Nothing in this Rule shall
require the Archivist of the
United States to withhold
from the public archival
grand-jury records more than
75 years after the relevant
case files associated with the
grand-jury records have been
closed.
*

*

*

We believe this proposal warrants timely and
thorough consideration by the Advisory Committee,
as it will eliminate the prevailing uncertainty over the
authority of district courts to deviate from the scope of
Rule 6(e) when faced with petitions for access to
historically significant grand-jury material. We also
believe it strikes the appropriate balance between
safeguarding the purposes of grand-jury secrecy and
acknowledging the public's legitimate interest in
obtaining access to grand-jury records that have
enduring significance for the history of our Nation.
We look forward to discussing this with you and
the Committee.
Sincerely,

cc:

s/ Eric Holder, Jr.
Eric H. Holder, Jr.
Attorney General
Professor Sara Sun Beale, Reporter
Professor Nancy J. King, Reporter

108a
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF GEORGIA MACON
DIVISION
IN RE PETITION OF: ANTHONY S. PITCH
MISCELLANEOUS NO. 5:14-MC-2 (MTT)

275 F. Supp.3d 1373
ORDER
This matter involves a federal grand jury's
investigation into what has been described as the last
mass lynching in the United States.1 Both the
murders and the grand jury investigation took place
in 1946. Anthony S. Pitch asks the Court to unseal the
grand jury's records. For the following reasons, the
petition is GRANTED.
I. BACKGROUND
Pitch is a historian researching the July 25,
1946 murder of four African-Americans in Walton
County, Georgia. The incident is commonly known as
the Moore's Ford lynching. The victims, two married
couples, were dragged from a car, tied to a tree, and
shot multiple times. According to most accounts, a
crowd of some considerable size was present. The
murders occurred shortly after the racially charged

1

The Government does not dispute the historical significance of
the Moore's Ford lynching, and the parties have freely discussed
historical events that have not been formally documented in the
Court's record. Given that the historical events are not disputed
and are well documented, the Court does the same.

109a
1946 Democratic Party gubernatorial primary
election, the first Democratic primary in Georgia in
which black citizens were allowed to vote. In that
election, former Governor Eugene Talmadge lost the
popular vote to progressive James V. Carmichael but
crushed Carmichael in the county unit vote.2 Some
believe the murders were directly related to that
election.3

2

Along with the white primary, the county unit system was an
effective tool to marginalize black voters. Created by the Neill
Primary Act of 1917, the county unit system gave each county at
a party's nominating convention two votes for each
representative it had in the lower house of the General Assembly.
Based on this formula, by 1944, Georgia's 159 counties had a
total of 410 county unit votes. Fulton County, with a population
of more than 500, 000, had six of these votes, two for each of its
three representatives. The three smallest counties, Glascock,
Quitman, and Echols, with a combined population of less than
7,000, matched the voting strength of Fulton County at the
Democratic Party's nominating convention. See South v. Peters,
89 F. Supp. 672 (N.D. Ga. 1950). In 1962, the Supreme Court
ruled the county unit system unconstitutional. Baker v. Carr, 369
U.S. 186 (1962).
3
According to a Talmadge biographer, the Walton County Sheriff
told a reporter the day after the murders that he had no clues or
suspects and nothing could be done. He added, however, “they
hadn't ought to killed the two women.” A man standing nearby
then commented: “This thing's got to be done to keep Mister
N_____ in his place. Since the court said he could vote, there ain’t
been any holding him.” William Anderson, The Wild Man From
Sugar Creek: The Political Career of Eugene Talmadge 233
(1975); see also Calvin Kytle & James A. Mackay, Who Runs
Georgia? A Contemporary Account of the 1947 Crisis that Set the
Stage for Georgia's Political Transformation 72 (1998) (“[T]he
lynching of the four Negroes near Monroe and the murder of
another in Taylor County can be traced directly to the
inflammatory nature of the 1946 campaign.”).

110a
President Truman ordered the Federal Bureau
of Investigation to investigate the murders, and on
December 3, 1946, District Court Judge T. Hoyt Davis
convened a grand jury.4 According to one account, the
FBI interviewed 2,790 people and the grand jury
subpoenaed 106 witnesses. Laura Wexler, Fire in a
Canebreak: The Last Mass Lynching in America 190
(2003). Notwithstanding the breadth of the
investigation and the presence of a number of
witnesses, no one identified any of the participants,
and no indictments for the murders were returned.
The case remains unsolved.
On February 3, 2014, Pitch petitioned this
Court for an order unsealing the grand jury
transcripts. Doc. 1. This Court denied the petition
without prejudice on August 19, 2014 because, at the
time, there was no evidence any records existed. Doc.
7 at 3. The assumption then was the records had been
routinely destroyed or were somehow lost. On
January 17, 2017, Pitch renewed his motion, claiming
that his investigation had revealed the records were
at the National Archives and Records Administration
in Washington, D.C. Docs. 8 at 7, 10. That same day,
the Court ordered the Department of Justice to
produce the records for in camera inspection. Doc. 9.
The Government then confirmed that transcripts, but
no other records, had been found and filed copies
under seal. Docs. 14; 16. Relying on Fed. R. Crim. P.
4

Ironically, it was Judge Davis who ruled the Georgia
Democratic white primary unconstitutional. King v. Chapman,
62 F. Supp. 639 (M.D. Ga. 1945), aff’d Chapman v. King, 154 F.2d
460 (5th Cir. 1946). When the Fifth Circuit affirmed Judge Davis
on March 6, 1946, gubernatorial candidate Eugene Talmadge
launched his racially divisive campaign for Governor.

111a
6(e), the Government now maintains that the records
must remain sealed.5
ll. DISCUSSION
A. Grand Jury Secrecy Generally
“It has long been a policy of the law that grand
jury proceedings be kept secret.” United States v.
Aisenberg, 358 F.3d 1327, 1346 (11th Cir. 2004)
(quoting Blalock v. United States, 844 F.2d 1546, 1555
(11th Cir. 1988)). “The English rule of grand jury
secrecy has been incorporated into our federal
common law and remains ɇan integral part of our
criminal justice system.’” Id. The reasons, or “policy
and spirit,” behind this traditional rule of secrecy are:
(1) To prevent the escape of those whose
indictment may be contemplated; (2) to
insure the utmost freedom to the grand
jury in its deliberations, and to prevent
persons subject to indictment or their
friends from importuning the grand
5

The Government does not question this Court's jurisdiction
or Pitch's standing. Both issues were addressed by the
Seventh Circuit in Carlson v. United States, 837 F.3d 753 (7th
Cir. 2016). For the reasons stated there, it is clear this Court
has jurisdiction and Pitch has standing. Id. at 757-58. Pitch
has a right to seek access to public records, including grand
jury testimony. See id. at 758-60. Denial of access to those
records is an “injury in fact.” See id. Additionally, this denial
is directly traceable to the Government, and the injury can be
redressed by the relief he seeks, giving him standing to assert
this action. See id. at 759-60. Additionally, this Court has
federal question jurisdiction under 28 U.S.C. § 1331 as the
action is "arising under the Constitution, laws, or treaties Of
the United States." Carlson, 837 F.3d at 761.

112a
jurors; (3) to prevent subornation of
perjury or tampering with the witnesses
who may testify before grand jury and
later appear at the trial of those indicted
by it; (4) to encourage free and
untrammeled disclosures by persons
who have information with respect to the
commission of crimes; (5) to protect
innocent accused who is exonerated from
disclosure of the fact that he has been
under investigation, and from the
expense of standing trial where there
was no probability of guilt.
United States v. Proctor & Gamble Co., 356 U.S. 677,
681 n.6 (1958) (quotation marks omitted) (quoting
United States v. Rose, 215 F.2d 617, 628-29 (3d Cir.
1954).
Federal Rule of Criminal Procedure Rule 6(e)
codifies this general rule of secrecy, with narrow
exceptions. The only Rule 6(e) exception available to a
party other than the government or a defendant is
Rule 6(e)(3)(E)(i):
(E) The court may authorize disclosure—
at a time, in a manner, and subject to any
other conditions that it directs— of a
grand-jury matter:
(i) preliminarily
connection
with
proceeding;

to
a

or in
judicial

A party invoking this exception must prove
“particularized need.” See United States v. Baggot,

113a
463 U.S. 476, 479-480, 480 n.4 (1983); see also United
States v. John Doe, Inc. 1, 481 U.S. 102, 112 (1987); In
re Am. Historical Ass’n, 49 F. Supp. 2d 274, 283
(S.D.N.Y. 1999). In Douglas Oil Co. of Ca. v. Petrol
Stops NW, 441 U.S. 211 (1979), the Supreme Court
addressed what it takes to establish particularized
need:
Parties seeking grand jury transcripts
under Rule 6(e) must show the material
they seek is needed to avoid a possible
injustice in another judicial proceeding,
that the need for disclosure is greater
than the need for continued secrecy, and
that their request is structured to cover
only material so needed.
441 U.S. at 222 (citing Proctor & Gamble Co., 356 U.S.
at 683, and Dennis v. United States, 384 U.S. 855
(1966)).6 Thus, a party other than the government or
6

See also United States v. Sells Eng'g, Inc., 463 U.S. 418, 442-43
(1983) (applying the Douglas Oil test as the standard for
determining "particularized need"); Baggot, 463 U.S. at 479-801
80 n.4 (characterizing the test articulated in Douglas Oil as the
"particularized need test," which “requires that the materials
sought be ǥneeded to avoid a possible injustice in another judicial
proceeding’ and that the moving party’s request be ǥstructured to
cover only material so needed’” (quoting Douglas Oil Co., 441
U.S. at 222)); United States v. Gonzalez, 452 F. App'x 844, 847
(11th Cir, 2011) (“In order to demonstrate a particularized need,
the requesting party must show that ǥthe material [he] seek[s] is
needed to avoid a possible injustice in another judicial
proceeding, that the need for disclosure is greater than the need
for continued secrecy, and that [his] request is structured to
cover only material so needed.’” (quoting Douglas Oil, 441 U.S.
at 222)).

114a
a defendant seeking disclosure of grand jury records
under Rule 6(e)(3)(E)(i) holds the burden of satisfying
the three-prong Douglas Oil test. See id.
But it has long been recognized that a district
court's authority to order disclosure of grand jury
records is not limited to the exceptions found in Rule
6(e). In this circuit, the most comprehensive
discussion of the inherent authority of district courts
to order disclosure of grand jury records is found in In
re Petition to Inspect and Copy Grand Jury Materials
(Hastings), 735 F.2d 1261 (11th Cir. 1984). In
Hastings, a judicial investigating committee sought
records of a grand jury that had returned an
indictment against a federal district court judge. Id.
at 1263-65. The judge, who had been acquitted of the
charges in the indictment, opposed disclosure of the
records. Id. at 1264. He argued, among other things,
that Rule 6(e) “is the controlling source of law in this
area and that none of its stated exceptions to the rule
of secrecy” allowed the judicial investigating
committee access to the records. Id. at 1267. The
district court disagreed, reasoning that Rule 6(e) did
not provide “the exclusive framework” within which a
district court could exercise its discretion to release
grand jury records. Id. Relying on the court’s “general
supervisory authority over grand jury proceedings,”
the district court ordered the disclosure of the grand
jury records. Id. at 1267-68. The Eleventh Circuit
affirmed, holding that the district court's conclusion
“that it had inherent power beyond the literal wording
of Rule 6(e) is amply supported.” Id. at 1268. To reach
this conclusion, the Eleventh Circuit carefully
examined the history of Rule 6(e). Noting that the
Supreme Court had ruled that Rule 6(e) is “but
declaratory” of the principle that disclosure is

115a
committed to the discretion of district judges and that
the Advisory Committee's notes on Rule 6(e)
acknowledge that the Rule “continues the traditional
practice of secrecy . . . except when the court permits
a disclosure,” the Eleventh Circuit concluded that “it
is certain that a court's power to order disclosure of
grand jury records is not strictly confined to instances
spelled out in the rule.” Id. at 1268 (quoting Fed. R.
Crim. P. 6 advisory committee's note to (e)).
Accordingly, the court concluded that “the exceptions
permitting disclosure were not intended to ossify the
law, but rather are subject to development by the
courts in conformance with the rule's general rule of
secrecy.” Id. at 1269.
Simply put, a district court's power to order
disclosure of grand jury records does not “stand or fall
upon a literal construction of the language of Rule
6(e).” Id. But while district courts have authority to
act outside Rule 6(e), they should turn to that
authority
only if there
exist
“exceptional
circumstances consonant with the rule’s policy and
spirit.” Id. at 1269.
B. Pitch's Request for Disclosure
Pitch argues the Moore's Ford lynching grand
jury transcripts should be unsealed to “enhance the
historical record, foster scholarly discussion and
improve the public’s understanding of this historical
event.” Doc. 8 at 7-8. The Eleventh Circuit has not
addressed the issue of whether the historical
significance of grand jury records can provide a basis
for disclosure. However, every circuit that has
addressed the issue has recognized a “historical
exception” to the traditional rule of grand jury

116a
secrecy.7 7 Relying on these cases, Pitch mainly argues
that there is no reason to think the Eleventh Circuit
would not recognize a historical exception as well and
contends that the facts here clearly warrant unsealing
the 71-year-old transcripts.8
7

See, e.g., Craig, 131 F.3d 99 (2d Cir. 1997) (“[l]n some situations
historical or public interest alone could justify the release of
grand jury information.”); In re Petition of Nat. Sec. Archive, 104
F. Supp. 3d 625 (S.D.N.Y. 2015) (ordering disclosure of grand
jury testimony from the Julius and Ethel Rosenberg
investigation); In re Petition of Kutler, 800 F. Supp. 2d 42 (D.D.C.
2011) (ordering disclosure of President Nixon's grand jury
testimony related to the Watergate investigation based on their
“historical importance”); In re Tabac, 2009 WL 5213717 (M.D.
Tenn. 2009) (ordering disclosure of grand jury transcripts from
the investigation, indictment, and conviction of Jimmy Hoffa
based on their “great historical importance”); In re Petition of
Am. Historical Ass’n, 49 F. Supp. 2d 274 (S.D.N.Y. 1999) and In
re Petition of Am. Historical Ass’n, 62 F. Supp. 2d 1100 (S.D.N.Y.
1999) (both ordering disclosure of grand jury transcripts from the
investigation of Alger Hiss, an alleged Soviet spy, based on their
“manifest historical importance”). The Court notes that in United
States v. McDougal, the Eighth Circuit denied the petitioner's
request for the release of her grand jury testimony during the
Whitewater investigation, See generally 559 F.3d 837. In that
case, the petitioner, in arguing for disclosure, asserted the
“ɇcommon law right of access to court proceedings and records’
and the ‘[c]ourt’s supervisory power over its own records and
files’” but did not argue for a historical exception to the general
rule of grand jury secrecy. Id. at 840. Moreover, in McDougal, the
Eighth Circuit opined that Rule 6(e) was the only avenue of
disclosure absent a showing that the records were sealed in error.
Id. at 840-41. But, as discussed above, this is inconsistent with
the law of this Circuit, which, despite the Government’s
contention, recognizes that courts have the inherent authority to
order disclosure beyond Rule 6(e). Aisenberg, 358 F.3d at 1347.
8
Pitch also tries to fashion an argument that his request falls
within Rule 6(e)(3)(E)(i). His petition, he seems to argue,
constitutes a “judicial proceeding,” and thus his request meets

117a
For its part, the Government disputes neither
the historical significance of the grand jury
transcripts nor the legitimate public interest in the
Moore's Ford lynching. Rather, the Government
opposes disclosure on very narrow grounds; it
contends, effectively, that Rule 6(e) provides the sole
basis for disclosing grand jury records and because
Pitch's request does not fall within any of the
exceptions provided by Rule 6(e), his petition must be
denied.
1. United States v. Aisenberg
Because the Government's opposition is based
almost entirely on United States v. Aisenberg, 358
F.3d 1327 (11th Cir. 2004), the Court begins its
analysis there. The Aisenbergs sought disclosure of
grand jury testimony under both the district court’s
inherent authority and Rule 6(e), but the purpose for
which they made their request was one covered by a
Rule 6(e) exception, specifically Rule 6(e)(3)(E)(i). 358
F.3d at 1347-1348. The Aisenbergs wanted to use
grand jury testimony to bolster their application for
attorneys’ fees under the Hyde Amendment in a
the Douglas Oil standard. This bootstrap effort is a nonstarter in
every way. Certainly his request is made through a judicial
proceeding, but a request is not made “preliminarily to or in
connection with” a judicial proceeding simply because a petition
seeking disclosure is filed. See Baggot, 463 U.S. at 479 (“[T]he
term ɇin connection with’ . . . refer[s] to a judicial proceeding
already pending, while ɇpreliminarily to’ refers to one not yet
initiated.”). In other words, Pitch’s request does not fall within
Rule 6(e)(3)(E)(i), and he cannot satisfy the first prong of Douglas
Oil—that the transcripts are needed “in another judicial
proceeding”—by filing this proceeding to compel disclosure. See
Douglas Oil, 441 U.S. at 222.

118a
criminal prosecution gone wrong. Id. at 1335. Thus,
their request was clearly “preliminarily to or in
connection with a judicial proceeding.” Fed. R. Crim.
P. 6(e)(3)(E)(i). Therefore, the question was whether
Douglas Oils “particularized need” test applied to a
request made pursuant to both the district court's
inherent authority and Rule 6(e)(3)(E)(i) when the
request was for a purpose clearly contemplated by
that Rule.
In effect, the Aisenbergs were hedging their
bets. Because Rule 6(e)(3)(E)(i) provided an exception
directly applicable to their request, they moved
pursuant to that Rule. But in the event they could not
meet the Rule 6(e)(3)(E)(i) test for disclosure, they
wanted the district court to exercise its inherent
authority to release the records. Not surprisingly, the
Eleventh Circuit took a dim view of this approach.
Clearly, the Aisenbergs were attempting an end run
around Douglas Oil’s particularized need test.
Allowing a party to avoid Douglas Oil in a situation
where it clearly applied would not be within the
“policy and spirit” of Rule 6. Accordingly, in reversing
the district court's disclosure, the Eleventh Circuit
held that the Aisenbergs could not invoke the district
court’s inherent authority. Aisenberg, 358 F.3d at
1347-48. Rather, they had to proceed under Rule 6(e).
Id.
The Government asks the Court to put a
different, much broader, spin on Aisenberg. The
Government argues Aisenberg does more than simply
hold that the Douglas Oil test governs when a request
is clearly covered by Rule 6(e)(3)(E)(i). The
Government reads Aisenberg to say that a party
invoking the court's inherent authority to disclose
grand jury records still must satisfy Douglas Oil,

119a
including the first prong: “that the material they seek
is needed to avoid a possible injustice in another
judicial proceeding.” Doc. 11 at 5 (quoting Aisenberg,
353 F.3d at 1347). Effectively, this would mean that
the only time someone other than the Government or
a defendant can seek disclosure of grand jury records
is when the records are sought “preliminarily to or in
connection with a judicial proceeding” as provided by
Rule 6(e)(3)(E)(i).9 The Government acknowledged as
much at the June 8 hearing:
The Court: So you would read Aisenberg
to mean that the only reason grand jury
records can be released are for the
reasons stated in Rule 6?
[Government]: Yes, sir, as far as — yes,
sir, essentially.
9

While the Government effectively argues that Rule
6(e)(3)(E)(i) provides the only basis for disclosure here, the
Government argued this expressly in Carlson v. United States,
837 F.3d 753 (7th Cir. 2016). In persuasive reasoning, the
majority rejected that argument and found that “the Criminal
Rules did not eliminate a district court's inherent supervisory
power” over the grand jury. Id. at 762. In doing so, the court
noted Rule 57(b), which recognizes that courts have the
authority to regulate procedure where there is no controlling
law but mandates they do so in a “manner consistent with
federal law, these rules, and the local rules of the district.” Id.
(“To be sure, [district courts] are powerless to contradict the
Rules where they have spoken . . . . But Rule 57(b) . . . informs
us what a court may do when the Rules are silent.” (quoting
Fed. R. Crim. P. 57(b))). Moreover, the court described Rule 6(e)
as “permissive” and stated “such a rule should not give rise to
a negative inference that it abrogates the district court's
inherent authority absent 'clear [ ] expression of [that]
purpose.” Id. at 763.

120a
The Court disagrees. Instead, the Court reads
Aisenberg to hold that when a party seeks disclosure
for a reason or purpose contemplated by Rule 6(e)’s
exceptions, Rule 6(e) governs the request. Again, it
would make no sense to allow a party who cannot
satisfy a governing Rule 6(e) exception to avoid Rule
6(e) by running to a district court's inherent authority.
But neither would it make sense to read
Aisenberg to effectively gut a district court's inherent
authority to disclose grand jury records. The
Government’s argument is irreconcilable with the
clear holding in Hastings that district courts are not
limited to Rule 6(e)'s exception. 735 F.2d at 1268.
Indeed, the Eleventh Circuit recognized in Aisenberg
that district courts have the inherent authority to act
outside Rule 6(e) in exceptional circumstances.
Aisenberg, 358 F.3d at 1347-48.
In sum, the Court reads Aisenberg to hold that
when a request for grand jury records is covered by
Rule 6(e)’s exceptions, then those exceptions govern.
But when a request falls outside the listed exceptions
of Rule 6(e), district courts have the inherent
authority to order disclosure.
2. The "Historical Exception" to Grand
Jury Secrecy
Pitch's request does not fit within any of Rule
6(e)’s exceptions. Although district courts may act
outside Rule 6(e) to order disclosure of grand jury
records, the Eleventh Circuit has made clear they
should do so only if there exist “exceptional
circumstances consonant with the rule's policy and
spirit.” Hastings, 735 F.2d at 1270. The question then
is whether the historical significance of grand jury
records can constitute an exceptional circumstance.

121a
In Hastings, when determining whether
exceptional circumstances existed, the Eleventh
Circuit looked to Supreme Court precedent and
concluded “disclosure is appropriate only in those
cases where the need for it outweighs the public
interest in secrecy . . .” 735 F.2d at 1272 (quoting
Douglas Oil, 441 U.S. at 223). In other words, the
Court must apply a balancing test to determine
whether exceptional circumstances are present,
weighing carefully the factors favoring continued
secrecy and the factors favoring public access to, in
this case, historical information. In applying this
balancing test, the Court also considers the factors
considered by the Second Circuit in In re Craig and by
other courts recognizing the historical exception.10 131
F.3d 99, 106 (2d Cir. 1997); see, e.g., Carlson v. United
10

In Craig, the Second Circuit considered:
(i) the identity of the party seeking disclosure; (ii)
whether the defendant to the grand jury
proceeding or the government opposes the
disclosure; (iii) why disclosure is being sought in
the particular case; (iv) what specific information
is being sought for disclosure; (v) how long ago
the grand jury proceedings took place; (vi) the
current status of the principals of the grand jury
proceedings and that of their families; (vii) the
extent to which the desired material—either
permissibly
or
impermissibly—has
been
previously made public; (viii) whether witnesses
to the grand jury proceedings who might be
affected by disclosure are still alive; and (ix) the
additional need for maintaining secrecy in the
particular case in question.

131 F.3d at 106.

122a
States, 837 F.3d 753 (7th Cir. 2016); In re Am.
Historical Ass’n, 49 F. Supp. 2d 274 (S.D.N.Y. 1999).
The Court begins with the secrecy end of the
scales of this balancing test. The Court begins there
because the Moore’s Ford lynching grand jury
adjourned nearly 71 years ago and, logically enough,
“as the considerations justifying secrecy become less
relevant, a party asserting a need for grand jury
transcripts will have a lesser burden in showing
justification.” Hastings, 735 F.2d at 1272. The reasons
for grand jury secrecy are found, as discussed above,
in the Supreme Court’s decision in United States v.
Proctor & Gamble Co., 356 U.S. 677 (1958). Grand
jury secrecy is necessary to prevent flight by those
being investigated; to insure that grand jurors can
operate with the utmost freedom; to prevent witness
tampering; to encourage full disclosure by witnesses;
and to protect the ultimately innocent who
nevertheless are the subject of grand jury
investigation. Id. at 681 n.6 (quoting United States v.
Rose, 215 F.2d 617, 628-29 (3d Cir. 1954). The
Government does not contend that any of these
considerations will be furthered by the continued
secrecy of the Moore’s Ford lynching grand jury
transcripts, and it is clear they are no longer relevant.
As far as is known, all suspects, witnesses (with the
possible exception of then very young children), and
all grand jurors are dead. Further, it is beyond any
reasonable possibility that a new criminal
investigation could be opened. But while there is no
reason particular to the Moore's Ford lynching to keep
the grand jury records secret, the general “public
interest in encouraging free and untrammeled
testimony before future grand juries is still
important.” Hastings, 735 F.2d at 1274. But, of course,

123a
grand jury records do not always remain secret. Still,
there remains some weight, albeit greatly diminished,
on the secrecy end of the scales.
But Pitch must still establish a need for the
grand jury records that outweighs any secrecy
interest, however slight it may be. Several of the Craig
factors are relevant to this end of the scales: (1) “the
identity of the party seeking disclosure”; (2) “why
disclosure is being sought”; and (3) “the extent to
which the desired material . . . has been made public.”
131 F.3d at 106. Essentially, these factors call for the
examination of the legitimacy of the person or entity
seeking disclosure and the reason for which disclosure
is sought.
The Government does not dispute that Pitch is
an accomplished author who has written many
historical works, including a book on the Moore's Ford
lynching, The Last Lynchinq: How a Gruesome Mass
Murder Rocked a Small Georgia Town, published in
March 2016.11 Doc. 8 at 1-2; Cf. In re Petition of Stuart
McKeever, 1:13-mc-00054-RCL (D.D.C. 2017) (stating
fact that the petitioner was a “bona fide author” who
had researched the case and published a book on it
favored disclosure under Craig). He undeniably seeks
disclosure for a legitimate and important purpose—
historical research into the unsolved murders that
occurred at Moore's Ford. See generally Doc. 8.
Clearly, the Moore’s Ford lynching is a
significant historical event. Just as clearly, the
testimony of the dozens of witnesses who testified
before the grand jury has historical significance.
11 In his Petition, Pitch says he is an historian of some renown,
the author of eleven non-fiction works, and the recipient of much
recognition for his work. Doc- 8 at 1-2.

124a
There has been and there continues to be significant
public interest in the unsolved murders, the events
that led up to them, and the ensuing investigation.12
Cf. Craig, 131 F.3d at 107 (“[l]f historical interest in a
specific case has persisted over a number of years,
that serves as an important indication that the
public's interest in release of the information is
substantial.”).
But while the Moore’s Ford lynching has been
the subject of considerable public interest, the public
record is relatively sparse. There was no state
prosecution, no trials, or other public proceedings
following the federal grand jury’s investigation.
Because the murders remain unsolved, much of the
public interest in the ensuing years has naturally
centered on speculation over the identity and motive
of the murderers and why, given the number of
witnesses, the murders could not be solved. The
transcripts will add considerably to the public record,
and with no witnesses to interview, the grand jury
transcripts likely represent the last available source
of information about what transpired at Moore’s Ford.
Given all this, the Court finds that Pitch has
established exceptional circumstances consonant with
the policy and spirit of Rule 6(e). The reasons behind
the traditional rule of grand jury secrecy, and thus the
policy undergirding Rule 6(e), are no longer
implicated. There is no need to protect witnesses from
retribution, public scrutiny, or undue influence; there
12

See, e.g., Wayne Ford, 70th Observance of Moore's Ford
lynching set in Monroe; reenactment of killings planned, Athens
Banner-Herald
(July
21,
2016,
1:35
PM),
http://onlineathens.com/mobile/201607-21/70th-observancemoores-ford-lynching-set-monroe-reenactment-killings-planned.

125a
is no fear that suspects will flee; and innocent victims
of grand jury scrutiny will not be embarrassed.
Nothing favors continued secrecy other than the bare
principle that grand jury proceedings should be secret,
and while that is important, it is outweighed by the
historical significance of the grand jury transcripts
and the critical role they can play in enhancing the
historical record of the tragic event that occurred at
Moore’s Ford. Indeed, it is difficult to imagine a more
suitable case for the application of a historical
exception to the rule of grand jury secrecy; of the cases
applying the historical exception, none has involved
events that took place over 70 years before the
disclosure was ordered. Accordingly, the Court finds
that Pitch has established exceptional circumstances
that warrant the exercise of the Court’s inherent
authority to order disclosure.
III. CONCLUSION
The Court GRANTS Pitch’s request. But the
Court notes that the Government has presented only
a blanket objection to the release of the grand jury
transcripts. The Court therefore affords the
Government 21 days to provide objections to specific
portions of the transcripts, if it so chooses. Otherwise,
and absent appeal, the transcripts will be disclosed in
their entirety.
SO ORDERED, this 18th day of August, 2017.
S/ Marc T. Treadwell
MARC T. TREADWELL
UNITED STATES
DISTRICT COURT

126a

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-15016
D.C. Docket No. 5:14-mc-00002-MTT
ANTHONY S. PITCH,
Plaintiff - Appellee,
v.
UNITED STATES OF AMERICA,
Defendant - Appellant.
Appeal from the United States District Court
for the Middle District of Georgia
No. 17-15016
(February 11, 2019)
915 F.3d 704
Before WILSON and JORDAN, Circuit Judges, and
GRAHAM,* District Judge.
WILSON, Circuit Judge:

*

Honorable James L. Graham, United States District Judge for
the Southern District of Ohio, sitting by designation.

127a
In 1946, a crowd of people in Walton County,
Georgia gathered as two African American couples
were dragged from a car and shot multiple times.1
Many consider this event, known as the Moore’s Ford
Lynching, to be the last mass lynching in American
history.
Racial tensions in Georgia were high.
African American citizens were allowed to vote in a
Georgia Democratic Party primary for the first time
that year.2 The murders occurred shortly after the
primary and immediately garnered national media
attention. National outrage, including condemnation
from then Special Counsel to the NAACP Thurgood
Marshall, ultimately led President Harry Truman to
order an FBI investigation. In late 1946, a district
court judge in Georgia convened a grand jury. But
after sixteen days of witness testimony, no one was
ever charged. The case remains unsolved.
Over seven decades later, Anthony Pitch, an
author and historian, petitioned the Middle District of
Georgia for an order unsealing the grand jury
transcripts. The district court granted his request.
The government now appeals, arguing the district
court abused its discretion in unsealing the
transcripts. After careful review and with the benefit
of oral argument, we affirm.

1

There are differing accounts on the number of shots and the
number of people present. Estimates suggest that between
thirty and one hundred people were present.
2
The Fifth Circuit had recently held that the Georgia Democratic
Party’s all-white primary system was unconstitutional.
Chapman v. King, 154 F.2d 460 (5th Cir. 1946), cert. denied, 327
U.S. 800, 66 S. Ct. 905 (1946).

128a
I. Factual and Procedural Background
Anthony Pitch wrote a book about the Moore’s
Ford Lynching. In 2014, while researching the event
for the book, Pitch petitioned the Middle District of
Georgia to unseal the federal grand jury records
related to the incident. Initially, the district court
denied the petition without prejudice because Pitch
did not present evidence that the records even existed.
Three years later, Pitch renewed his petition, arguing
that his investigation revealed that the records were
at the National Archives in Washington, D.C. The
district court ordered the government to produce the
records for in camera inspection. The government
filed the transcripts under seal. And against the
objections of the government, the district court
ordered the transcripts be unsealed. To do so, the
district court relied on its inherent authority under In
re Petition to Inspect & Copy Grand Jury Materials
(Hastings), 735 F.2d 1261 (11th Cir. 1984).
On appeal, the government argues first, that
the district court lacked inherent authority to disclose
the transcripts, and second, even assuming the
district court had inherent authority, the court
exceeded that authority by permitting disclosure
based solely on the historical significance of the
Moore’s Ford Lynching. Because we are bound by our
decision in Hastings, we affirm. See Kondrat’yev v.
City of Pensacola, Fla., 903 F.3d 1169, 1174 (11th Cir.
2018) (per curiam) (“[O]ur precedent—in particular,
our precedent about precedent—is clear: ‘[W]e are not
at liberty to disregard binding case law that is . . .
closely on point and has been only weakened, rather
than directly overruled, by the Supreme Court.’”
(quoting Fla. League of Prof’l Lobbyists, Inc. v. Meggs,
87 F.3d 457, 462 (11th Cir. 1996))).

129a

II. Power of District Courts to
Disclose Grand Jury Records
The government argues that the district court
erred in invoking its inherent authority to disclose the
grand jury records. We review a district court’s
disclosure of grand jury transcripts for abuse of
discretion. United States v. Aisenberg, 358 F.3d 1327,
1338 (11th Cir. 2004). A court abuses its discretion
when it commits an error of law. United States v.
Brown, 332 F.3d 1341, 1343 (11th Cir. 2003).
A. Statutory Authority to Disclose
Grand Jury Records
Grand jury secrecy is “an integral part of our
criminal justice system.” Blalock v. United States, 844
F.2d 1546, 1555 (11th Cir. 1988) (per curiam). Even
after an investigation has ended, grand jury
proceedings generally remain secret. “The grand jury
as a public institution serving the community might
suffer if those testifying today knew that the secrecy
of their testimony would be lifted tomorrow.” United
States v. Procter & Gamble Co., 356 U.S. 677, 682, 78
S. Ct. 983, 986 (1958). Federal Rule of Criminal
Procedure 6(e) codifies the general rule prohibiting
the disclosure of grand jury records. Rule 6(e)
requires that “[r]ecords, orders, and subpoenas
relating to grand-jury proceedings . . . be kept under
seal . . . to prevent the unauthorized disclosure of a
matter occurring before a grand jury.” FED. R. CRIM.
P. 6(e)(6).
Rule 6(e) also codifies a list of exceptions to its
general rule of secrecy.
The only enumerated
exception available to a party other than the
government or a party in the grand jury proceeding is

130a
Rule 6(e)(3)(E)(i), which allows a court to authorize
disclosure of grand jury records “preliminarily to or in
connection with a judicial proceeding.” A party
invoking this exception must prove that “the material
they seek is needed to avoid a possible injustice in
another court proceeding, that the need for disclosure
is greater than the need for continued secrecy, and
that their request is structured to cover only material
so needed.” Douglas Oil Co. of Ca. v. Petrol Stops NW,
441 U.S. 211, 222, 99 S. Ct. 1667, 1674 (1979). Pitch
agrees that he cannot benefit from this exception
because the grand jury records he sought were not
necessary in “another court proceeding.”
B. Inherent Authority to Disclose Grand Jury
Records
We have recognized that district courts retain
“inherent power beyond the literal wording of Rule
6(e)” to disclose grand jury material not otherwise
covered by the exceptions. Hastings, 735 F.2d at
1268.3 “[T]he exceptions permitting disclosure were
The government argues that we are no longer bound by
Hastings because the Supreme Court has rejected its reasoning.
In Carlisle v. United States, the Supreme Court held that
“[w]hatever the scope of [a court’s] ‘inherent power,’ . . . it does
not include the power to develop rules that circumvent or conflict
with the Federal Rules of Civil Procedure.” 517 U.S. 416, 426,
116 S. Ct. 1460, 1466 (1996) (emphasis added). This passage
must be read in context. Carlisle held that a district court cannot
directly contradict an applicable and unambiguous Federal Rule
of Criminal Procedure by invoking its inherent authority. In
Carlisle, the Supreme Court held that a district court could not
rely on inherent authority to enter a judgment of acquittal after
the seven-day time limit prescribed by Rule 29(c) had expired.
Id. at 426. The district court there “contradicted the plain
language” of the Rule by “effectively annul[ing]” the seven-day
time limit prescribed by Congress. Id. We do not read Carlisle

3

131a
not intended to ossify the law, but rather are subject
to development by the courts in conformance with the
Rule’s general rule of secrecy.” Id. at 1269; accord
United States v. Aisenberg, 358 F.3d 1327, 1347 (11th
Cir. 2004) (“Although Rule 6(e)(3) enumerates the
exceptions to the traditional rule of grand jury
secrecy, the Supreme Court and this Court have
recognized that the district courts have inherent
power beyond the literal wording of Rule 6(e)(3) to
disclose grand jury material and that Rule 6(e)(3) is
but declaratory of that authority.”); In re Craig, 131
F.3d 99, 103 (2d Cir. 1997) (“[P]ermitting departures
from Rule 6(e) is fully consonant with the role of the
supervising court and will not unravel the foundations
of secrecy upon which the grand jury is premised.”);
Carlson v. United States, 837 F.3d 753, 763 (7th Cir.
2016) (“Rule 6(e) is but declaratory of the longstanding principle that disclosure of grand jury
materials is committed to the discretion of the trial
court.”) (internal quotation marks omitted).
“This is not to say [Rule 6(e)] is not normally
controlling. It is.” Hastings, 735 F.2d at 1268.
Petitioners and district courts cannot rely on inherent
authority to circumvent a plainly applicable and
unambiguous enumerated Rule 6(e) exception. See
Aisenberg, 358 F.3d 1327 (declining to allow
to prohibit the exercise of that authority in “exceptional
circumstances consonant with the rule’s policy and spirit.”
Hastings, 735 F.2d at 1269; cf. United States v. Aisenberg, 358
F.3d 1327 (11th Cir. 2004) (holding that a petitioner cannot
circumvent the plain text of an applicable rule or the Douglas Oil
test by asserting inherent authority). “[W]e are not at liberty to
disregard binding case law that is . . . closely on point and has
been only weakened, rather than directly overruled, by the
Supreme Court.” Kondrat’yev, 903 F.3d at 1174 (internal
quotation marks omitted). We are thus bound by Hastings.

132a
petitioners to rely on inherent authority because
petitioners’ request was “preliminarily to or in
connection with a judicial proceeding” under the Rule
6(e)(3)(E)(i) exception); cf. Carlisle v. United States,
517 U.S. 416, 426 (1996) (holding that a district court
could not use inherent authority to extend a plain and
unambiguous Rule of Criminal Procedure that limited
district court’s authority to enter a judgment of
acquittal to seven days). The upshot, then, is a district
court may only invoke its inherent authority to
disclose grand jury records when an enumerated Rule
6(e) exception does not directly govern the requested
disclosure.4 Both the government and Pitch agree
that none of the exceptions in Rule 6(e) apply, which
allows Pitch to survive this threshold inquiry.
III. The District Court’s Exercise of
Discretion in the Present Case
We must now decide whether the facts
presented here constitute “exceptional circumstances”
that allow a district court to employ its inherent
authority to disclose grand jury records outside the
confines of Rule 6(e). The petitioner has the burden of
proving that “exceptional circumstances” exist. See
Hastings, 735 F.2d at 1272–73.
A. The “Exceptional Circumstances” Test

4

This is merely derivative of the “cautionary principle” that
courts will not “lightly assume that Congress has intended to
depart from established principles such as the scope of a court’s
inherent power.” Carlisle, 517 U.S. at 426, 116 S. Ct. at 1466
(quoting Chambers v. NASCO, Inc., 501 U.S. 32, 47, 111 S. Ct.
2123, 2134 (1991)).

133a
“[W]hile district courts have inherent authority
to act outside Rule 6(e)(3), any inherent disclosure
authority is exceedingly narrow . . . .” Aisenberg, 358
F.3d at 1347. “[C]ourts are not empowered to act
outside Rule 6(e) in other than exceptional
circumstances consonant with the rule’s policy and
spirit.” Hastings, 735 F.2d at 1269. Exceptional
circumstances exist when the need for disclosure
outweighs the public interest in continued secrecy. Id.
at 1272, 1275; see also Douglas Oil, 441 U.S. at 223,
99 S. Ct. at 1275 (“[T]he court’s duty in a case of this
kind is to weigh carefully the competing interests in
light of the relevant circumstances and standards
announced by this Court.”).
On one side of the scale is the well-established
public interest in secrecy of grand jury records.
Nondisclosure of grand jury records “prevent[s] the
escape of those whose indictment may be
contemplated,” ensures “the utmost freedom to the
grand jury in its deliberations,” prevents “tampering
with the witnesses who may testify before the grand
jury,” encourages “free and untrammeled disclosures
by persons who have information” about the
commission of crimes, and protects the “innocent
accused who is exonerated” from public disclosure
that he had been under investigation. United States
v. Procter & Gamble Co., 356 U.S. 677, 682 n.6, 78 S.
Ct. 983, 986 n.6 (1958). Given the importance of
grand jury secrecy, the burden on the petitioner is
high.
The weight on the other side of the scale—the
need for disclosure—requires a fact intensive analysis
that depends on the competing interests in a
particular case. In Hastings, for example, we held
that “the petition of a judicial investigating committee

134a
is the kind of request which, in proper circumstances,
can trigger a district court’s inherent power to release
grand jury minutes.” Hastings, 735 F.2d at 1269. In
Hastings, we stated that “courts must adhere to Rule
6(e) in ‘garden variety’ petitions for grand jury
disclosure,” recognizing that the Rule “would be
rendered meaningless if departures were freely
sanctioned.” Id. We emphasized there, as we do here,
that “courts are not empowered to act outside Rule
6(e) in other than exceptional circumstances.” Id.
(emphasis added).
In Hastings, it was “highly
significant that the grand jury materials in question
were sought . . . pursuant to express statutory
authority” of the judicial investigating committee. Id.
at 1269–70. The court also considered that “a matter
of great societal importance”—namely, “the important
public interest in the integrity and independence of
the judiciary”—was implicated. Id. Finally, while no
enumerated Rule 6(e) exception governed the
disclosure, the requested disclosure was analogous to
those permitted by the Rule. Id. at 1271–72.
B. The Exception for Matters of Exceptional
Historical Significance
Under the proper circumstances, grand jury
records on a matter of exceptional historical
significance may trigger a district court’s inherent
authority to disclose them. Our sister circuits have
developed a multi-factor inquiry for applying the
balancing test set forth in Hastings to the disclosure
of historically significant grand jury records.5 In In re
5

At the time of this opinion, two circuits have addressed the
issue. Both held that district courts have inherent authority to
disclose historically significant grand jury records. See In re

135a
Petition of Craig, the Second Circuit outlined a “nonexhaustive list of factors that a trial court might want
to consider when confronted with these highly
discretionary and fact-sensitive” petitions:
(i) the identity of the party seeking
disclosure; (ii) whether the defendant to
the grand jury proceeding or the
government opposes the disclosure; (iii)
why disclosure is being sought in the
particular case; (iv) what specific
information is being sought for
disclosure; (v) how long ago the grand
jury proceedings took place; (vi) the
current status of the principals of the
grand jury proceedings and that of their
families; (vii) the extent to which the
desired material—either permissibly or
impermissibly—has been previously
made public; (viii) whether witnesses to
the grand jury proceedings who might be
affected by disclosure are still alive; and
Petition of Craig, 131 F.3d 99, 106 (2d Cir. 1997); Carlson v.
United States, 837 F.3d 753 (7th Cir. 2016). While not
specifically addressing disclosure for historical significance, the
Eighth Circuit has expressed doubt that district courts have any
inherent authority to act outside the enumerated Rule 6(e)
exceptions. See United States v. McDougal, 559 F.3d 837, 841
(8th Cir. 2009). Finally, the D.C. Circuit has acknowledged the
“general agreement” that district courts have inherent authority
to disclose grand jury material. See Haldeman v. Sirica, 501 F.2d
714, 715 (D.C. Cir. 1974). Whether that inherent authority
extends to disclosure for historical significance is pending in the
D.C. Circuit. See McKeever v. Sessions, No. 17-5149 (D.C. Cir.
filed June 14, 2017).

136a
(ix) the additional need for maintaining
secrecy in the particular case in
question.
131 F.3d 99, 106 (2d Cir. 1997). But “there is no
talismanic formula or rigid set of prerequisites,” and
the specific circumstances of a case may lead to
additional relevant factors. Id.
The first two Craig factors ask us to consider
the interests of the parties: the petitioner, the
government, and the defendant in the grand jury
proceeding.
First, the petitioner, Pitch, is an
accomplished author and historian. He has published
many historical works, including a book about the
Moore’s Ford Lynching. As we discussed, while not
dispositive, the government has a significant and
well-established interest in grand jury secrecy that
will always weigh against disclosure. See Procter &
Gamble, 356 U.S. at 682 n.6, 78 S. Ct. at 986 n.6.
Finally, no defendant in the Moore’s Ford grand jury
proceeding has objected to disclosure. See Craig, 131
F.3d at 106 (“And if a third-party stranger wishes to
obtain release of data about secret meetings over the
objection of the defendant, who, perhaps, was never
indicted by the grand jury, then the trial judge should
be extremely hesitant to grant release of the grand
jury material.”).
The third, fourth, and seventh Craig factors
concern the historical importance of the information
being sought. Pitch seeks disclosure for a legitimate,
scholarly purpose: to research, write, and educate the
public about a significant event in the civil rights
movement. Cf. Globe Newspaper Co. v. Sup. Ct. for
Norfolk Cty., 457 U.S. 596, 604, 102 S. Ct. 2613, 2619
(1982) (discussing the constitutional right of the

137a
public to access records from criminal trials and
reasoning that this right “serves to ensure that the
individual citizen can effectively participate in and
contribute to our republican system of selfgovernment” by protecting “the free discussion of
governmental affairs”); In re Petition of Kutler, 800 F.
Supp. 2d 42, 48 (D.D.C. 2011) (reasoning that “[t]he
disclosure of President Nixon’s grand jury testimony
would likely enhance the existing historical record,
foster further scholarly discussion, and improve the
public’s understanding of a significant historical
event.”).
Historical importance is objective. It must be
distinguished from “journalistic intrigue, public
curiosity, or even a subjective importance to family
and friends.” Craig, 131 F.3d at 105 n.8. The Moore’s
Ford Lynching is clearly an event of exceptional
historical significance. Compared to the journalist or
the family member of a victim that seeks access to the
details of a salacious unsolved crime, the Moore’s Ford
Lynching is historically significant because it is
closely tied to the national civil rights movement.
Many consider it to be the last mass lynching in
American history. There has been, and continues to
be, national media attention and widespread public
interest in the murders. According to Pitch, the
Moore’s Ford Lynching is credited as a catalyst to the
President’s Committee on Civil Rights, which
President Harry Truman created by executive order
the same week the Moore’s Ford grand jury was
convened. See Exec. Order No. 9808, 11 Fed. Reg.
14153 (Dec. 5, 1946). It would be difficult to deny—
and the government does not attempt to do so on
appeal—that the Moore’s Ford Lynching is,

138a
objectively, an exceptionally significant event in
American history.
Despite considerable public interest, the details
are sparse. Even with a crowd of witnesses, no one
was prosecuted and no public proceedings were held.6
For this reason, Pitch sought disclosure of the entire
transcript from the grand jury proceedings. As the
district court did here, courts should give any party
opposing disclosure the opportunity to object to
specific portions of the records. The district court
should engage in the same balancing test to determine
whether, and how much, those portions should be
redacted or omitted. See Douglas Oil, 441 U.S. at 223,
99 S. Ct. at 1675 (“And if disclosure is ordered, the
court may include protective limitations on the use of
the disclosed material . . . .”); Hastings, 735 F.2d at
1274–75 (approving the district court’s “protective
conditions”).
The interest in continued secrecy is also
undercut if details in the records have been
publicized. See Craig, 131 F.3d at 107; cf. In re North,
16 F.3d 1234, 1244–45 (D.C. Cir. 1994) (noting that
widespread media release might undercut interest in
secrecy to point where Rule 6(e) would not prohibit
disclosure).
Here, this factor weighs against
disclosure. There is no indication that any portion of
the grand jury records has been made public,
permissibly or not.
Finally, the passage of time will often be the
touchstone of our inquiry. Even if other factors weigh
strongly in favor of disclosure, an insufficient passage
6

According to Pitch, the FBI interviewed over 2,700 people and
subpoenaed over 100 witnesses to testify in front of the grand
jury.

139a
of time since the grand jury proceedings took place is
fatal to the petitioner’s request for disclosure. “[T]he
passage of time erodes many of the justifications for
continued secrecy.” Craig, 131 F.3d at 107. The
sufficiency of the passage of time must be viewed in
light of the policy underlying grand jury secrecy: to
protect the important truth-seeking function of grand
juries.7 As a result, the passage of time generally
must be long enough that the principal parties to the
investigation— the suspects and witnesses—and their
immediate family members have likely died, and that
there is no reasonable probability that the
government would make arrests based on the
disclosed information. See id.
Pitch requested the Moore’s Ford grand jury
transcripts seventy-one years after the grand jury
proceeding took place.8 No one has been charged, no
one is currently under active investigation, and the
principal parties to the investigation were adults at
the time of the grand jury proceeding. Under these
circumstances, seventy years is at or near the bounds
of sufficient passage of time. There is no indication
that any witnesses, suspects, or their immediate
family members are alive to be intimidated,
persecuted, or arrested. Like the court in Craig, we
also find it significant that the historical interest in
the Moore’s Ford Lynching has persisted over time.
See Craig, 131 F.3d at 107. Although it now seems
7

See generally United States v. Procter & Gamble Co., 356 U.S.
677, 682 n.6, 78 S. Ct. 983, 986 n.6 (1958).
8
Pitch first requested the records three years earlier, in 2014,
which the district court denied. The government appeals from
the district court’s grant of Pitch’s second petition, which he filed
in 2017.

140a
nearly impossible that anyone will ever be charged,
the investigation has been reopened many times, and
the event has inspired annual reenactments and
several books and articles spanning seven decades.
Balancing these competing interests, the
district court did not err in holding that the interest
in disclosure outweighed the interest in continued
secrecy.
IV. Conclusion
“We consistently have recognized that the
proper functioning of our grand jury system depends
upon the secrecy of grand jury proceedings,” but “a
court called upon to determine whether grand jury
transcripts should be released necessarily is infused
with substantial discretion.” Douglas Oil, 441 U.S. at
218, 99 S. Ct. at 1672. Given our binding decision in
Hastings, and the truly “exceptional circumstances”
presented by the Moore’s Ford Lynching, we cannot
say that the district court abused its substantial
discretion in ordering the release of the grand jury
transcripts. The judgment of the district court is
affirmed.
AFFIRMED.

141a
JORDAN, Circuit Judge, concurring:
Three decades ago, we held that a federal court
has inherent authority to order the disclosure of grand
jury materials in situations not covered by the
exceptions to secrecy set forth in Federal Rule of
Criminal Procedure 6(e). See In re Petition to Inspect
& Copy Grand Jury Materials (Hastings), 735 F.2d
1261, 1268 (11th Cir. 1984) (setting out an
“exceptional circumstances” standard). I would have
decided Hastings differently because allowing the use
of inherent authority to go beyond the exceptions to
grand jury secrecy set forth in Rule 6(e) seems too
open-ended to me. See Carlson v. United States, 837
F.3d 753, 767-71 (7th Cir. 2016) (Sykes, J.,
dissenting).
Nevertheless, I join the court’s opinion. Given
our decision in Hastings, I do not see how we can say
that the district court abused its discretion in relying
on its inherent authority. In addition, I do not believe
there is a persuasive basis to distinguish between the
disclosure of grand jury materials for use by a judicial
investigating committee (what was at issue in
Hastings) and the disclosure of grand jury materials
to discover the facts surrounding an event of
exceptional historical significance (what is at issue
here).
*****
If we are going to deny disclosure here, we need
to overrule Hastings, rather than attempt to
distinguish it.
My initial view, following oral
argument, was that we should consider convening en
banc to revisit Hastings. Upon further reflection,
however, I have come to a different conclusion, and I’d
like to explain why.

142a
First, Hastings does not stand alone. Other
federal courts have likewise invoked inherent
authority to permit disclosure of grand jury materials
in circumstances not covered by Rule 6(e). See Carlson
v. United States, 837 F.3d 753, 763-66 (7th Cir. 2016);
In re Grand Jury Proceedings, 417 F.3d 18, 26 (1st Cir.
2006); In re Craig, 131 F.3d 99, 103 (2d Cir. 1997); In
re Petition of Kutler, 800 F. Supp. 2d 42, 48 (D.C. Cir.
2011). Cf. Haldeman v. Sirica, 501 F.2d 714, 715
(D.C. Cir. 1974) (en banc) (denying mandamus relief
sought by the government to prevent the district court
from disclosing to the House Judiciary Committee,
post-indictment, a sealed grand jury report and
accompanying evidence, while indicating “general
agreement” with the district court’s handling of the
matter). And at least one court has left the door open
to the use of inherent authority for disclosure in dicta.
See In re Special Grand Jury 89-2, 450 F.3d 1159,
1178 (10th Cir. 2006).
No federal court, as far as I can tell, has come
to a contrary conclusion in a published opinion. The
Eighth Circuit has said that “courts will not order
disclosure [of grand jury materials] absent a
recognized exception to Rule 6(e) or a valid challenge
to the original sealing order or its implementation,”
United States v. McDougal, 559 F.3d 837, 840 (8th Cir.
2009), but it was not faced in that case with an
argument for disclosure under inherent authority for
matters of exceptional historical significance. Given
the current array of authority, we would likely be
creating a circuit split by overruling Hastings, and
that should not be done lightly.
Second, whatever the initial reasons for
keeping grand jury matters secret, compare George
Edwards, Jr., The Grand Jury 116 (1906) [Legal

143a
Classics Library ed. 2003] (suggesting that the
“original purpose [of grand jury secrecy] was that no
offender should escape”), with Mark Kadish, Behind
the Locked Doors of an American Grand Jury: Its
History, its Secrecy, and its Process, 24 Fl. St. U. L.
Rev. 1, 14 (1996) (explaining that the reasons for
grand jury secrecy were varied, and included
preventing the flight of suspected criminals, finding
out whether witnesses were biased, and ensuring
freedom from judicial oversight), in the United States
grand jury secrecy was not always seen as an
absolute. In cases decided before the enactment of the
Federal Rules of Criminal Procedure, some federal
courts—including the Supreme Court—held (or at
least said) that secrecy is not required after an
indictment is returned and the accused is in custody.
“[A]fter the grand jury’s functions are ended,
disclosure is wholly proper where the ends of justice
require it.” United States v. Socony-Vacuum Oil Co.,
310 U.S. 150, 234 (1940). Accord Metzler v. United
States, 64 F.2d 203, 206 (9th Cir. 1933); Atwell v.
United States, 162 F. 97, 99-100 (4th Cir. 1908); In re
Grand Jury Proceedings, 4 F. Supp. 283, 284-85 (E.D.
Pa. 1933).
If Rule 6(e) was meant to “continue[ ] the
traditional practice of secrecy on the part of members
of the grand jury except when the court permits a
disclosure,” Rule 6(e), 1944 Advisory Committee
Notes to Subdivision (e), there is a reasonable
argument that Hastings and its progeny are at least
consistent with historical practice. As we have said:
“Although Rule 6(e)(3) enumerates the exceptions to
the traditional rule of grand jury secrecy, the Supreme
Court and this Court have recognized that the district
courts have inherent power beyond the literal wording

144a
of Rule 6(e)(3) to disclose grand jury material and that
Rule 6(e)(3) is but declaratory of that authority.”
United States v. Aisenberg, 358 F.3d 1327, 1347 (11th
Cir. 2004). See also In re Request for Access to Grand
Jury Materials, 833 F.2d 1438, 1442 (11th Cir. 1987)
(“As the considerations justifying secrecy become less
relevant, the burden of showing the need for
disclosure is lessened.”).
Third, a survey of the relevant cases indicates
that federal courts have been able to apply the test set
forth in In re Craig, 131 F.3d at 106, without too much
difficulty in determining which matters of exceptional
historical significance warrant the disclosure of grand
jury materials. See, e.g., In re Application to Unseal
Dockets, 308 F. Supp. 3d 314, 326-35 (D.D.C. 2018); In
re Nichter, 949 F. Supp. 2d 205, 212–14 (D.D.C. 2013).
These courts have explained that exceptional
historical significance, though a necessary element for
disclosure, is itself not enough. Even if a matter or
proceeding is historically significant to an exceptional
degree, a court retains discretion to deny disclosure
after balancing the requisite factors. See, e.g., In re
Nichter, 949 F.Supp.2d at 212-14.
Fourth, and perhaps most importantly, a recent
attempt to amend Rule 6(e) to permit the disclosure of
grand jury records in cases of exceptional historical
significance proved unsuccessful. The reason why
this proposed amendment failed is insightful, and in
my view counsels against revisiting Hastings at this
time.
In 2011, Attorney General Eric Holder
recommended that Rule 6(e) be amended to establish
procedures for disclosing historically significant
grand jury materials. See Letter from Attorney
General Eric Holder to Judge Reena Raggi, Chair of

145a
the Judicial Conference’s Advisory Committee on
Criminal Rules, Oct. 18, 2011 (attached).
The
Department of Justice questioned whether federal
courts had inherent authority to allow such
disclosures given what it believed was Rule 6(e)’s clear
prohibition of disclosure of grand jury materials
absent an express exception. See id. at 2-5. Attorney
General Holder proposed that disclosure of
historically significant grand jury materials be
permitted, but only under new procedures set forth in
Rule 6(e) itself. The procedures suggested by the DOJ
would have required anyone seeking disclosure to
show, among other things, that the grand jury records
in question have “exceptional” historical significance,
that at least 30 years have passed since the relevant
case files associated with the grand jury records were
closed, that no living person would be materially
prejudiced by disclosure, and that disclosure would
not impede any pending government investigation or
prosecution. See id. at 8-9.
The Judicial Conference’s Advisory Committee
on Criminal Rules, then chaired by Second Circuit
Judge Reena Raggi, reported in 2012 to the
Committee on Rules of Practice and Procedure that it
believed that the DOJ’s proposed amendment to Rule
6(e) was unnecessary. See Minutes of Meeting of June
11-12, 2012, Judicial Conference Committee on Rules
of Practice and Procedure, at 44 (relevant pages
attached). According to Judge Raggi, all members of
a subcommittee of the Advisory Committee on
Criminal Rules—with the exception of the DOJ
representative—recommended that the DOJ’s
proposed amendment “not be pursued” because “in the
rare cases where disclosure of historic materials had
been sought, the district [courts] acted reasonably in

146a
referring to their inherent authority,” and as a result
“there [wa]s no need for a rule on the subject.” Id.
What happened (or, more accurately, did not
happen) in 2012 is not, of course, dispositive. But it is
instructive.
If those charged with considering
amendments to the Federal Rules of Criminal
Procedure believed in 2012 that federal courts had
properly relied on inherent authority to order the
disclosure of historically significant grand jury
materials, the case for overruling Hastings is
lessened.
*****
With these thoughts, I join the court’s opinion.

147a
GRAHAM, District Judge, dissenting:
The court creates an exception to the rule of
grand jury secrecy, doing so on the assertion that the
rationale for secrecy erodes over time. The exception
appears to be limited to matters fitting two main
criteria: enough time has elapsed for the parties to the
event to have died and enough present-day authority
considers the event to be of exceptional historical
significance. The court states that the test for
historical significance is objective but leaves the test
open-ended. The court provides little guidance for the
analysis except to say that historical significance
requires more than an interested journalist, curious
public or concerned friend or family member.
I disagree with the majority on several fronts.
I believe that judges should not be so bold as to grant
themselves the authority to decide that the historical
significance exception should exist and what the
criteria should be. I agree with the dissent of Judge
Sykes in Carlson v. United States, 837 F.3d 753, 767
(7th Cir. 2016) (Sykes, J., dissenting), and would hold
that Rule 6(e) of the Federal Rules of Criminal
Procedure limits a district court’s authority to order
the disclosure of grand jury records. Rule 6(e)(3)
codifies the policy choices made about which
exceptions should be recognized. Nothing analogous
to a historical significance exception can be found
there.
The court relies on Hastings to sanction a
broader exercise of judicial power than the decision’s
narrow holding supports. Hastings permitted an
exception to grand jury secrecy for a judicial
investigating committee. It found the situation to be
“closely akin” to the Rule 6(e)(3)(E)(i) exception for
judicial proceedings. In re Petition to Inspect & Copy

148a
Grand Jury Materials (Hastings), 735 F.2d 1261, 1272
(11th Cir. 1984). An exception for matters of historical
significance bears no resemblance to an exception
which applies “to assist in preparation or conduct of a
judicial proceeding.” United States v. Baggot, 463
U.S. 476, 480, 103 S. Ct. 3164, 3167 (1983).
But even if a district court has inherent
authority to order disclosure outside of Rule 6(e), I do
not believe it should be exercised in this case. The
rule of grand jury secrecy serves many interests,
including “assur[ing] that persons who are accused
but exonerated by the grand jury will not be held up
to public ridicule.” Douglas Oil Co. of Cal. v. Petrol
Stops Nw., 441 U.S. 211, 219, 99 S. Ct. 1667, 1673
(1979). This case presses the matter further, both in
time and scope. Do subsequent generations—the
children, grandchildren and beyond—of not only the
suspects but also the grand jury witnesses and grand
jurors themselves have reputational interests that
warrant protection?
Because “secrecy of the grand jury is
sacrosanct,” United States v. Phillips, 843 F.2d 438,
441 (11th Cir. 1988), and because disclosure of grand
jury material is prohibited “except in the limited
circumstances provided for in Rule 6(e)(3),” United
States v. Aisenberg, 358 F.3d 1327, 1347 (11th Cir.
2004), the rule of secrecy, as codified in Rule 6(e)(3),
has always applied to protect the interests of
subsequent generations.
Disclosure of grand jury records should not be
permitted without an exacting review which gives due
weight to the privacy and reputational interests at
stake. It is troubling that the court has authorized
disclosure of the records without examining their

149a
contents.15 It is troubling too that the government has
elected not to contest the proposition that there is no
interest to be served in continued secrecy.
That an event has exceptional historical
significance cuts both ways. With the principal
parties having passed away and the investigation
gone cold, one might conclude the matter is stale and
the need for secrecy over.
Yet, exceptional
significance suggests a continued interest in, and
impact from, the event. The Moore’s Ford Lynching
played a part in the civil rights movement and
interest remains very much alive, particularly among
members of the community affected by the event. The
depth of their interest is illustrated by the Moore’s
Ford Memorial Committee, which has advocated for
racial justice and held events memorializing the
victims over the past two decades. The Committee
has placed grave markers for the victims and a
historical marker near the site of the lynching. A
member of the Committee and a granddaughter of one
the victims attended oral argument in this appeal.
Community
members
organize
an
annual
reenactment in honor of the victims. They still search
for justice.
The vitality of the community’s continued
interest raises possible repercussions for the living
descendants and relatives of those individuals whom
the grand jury records will identify as being suspects,
witnesses and grand jurors. The modern public
rightly views the lynching and failure to indict as a
horrific injustice, and many perceive it to have been
the work of the Ku Klux Klan. Would knowing that
The grand jury records were not made a part of
the record before the court.
15

150a
grand jury records could someday be disclosed and
affect the standing of a child or grandchild in the
community deter a grand jury witness from fully
telling the truth? Could the conduct of a witness or
grand juror involved in an event that is viewed at the
time as momentous or sensational be influenced by a
concern for their own legacy among future
generations?
I would hold that the reputational interests
protected by Rule 6(e) include those of subsequent
generations. I am unable to dismiss the reputational
harm that could occur to a living person if the grand
jury transcripts reveal that their parent or
grandparent was a suspect, a witness who
equivocated or was uncooperative, a member of the
grand jury which refused to indict, or a person whose
name was identified as a Klan member.
Accordingly, I dissent and would reverse the
district court’s order. At a minimum this court should
provide protections to limit the harm its newlycreated exception to grand jury secrecy could cause.
The court should, for example, instruct the district
court on remand to examine the grand jury records,
with the assistance of the government, and to protect
discernible reputational interests by taking measures
such as redacting names and other identifying
information.

151a

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-15016
D.C. Docket No. 5:14-mc-00002-MTT
ANTHONY S. PITCH,
Plaintiff - Appellee,
v.
UNITED STATES OF AMERICA,
Defendant - Appellant.
Appeal from the United States District Court
for the Middle District of Georgia
No. 17-15016
(June 4, 2019)
925 F.3d 1224

152a
Before ED CARNES, Chief Judge, TJOFLAT,
MARCUS, WILSON, WILLIAM PRYOR, MARTIN,
JORDAN, ROSENBAUM, JILL PRYOR, NEWSOM,
BRANCH, and GRANT, Circuit Judges:
BY THE COURT:
A member of this Court in active service having
requested a poll on whether this case should be
reheard en banc and a majority of the judges of this
Court in active service having voted in favor of
granting rehearing en banc, IT IS ORDERED that
this case will be reheard en banc. The panel’s opinion
is VACATED.

153a
Federal Rule of Criminal Procedure 6(e)
Rule 6. The Grand Jury

***
(e) RECORDING AND DISCLOSING THE PROCEEDINGS.
(1) Recording the Proceedings. Except while the
grand jury is deliberating or voting, all proceedings
must be recorded by a court reporter or by a suitable
recording device. But the validity of a prosecution is
not affected by the unintentional failure to make a
recording. Unless the court orders otherwise, an
attorney for the government will retain control of
the recording, the reporter's notes, and any
transcript prepared from those notes.
(2) Secrecy.
(A) No obligation of secrecy may be imposed on
any person except in accordance with Rule
6(e)(2)(B).
(B) Unless these rules provide otherwise, the
following persons must not disclose a matter
occurring before the grand jury:
(i) a grand juror;
(ii) an interpreter;
(iii) a court reporter;
(iv) an operator of a recording device;
(v) a person
testimony;

who

transcribes

recorded

(vi) an attorney for the government; or

154a
(vii) a person to whom disclosure is made under
Rule 6(e)(3)(A)(ii) or (iii).
(3) Exceptions.
(A) Disclosure of a grand-jury matter—other than
the grand jury's deliberations or any grand juror's
vote—may be made to:
(i) an attorney for the government for use in
performing that attorney's duty;
(ii) any government personnel—including those
of a state, state subdivision, Indian tribe, or
foreign government—that an attorney for the
government considers necessary to assist in
performing that attorney's duty to enforce
federal criminal law; or
(iii) a person authorized by 18 U.S.C. §3322.
(B) A person to whom information is disclosed
under Rule 6(e)(3)(A)(ii) may use that information
only to assist an attorney for the government in
performing that attorney's duty to enforce federal
criminal law. An attorney for the government
must promptly provide the court that impaneled
the grand jury with the names of all persons to
whom a disclosure has been made, and must
certify that the attorney has advised those
persons of their obligation of secrecy under this
rule.
(C) An attorney for the government may disclose
any grand-jury matter to another federal grand
jury.
(D) An attorney for the government may disclose
any grand-jury matter involving foreign

155a
intelligence, counterintelligence (as defined in 50
U.S.C. 3003), or foreign intelligence information
(as defined in Rule 6(e)(3)(D)(iii)) to any federal
law
enforcement,
intelligence,
protective,
immigration, national defense, or national
security official to assist the official receiving the
information in the performance of that official's
duties. An attorney for the government may also
disclose any grand-jury matter involving, within
the United States or elsewhere, a threat of attack
or other grave hostile acts of a foreign power or its
agent, a threat of domestic or international
sabotage or terrorism, or clandestine intelligence
gathering activities by an intelligence service or
network of a foreign power or by its agent, to any
appropriate federal, state, state subdivision,
Indian tribal, or foreign government official, for
the purpose of preventing or responding to such
threat or activities.
(i) Any official who receives information under
Rule 6(e)(3)(D) may use the information only as
necessary in the conduct of that person's official
duties subject to any limitations on the
unauthorized disclosure of such information.
Any state, state subdivision, Indian tribal, or
foreign government official who receives
information under Rule 6(e)(3)(D) may use the
information only in a manner consistent with
any guidelines issued by the Attorney General
and the Director of National Intelligence.
(ii) Within a reasonable time after disclosure is
made under Rule 6(e)(3)(D), an attorney for the
government must file, under seal, a notice with
the court in the district where the grand jury

156a
convened stating that such information was
disclosed and the departments, agencies, or
entities to which the disclosure was made.
(iii) As used in Rule 6(e)(3)(D), the term “foreign
intelligence information” means:
(a) information, whether or not it concerns a
United States person, that relates to the
ability of the United States to protect
against—
• actual or potential attack or other grave
hostile acts of a foreign power or its agent;
• sabotage or international terrorism by a
foreign power or its agent; or
• clandestine intelligence activities by an
intelligence service or network of a foreign
power or by its agent; or
(b) information, whether or not it concerns a
United States person, with respect to a
foreign power or foreign territory that relates
to—
• the national defense or the security of the
United States; or
• the conduct of the foreign affairs of the
United States.
(E) The court may authorize disclosure—at a
time, in a manner, and subject to any other
conditions that it directs—of a grand-jury matter:
(i) preliminarily to or in connection with a
judicial proceeding;

157a
(ii) at the request of a defendant who shows
that a ground may exist to dismiss the
indictment because of a matter that occurred
before the grand jury;
(iii) at the request of the government, when
sought by a foreign court or prosecutor for use
in an official criminal investigation;
(iv) at the request of the government if it shows
that the matter may disclose a violation of
State, Indian tribal, or foreign criminal law, as
long as the disclosure is to an appropriate state,
state-subdivision, Indian tribal, or foreign
government official for the purpose of enforcing
that law; or
(v) at the request of the government if it shows
that the matter may disclose a violation of
military criminal law under the Uniform Code
of Military Justice, as long as the disclosure is
to an appropriate military official for the
purpose of enforcing that law.
(F) A petition to disclose a grand-jury matter
under Rule 6(e)(3)(E)(i) must be filed in the
district where the grand jury convened. Unless
the hearing is ex parte—as it may be when the
government is the petitioner—the petitioner
must serve the petition on, and the court must
afford a reasonable opportunity to appear and be
heard to:
(i) an attorney for the government;
(ii) the parties to the judicial proceeding; and

158a
(iii) any other person whom the court may
designate.
(G) If the petition to disclose arises out of a
judicial proceeding in another district, the
petitioned court must transfer the petition to the
other court unless the petitioned court can
reasonably determine whether disclosure is
proper. If the petitioned court decides to transfer,
it must send to the transferee court the material
sought to be disclosed, if feasible, and a written
evaluation of the need for continued grand-jury
secrecy. The transferee court must afford those
persons identified in Rule 6(e)(3)(F) a reasonable
opportunity to appear and be heard.
(4) Sealed Indictment. The magistrate judge to
whom an indictment is returned may direct that the
indictment be kept secret until the defendant is in
custody or has been released pending trial. The
clerk must then seal the indictment, and no person
may disclose the indictment's existence except as
necessary to issue or execute a warrant or
summons.
(5) Closed Hearing. Subject to any right to an open
hearing in a contempt proceeding, the court must
close any hearing to the extent necessary to prevent
disclosure of a matter occurring before a grand jury.
(6) Sealed Records. Records, orders, and subpoenas
relating to grand-jury proceedings must be kept
under seal to the extent and as long as necessary to
prevent the unauthorized disclosure of a matter
occurring before a grand jury.

159a
(7) Contempt. A knowing violation of Rule 6, or of
any guidelines jointly issued by the Attorney
General and the Director of National Intelligence
under Rule 6, may be punished as a contempt of
court.

***

160a
Federal Rule of Criminal Procedure 57
Rule 57. District Court Rules

***
(a) IN GENERAL.
(1) Adopting Local Rules. Each district court acting
by a majority of its district judges may, after giving
appropriate public notice and an opportunity to
comment, make and amend rules governing its
practice. A local rule must be consistent with—but
not duplicative of—federal statutes and rules
adopted under 28 U.S.C. §2072 and must conform
to any uniform numbering system prescribed by the
Judicial Conference of the United States.
(2) Limiting Enforcement. A local rule imposing a
requirement of form must not be enforced in a
manner that causes a party to lose rights because of
an unintentional failure to comply with the
requirement.
(b) PROCEDURE WHEN THERE IS NO CONTROLLING LAW.
A judge may regulate practice in any manner
consistent with federal law, these rules, and the local
rules of the district. No sanction or other disadvantage
may be imposed for noncompliance with any
requirement not in federal law, federal rules, or the
local district rules unless the alleged violator was
furnished with actual notice of the requirement before
the noncompliance.
(c) EFFECTIVE DATE AND NOTICE. A local rule adopted
under this rule takes effect on the date specified by
the district court and remains in effect unless

161a
amended by the district court or abrogated by the
judicial council of the circuit in which the district is
located. Copies of local rules and their amendments,
when promulgated, must be furnished to the judicial
council and the Administrative Office of the United
States Courts and must be made available to the
public.

***

162a
PL 115-426, January 8, 2019, 132 Stat 5489
UNITED STATES PUBLIC LAWS
115th Congress - Second Session
Convening January 06, 2018
PL 115–426 [S 3191]
January 8, 2019
CIVIL RIGHTS COLD CASE RECORDS
COLLECTION ACT OF 2018
An Act To provide for the expeditious disclosure of
records related to civil rights cold cases, and for other
purposes.
Be it enacted by the Senate and House of
Representatives of the United States of America in
Congress assembled,
SECTION 1. SHORT TITLE.
This Act may be cited as the “Civil Rights Cold Case
Records Collection Act of 2018”.
SEC. 2. DEFINITIONS.
In this Act:
(1) ARCHIVIST.—The term “Archivist” means the
Archivist of the United States.
(2) CIVIL RIGHTS COLD CASE.—The term “civil
rights cold case” means any unsolved case—
(A) arising out of events which occurred during the
period beginning on January 1, 1940 and ending on
December 31, 1979; and
(B) related to—
(i) section 241 of title 18, United States Code (relating
to conspiracy against rights);

163a
(ii) section 242 of title 18, United States Code (relating
to deprivation of rights under color of law);
(iii) section 245 of title 18, United States Code
(relating to federally protected activities);
(iv) sections 1581 and 1584 of title 18, United States
Code (relating to peonage and involuntary servitude);
(v) section 901 of the Fair Housing Act (42 U.S.C.
3631); or
(vi) any other Federal law that was—
(I) in effect on or before December 31, 1979; and
(II) enforced by the criminal section of the Civil Rights
Division of the Department of Justice before the date
of enactment of this Act.
(3) CIVIL RIGHTS COLD CASE RECORD.—The
term “civil rights cold case record” means a record
that—
(A) is related to a civil rights cold case; and
(B) was created or made available for use by, obtained
by, or otherwise came into the possession of—
(i) the Library of Congress;
(ii) the National Archives;
(iii) any executive agency;
(iv) any independent agency;
(v) any other entity of the Federal Government; or
(vi) any State or local government, or component
thereof, that provided support or assistance or
performed work in connection with a Federal inquiry
into a civil rights cold case.
(4) COLLECTION.—The term “Collection” means the
Civil Rights Cold Case Records Collection established
under section 3.
(5) EXECUTIVE AGENCY.—The term “executive
agency” means an agency, as defined in section 552(f)
of title 5, United States Code.

164a
(6)
GOVERNMENT
OFFICE.—The
term
“Government office” means any office of the Federal
Government that has possession or control of 1 or
more civil rights cold case records.
(7)
GOVERNMENT
OFFICIAL.—The
term
“Government official” means any officer or employee
of the United States, including elected and appointed
officials.
(8) NATIONAL ARCHIVES.—The term “National
Archives” means the National Archives and Records
Administration and all components thereof, including
Presidential archival depositories established under
section 2112 of title 44, United States Code.
(9) OFFICIAL INVESTIGATION.—The term “official
investigation” means the review of a civil rights cold
case conducted by any entity of the Federal
Government either independently, at the request of
any Presidential commission or congressional
committee, or at the request of any Government
official.
(10) ORIGINATING BODY.—The term “originating
body” means the executive agency, Government
commission, congressional committee, or other
Governmental entity that created a record or
particular information within a record.
(11) PUBLIC INTEREST.—The term “public interest”
means the compelling interest in the prompt public
disclosure of civil rights cold case records for historical
and Governmental purposes and for the purpose of
fully informing the people of the United States about
the history surrounding all civil rights cold cases in
the United States.
(12) RECORD.—The term “record” has the meaning
given the term in section 3301 of title 44, United
States Code.

165a
(13) REVIEW BOARD.—The term “Review Board”
means the Civil Rights Cold Case Records Review
Board established under section 5.
SEC. 3. CIVIL RIGHTS COLD CASE RECORDS
COLLECTION AT THE NATIONAL ARCHIVES
AND RECORD ADMINISTRATION.
(a) IN GENERAL.—
(1) ESTABLISHMENT OF THE CIVIL RIGHTS
COLD CASE RECORDS COLLECTION.—Not later
than 60 days after the date of enactment of this Act,
the Archivist shall—
(A) commence establishing a collection of civil rights
cold case records to be known as the “Civil Rights Cold
Case Records Collection” that ensures the physical
integrity and original provenance of all records in the
Collection;
(B) commence preparing and publishing the subject
guidebook and index to the Collection; and
(C) establish criteria for Government offices to follow
when transmitting copies of civil rights cold case
records to the Archivist, to include required metadata.
(2) CONTENTS OF COLLECTION.—The Collection
shall include—
(A) a copy of each civil rights cold case record—
(i) that has not been transmitted to the Archivist,
which shall be transmitted to the Archivist in
accordance with section 2107 of title 44, United States
Code, by the entity described in section 2(3)(B) in
possession of the civil rights cold case record, except
in the case of a State or local government;
(ii) that has been transmitted to the Archivist or
disclosed to the public in an unredacted form before
the date of the enactment of this Act;

166a
(iii) that is required to be transmitted to the Archivist;
or
(iv) the disclosure of which is postponed under this
Act; and
(B) all Review Board records, as required under this
Act.
(b) DISCLOSURE OF RECORDS.—All civil rights
cold case records transmitted to the Archivist for
disclosure to the public—
(1) shall be included in the Collection;
(2) not later than 60 days after the transmission of the
record to the Archivist, shall be available to the public
for inspection and copying at the National Archives;
and
(3) shall be prioritized for digitization by the National
Archives.
(c) FEES FOR COPYING.—The Archivist shall—
(1) use efficient electronic means when possible;
(2) charge fees for copying civil rights cold case
records; and
(3) grant waivers of such fees pursuant to the
standard established under section 552(a)(4) of title 5,
United States Code.
(d) ADDITIONAL REQUIREMENTS.—The Archivist
shall ensure the security of civil rights cold case
records in the Collection for which disclosure is
postponed.
(e)
TRANSMISSION
TO
THE
NATIONAL
ARCHIVES.—
(1) IN GENERAL.—Subject to paragraph (2), each
Government office shall, in accordance with the
criteria established by the Archivist under subsection
(a)(1)(C)—
(A) as soon as is reasonably practicable, and in any
event not later than 2 years after the date of the

167a
enactment of this Act, transmit to the Archivist, for
the Archivist to make available to the public in
accordance with subsection (b), a copy of each civil
rights cold case record that can be publicly disclosed,
including any such record that is publicly available on
the date of enactment of this Act, without any
redaction, adjustment, or withholding under the
standards of this Act; and
(B) transmit to the Archivist upon approval for
postponement by the Review Board or upon
completion of other action authorized by this Act, a
copy of each civil rights cold case record for which
public disclosure *5492 has been postponed, in whole
or in part, under the standards of this Act, to become
part of the protected Collection.
(2) REOPENING OF CASES.—If, not later than 2
years after the date of enactment of this Act, the
Attorney General submits to the Archivist a
certification that the Attorney General intends to
reopen and pursue prosecution of the civil rights cold
case to which a civil rights cold case record relates, the
Attorney General shall transmit to the Archivist the
civil rights cold case record in accordance with
paragraph (1)—
(A) not later than 90 days after—
(i) final judgment is entered in the proceedings
relating to the civil rights cold case; or
(ii) proceedings relating to the civil rights cold case are
dismissed with prejudice; or
(B) not later than the date that is 1 year after the date
on which the Attorney General submits to the
Archivist the certification, if an indictment or
information has not been filed with respect to the civil
rights cold case.

168a
(f) PERIODIC REVIEW OF POSTPONED CIVIL
RIGHTS COLD CASE RECORDS.—
(1) IN GENERAL.—Each civil rights cold case record
that is redacted or for which public disclosure is
postponed shall be reviewed not later than December
31 each year by the entity submitting the record and
the Archivist, consistent with the recommendations of
the Review Board under section 7(c)(3)(B).
(2) REQUIREMENTS OF PERIODIC REVIEW.—The
periodic review under paragraph (1) shall address the
public disclosure of additional civil rights cold case
records in the Collection under the standards of this
Act.
(3) UNCLASSIFIED WRITTEN DESCRIPTION.—
Any civil rights cold case record for which
postponement of public disclosure is continued shall
include an unclassified written description of the
reason for such continued postponement, which shall
be provided to the Archivist and made available on a
publicly accessible website upon the determination to
continue the postponement.
(4) FULL DISCLOSURE OF CIVIL RIGHTS COLD
CASE RECORD REQUIRED.—
(A) IN GENERAL.—Each civil rights cold case record
that is not publicly disclosed in full as of the date on
which the Review Board terminates under section 5(n)
shall be publicly disclosed in full and available in the
Collection not later than 25 years after the date of
enactment of this Act unless—
(i) the head of the originating body, an executive
agency, or other Government office recommends in
writing the exemption of the record or information,
the release of which would clearly and demonstrably
be expected to—

169a
(I) cause identifiable or describable damage to
national security, military defense, law enforcement,
intelligence operations, or the conduct of foreign
relations that is of such gravity that it outweighs the
public interest in disclosure; or
(II) reveal information described in paragraphs (1)
through (9) of section 3.3(b) of Executive Order 13526
(75 Fed. Reg. 707; relating to classified national
security information);
(ii) the written recommendation described in clause
(i)—
(I) is provided to the Archivist not later than 180 days
before the date that is 25 years after the date of
enactment of this Act; and
(II) includes—
(aa) a justification of the recommendation to postpone
disclosure; and
(bb) a recommended specified time at which or a
specified occurrence following which the material may
be appropriately disclosed to the public under this Act;
and
(iii) the Archivist agrees with the written
recommendation described in clause (i).
(B) NOTIFICATION.—If the Archivist does not agree
with the recommendation described in subparagraph
(A)(i), the Archivist shall notify the head of the
originating body, executive agency, or other
Government office making the recommendation not
later than 90 days before the date that is 25 years
after the date of enactment of this Act.
(g) DIGITIZATION OF RECORDS.—Each executive
agency shall make text searchable documents
available to the Review Board pursuant to standards
established under section 552(a)(3) of title 5, United
States Code.

170a
(h)
NOTICE
REGARDING
PUBLIC
DISCLOSURE.—
(1) FINDING.—Congress finds that the public release
of case-related documents and information without
notice may significantly affect the victims of the
events to which the case relates and their next of kin.
(2) NOTICE.—Not later than 7 days before a civil
rights cold case record is publicly disclosed, the
executive agency releasing the civil rights cold case
record, in coordination with the Government office
that had possession or control of the civil rights cold
case record, shall take all reasonable efforts to provide
the civil rights cold case record to the victims of the
events to which the civil rights cold case record
relates, or their next of kin.
SEC. 4. GROUNDS FOR POSTPONEMENT OF
PUBLIC DISCLOSURE OF RECORDS.
Disclosure of civil rights cold case records or
particular information within a civil rights cold case
record to the public may be postponed subject to the
limitations of this Act if disclosure would clearly and
demonstrably be expected to—
(1)(A) cause identifiable or describable damage to
national security, military defense, law enforcement,
intelligence operations, or the conduct of foreign
relations that is of such gravity that it outweighs the
public interest in disclosure; or
(B) reveal information described in paragraphs (1)
through (9) of section 3.3(b) of Executive Order 13526
(75 Fed. Reg. 707; relating to classified national
security information);

171a
(2)(A) reveal the name or identity of a living individual
who provided confidential information to the United
States; and
(B) pose a substantial risk of harm to that individual;
(3) constitute an unwarranted invasion of personal
privacy;
(4)(A) compromise the existence of an understanding
of confidentiality currently requiring protection
between a Government agent and a cooperating
individual or group; and
(B) be so harmful that the understanding of
confidentiality outweighs the public interest;
(5) endanger the life or physical safety of any
individual; or
(6) interfere with ongoing law enforcement
proceedings.
SEC. 5. ESTABLISHMENT AND POWERS OF THE
CIVIL RIGHTS COLD CASE RECORDS REVIEW
BOARD.
(a) ESTABLISHMENT.—There is established, as an
independent agency, a board to be known as the Civil
Rights Cold Case Records Review Board.
(b) APPOINTMENT.—
(1) IN GENERAL.—The President shall appoint, by
and with the advice and consent of the Senate, 5
individuals to serve as members of the Review Board,
to ensure and facilitate the review, transmission to
the Archivist, and public disclosure of civil rights cold
case records.
(2) INITIAL APPOINTMENT.—
(A) IN GENERAL.—Initial appointments to the
Review Board shall, so far as practicable, be made not

172a
later than 60 days after the date of enactment of this
Act.
(B)
RECOMMENDATIONS.—In
making
appointments to the Review Board, the President may
consider any individuals recommended by the
American Historical Association, the Organization of
American Historians, the Society of American
Archivists, and the American Bar Association.
(C) EXTENSION.—If an organization described in
subparagraph (B) does not recommend at least 2
nominees meeting the qualifications stated in
paragraph (3) within 60 days after the date of
enactment of this Act, the deadline under
subparagraph (A) shall be extended until the earlier
of 60 days after the date on which such
recommendations are made or 120 days after the date
of enactment of this Act.
(D) ADDITIONAL RECOMMENDATIONS.—The
President may request that any organization
described in subparagraph (B) submit additional
recommended nominees.
(3) QUALIFICATIONS.—Individuals nominated to
the Review Board shall—
(A) not have had any previous involvement with any
official investigation or inquiry conducted by the
Federal Government, or any State or local
government, relating to any civil rights cold case;
(B) be distinguished individuals of high national
professional reputation in their respective fields who
are capable of exercising the independent and
objective judgment necessary to fulfill their role in
ensuring and facilitating the review, transmission to
the public, and public disclosure of files related to civil
rights cold cases and who possess *5495 an

173a
appreciation of the value of such material to the
public, scholars, and government; and
(C) include at least 1 professional historian and 1
attorney.
(c) SECURITY CLEARANCES.—All Review Board
nominees shall be processed for the necessary security
clearances in an accelerated manner by the
appropriate Federal agencies and subject to the
standard procedures for granting such clearances.
(d) VACANCY.—A vacancy on the Review Board shall
be filled in the same manner as the original
appointment within 60 days of the occurrence of the
vacancy.
(e) CHAIRPERSON.—The members of the Review
Board shall elect 1 of the members as chairperson.
(f) REMOVAL OF REVIEW BOARD MEMBER.—
(1) IN GENERAL.—No member of the Review Board
shall be removed from office, other than—
(A) by impeachment and conviction; or
(B) by the action of the President for inefficiency,
neglect of duty, malfeasance in office, physical
disability, mental incapacity, or any other condition
that substantially impairs the performance of the
member's duties.
(2) REPORT.—
(A) IN GENERAL.—If a member of the Review Board
is removed from office, and that removal is by the
President, not later than 10 days after the removal,
the President shall submit to the Committee on
Oversight and Government Reform of the House of
Representatives and the Committee on Homeland
Security and Governmental Affairs of the Senate a
report specifying the facts found and the grounds for
the removal.

174a
(B) PUBLICATION.—The President shall publish in
the Federal Register a report submitted under
subparagraph (A), except that the President may, if
necessary to protect the rights of a person named in
the report or to prevent undue interference with any
pending prosecution, postpone or refrain from
publishing any or all of the report until the completion
of such pending cases or pursuant to privacy
protection requirements in law.
(3) JUDICIAL REVIEW.—
(A) IN GENERAL.—A member of the Review Board
removed from office may obtain judicial review of the
removal in a civil action commenced in the United
States District Court for the District of Columbia.
(B) RELIEF.—The member may be reinstated or
granted other appropriate relief by order of the court.
(g) COMPENSATION OF MEMBERS.—
(1) IN GENERAL.—A member of the Review Board
shall be compensated at a rate equal to the daily
equivalent of the annual rate of basic pay prescribed
for level IV of the Executive Schedule under section
5315 of title 5, United States Code, for each day
(including travel time) during which the member is
engaged in the performance of the duties of the
Review Board.
(2) TRAVEL EXPENSES.—A member of the Review
Board shall be allowed reasonable travel expenses,
including per diem in lieu of subsistence, at rates for
employees of agencies under subchapter I of chapter
57 of title 5, United States Code, *5496 while away
from the member's home or regular place of business
in the performance of services for the Review Board.
(h) DUTIES OF THE REVIEW BOARD.—
(1) IN GENERAL.—The Review Board shall consider
and render decisions on a determination by a

175a
Government office to seek to postpone the disclosure
of civil rights cold case records.
(2) DECISIONS.—In carrying out paragraph (1), the
Review Board shall consider and render decisions
on—
(A) whether a record constitutes a civil rights cold case
record; and
(B) whether a civil rights cold case record or particular
information in a record qualifies for postponement of
disclosure under this Act.
(i) POWERS.—
(1) IN GENERAL.—The Review Board shall have the
authority to act in a manner prescribed under this Act
including the authority to—
(A) obtain access to civil rights cold case records that
have been identified and organized by a Government
office;
(B) direct a Government office to make available to the
Review Board, and if necessary investigate the facts
surrounding, additional information, records, or
testimony from individuals, which the Review Board
has reason to believe is required to fulfill its functions
and responsibilities under this Act;
(C) subpoena private persons to compel the production
of documents and other records relevant to its
responsibilities under this Act;
(D) require any Government office to account in
writing for the destruction of any records relating to
civil rights cold cases;
(E) receive information from the public regarding the
identification and public disclosure of civil rights cold
case records; and
(F) hold hearings, administer oaths, and subpoena
documents and other records.

176a
(2) ENFORCEMENT OF SUBPOENAS.—Any
subpoena issued under this subsection may be
enforced by any appropriate Federal court acting
pursuant to a lawful request of the Review Board.
(j) WITNESS IMMUNITY.—The Review Board shall
be considered to be an agency of the United States for
purposes of chapter 601 of title 18, United States
Code.
(k) OVERSIGHT.—
(1) IN GENERAL.—The Committee on Oversight and
Government Reform of the House of Representatives
and the Committee on Homeland Security and
Governmental Affairs of the Senate shall have
continuing oversight jurisdiction with respect to the
official conduct of the Review Board and the
disposition of postponed records after termination of
the Review Board, and shall have access to any
records held or created by the Review Board.
(2) COOPERATION OF REVIEW BOARD.—The
Review Board shall have a duty to cooperate with the
exercise of the oversight jurisdiction described in
paragraph (1).
*5497
(l) SUPPORT SERVICES.—The Administrator of
General Services shall provide administrative
services for the Review Board on a reimbursable basis.
(m) INTERPRETIVE REGULATIONS.—The Review
Board may issue interpretive regulations.
(n) TERMINATION.—
(1) IN GENERAL.—The Review Board shall
terminate not later than 4 years after the date of
enactment of this Act, except that the Review Board
may, by majority vote, extend its term for an
additional 1-year period if the Review Board has not
completed its work within that 4-year period.

177a
(2) REPORTS.—Before its termination, the Review
Board shall submit reports to the President and the
Congress, including a complete and accurate
accounting of expenditures during its existence, and
shall complete all other reporting requirements under
this Act.
(3) TRANSFER OF RECORDS.—
(A) IN GENERAL.—Upon termination, the Review
Board shall transfer all of its records to the Archivist
for inclusion in the Collection.
(B) PRESERVATION OF RECORDS.—The records of
the Review Board shall not be destroyed, except that
the Archivist may destroy routine administrative
records covered by a general records schedule
following notification in the Federal Register and
after considering comments.
SEC. 6. REVIEW BOARD PERSONNEL.
(a) CHIEF OF STAFF.—
(1) APPOINTMENT.—Not later than 45 days after
the initial meeting of the Review Board, and without
regard to political affiliation, the Review Board shall
appoint an individual to the position of Chief of Staff
of the Review Board.
(2) REQUIREMENTS.—The individual appointed as
Chief of Staff—
(A) shall be a citizen of the United States of integrity
and impartiality who is a distinguished professional;
and
(B) shall have had no previous involvement with any
official investigation or inquiry relating to civil rights
cold cases.
(3) CANDIDATE TO HAVE CLEARANCES.—A
candidate for Chief of Staff shall be granted the

178a
necessary security clearances in an accelerated
manner subject to the standard procedures for
granting such clearances.
(4) APPROVAL CONTINGENT ON PRIOR
CLEARANCE.—A candidate for Chief of Staff shall
qualify for the necessary security clearance prior to
being appointed by the Review Board.
(5) DUTIES.—The Chief of Staff shall—
(A) serve as principal liaison to Government offices;
(B) be responsible for the administration and
coordination of the Review Board's review of records;
(C) be responsible for the administration of all official
activities conducted by the Review Board; and
(D) have no authority to decide or determine whether
any record shall be disclosed to the public or
postponed for disclosure.
(6) REMOVAL.—The Chief of Staff shall not be
removed except upon a majority vote of the Review
Board to remove *5498 the Chief of Staff for cause on
the grounds of inefficiency, neglect of duty,
malfeasance in office, physical disability, mental
incapacity, or any other condition that substantially
impairs the performance of the responsibilities of the
Chief of Staff or the employees of the Review Board.
(b) STAFF.—
(1) ADDITIONAL PERSONNEL.—The Review Board
may, in accordance with the civil service laws but
without regard to civil service laws and regulations for
appointments in the competitive service under
subchapter I of chapter 33 of title 5, United States
Code, appoint and terminate additional employees as
are necessary to enable the Review Board and its
Chief of Staff to perform their duties.
(2) REQUIREMENTS.—An individual appointed as
an employee of the Review Board—

179a
(A) shall be a private citizen of integrity and
impartiality; and
(B) shall have had no previous involvement with any
official investigation or inquiry relating to civil rights
cold cases.
(3) NOMINATIONS.—Before making an appointment
pursuant to paragraph (1), the Review Board shall
consider individuals recommended by the American
Historical Association, the Organization of American
Historians, the Society of American Archivists, and
the American Bar Association.
(4) SECURITY CLEARANCES.—A candidate shall
qualify for the necessary security clearance prior to
being appointed by the Review Board.
(c) COMPENSATION.—The Review Board shall fix
the compensation of the Chief of Staff and other
employees in accordance with title 5, United States
Code, except that the rate of pay for the Chief of Staff
and other employees may not exceed the rate payable
for level V of the Executive Schedule under section
5316 of that title.
(d) ADVISORY COMMITTEES.—The Review Board
may create advisory committees to assist in fulfilling
the responsibilities of the Review Board under this
Act.
SEC. 7. REVIEW OF RECORDS BY THE REVIEW
BOARD.
(a) CUSTODY OF RECORDS REVIEWED BY THE
BOARD.—Pending the outcome of the Review Board's
review activity, a Government office shall retain
custody of a civil rights cold case record for purposes
of preservation, security, and efficiency, unless—

180a
(1) the Review Board requires the physical transfer of
records for reasons of conducting an independent and
impartial review; or
(2) such transfer is necessary for an administrative
hearing or other official Review Board function.
(b) STARTUP REQUIREMENTS.—The Review
Board shall—
(1) not later than 90 days after the date on which all
members of the Review Board are appointed, publish
a schedule for review of all civil rights cold case
records in the Federal Register; and
(2) not later than 180 days after the enactment of this
Act, begin its review of civil rights cold case records
under this Act.
(c) DETERMINATION OF THE REVIEW BOARD.—
(1) IN GENERAL.—The Review Board shall direct
that copies of all civil rights cold case records be
transmitted to the Archivist and disclosed to the
public in the Collection in the absence of clear and
convincing evidence that—
(A) a Government record is not a civil rights cold case
record; or
(B) a Government record or particular information
within a civil rights cold case record qualifies for
postponement of public disclosure under this Act,
which shall include consideration by the Review
Board of relevant laws and policies protecting
criminal records of juveniles.
(2) POSTPONEMENT.—In approving postponement
of public disclosure of a civil rights cold case record,
the Review Board shall work to—
(A) provide for the disclosure of segregable parts,
substitutes, or summaries of such a record; and
(B) determine, in consultation with the originating
body and consistent with the standards for

181a
postponement under this Act, which of the following
alternative forms of disclosure shall be made by the
originating body:
(i) Any reasonably segregable particular information
in a civil rights cold case record.
(ii) A substitute record for that information which is
postponed.
(iii) A summary of a civil rights cold case record.
(3) REPORT.—With respect to each civil rights cold
case record or particular information in civil rights
cold case records the public disclosure of which is
postponed under section 4, or for which only
substitutions or summaries have been disclosed to the
public, the Review Board shall create and transmit to
the Archivist a report containing—
(A) a description of actions by the Review Board, the
originating body, the President, or any Government
office (including a justification of any such action to
postpone disclosure of any record or part of any
record) and of any official proceedings conducted by
the Review Board with regard to specific civil rights
cold case records; and
(B) a statement, based on a review of the proceedings
and in conformity with the decisions reflected therein,
designating a recommended specified time at which or
a specified occurrence following which the material
may be appropriately disclosed to the public under
this Act.
(4) NOTICE.—Not later than 14 days after the Review
Board makes a determination that a civil rights cold
case record shall be publicly disclosed in the Collection
or postponed for disclosure and held in the protected
Collection, the Review Board shall notify the head of
the originating body of its determination and publish
a copy of the determination in the Federal Register.

182a
(5) OTHER NOTICE.—Contemporaneous notice shall
be made to the President of Review Board
determinations regarding executive branch civil
rights cold case records, and to the oversight
committees designated in this Act in the case of
legislative branch records. Such notice shall contain
an unclassified written justification for public
disclosure or postponement of disclosure, including an
explanation of the application of any standards under
section 4.
(d) PRESIDENTIAL AUTHORITY OVER REVIEW
BOARD DETERMINATION.—
(1) PUBLIC DISCLOSURE OR POSTPONEMENT
OF DISCLOSURE.—After the Review Board has
made a formal determination concerning the public
disclosure or postponement of disclosure of an
executive branch civil rights cold case record or
information contained in a civil rights cold case
record, obtained or developed solely within the
executive branch, the President shall have the sole
and nondelegable authority to require the disclosure
or postponement of such record or information under
the standards set forth in section 4, and the President
shall provide the Review Board with an unclassified
written certification specifying the President's
decision within 30 days after the Review Board's
determination and notice to the executive agency as
required under this Act, stating the justification for
the President's decision, including the applicable
grounds for postponement under section 4.
(2) PERIODIC REVIEW.—Any executive branch civil
rights cold case record for which public disclosure is
postponed by the President shall be subject to the
requirements of periodic review and declassification of

183a
classified information and public disclosure in the
Collection set forth in section 3.
(3)
RECORD
OF
PRESIDENTIAL
POSTPONEMENT.—The Review Board shall, upon
its receipt, publish in the Federal Register a copy of
any unclassified written certification, statement, or
other materials transmitted by or on behalf of the
President with regard to postponement of the public
disclosure of civil rights cold case records.
(e) NOTICE TO THE PUBLIC.—On each day that is
on or after the date that is 60 days after the Review
Board first approves the postponement of disclosure
of a civil rights cold case record, the Review Board
shall publish on a publicly available website a notice
that summarizes the postponements approved by the
Review Board or initiated by the President, including
a description of the subject, originating body, length
or other physical description, and each ground for
postponement that is relied upon.
(f) REPORTS BY THE REVIEW BOARD.—
(1) IN GENERAL.—The Review Board shall report its
activities to the Speaker of the House of
Representatives, the Minority Leader of the House of
Representatives, the Committee on Oversight and
Government Reform of the House of Representatives,
the Majority Leader of the Senate, the Minority
Leader of the Senate, the Committee on Homeland
Security and Governmental Affairs of the Senate, the
President, the Archivist, and the head of any
Government office whose records have been the
subject of Review Board activity.
(2) DEADLINES.—Not later than 1 year after the
date of enactment of this Act, and every year
thereafter until termination of the Review Board, the

184a
Review Board shall issue a report under paragraph
(1).
(3) CONTENTS.—Each report under paragraph (1)
shall include the following information:
(A) A financial report of the expenses for all official
activities and requirements of the Review Board and
its employees.
*5501
(B) The progress made on review, transmission to the
Archivist, and public disclosure of civil rights cold case
records.
(C) The estimated time and volume of civil rights cold
case records involved in the completion of the Review
Board's performance under this Act.
(D) Any special problems, including requests and the
level of cooperation of Government offices, with regard
to the ability of the Review Board to operate as
required by this Act.
(E) A record of review activities, including a record of
postponement decisions by the Review Board or other
related actions authorized by this Act, and a record of
the volume of records reviewed and postponed.
(F) Recommendations and requests to Congress for
additional authorization.
(G) An appendix containing copies of reports of
postponed records to the Archivist required under
subsection (c)(3) made since the date of the preceding
report under this subsection.
(4) NOTICE OF TERMINATION.—Not later than 90
days before terminating, the Review Board shall
provide written notice to the President and the
Congress of its intention to terminate its operations at
a specified date.

185a
SEC. 8. DISCLOSURE OF OTHER INFORMATION
AND ADDITIONAL STUDY.
(a) MATERIALS UNDER THE SEAL OF THE
COURT.—
(1) IN GENERAL.—The Review Board may request
the Attorney General to petition any court in the
United States or abroad to release any information
relevant to civil rights cold cases that is held under
seal of court.
(2) GRAND JURY MATERIALS.—
(A) IN GENERAL.—The Review Board may request
the Attorney General to petition any court in the
United States to release any information relevant to
civil rights cold cases that is held under the injunction
of secrecy of a grand jury.
(B) PARTICULARIZED NEED.—A request for
disclosure of civil rights cold case records under this
Act shall be deemed to constitute a showing of
particularized need under rule 6 of the Federal Rules
of Criminal Procedure.
(3) DEADLINE.—
(A) IN GENERAL.—The Attorney General shall
respond to any request that is subject to this
subsection within 45 days.
(B) NONDISCLOSURE OF GRAND JURY
INFORMATION.—If
the
Attorney
General
determines that information relevant to a civil rights
cold case that is held under the injunction of secrecy
of a grand jury should not be made public, the
Attorney General shall set forth in the response to the
request the reasons for the determination.
(b) COOPERATION WITH AGENCIES.—It is the
sense of Congress that—

186a
(1) the Attorney General should assist the Review
Board in good faith to unseal any records that the
Review Board *5502 determines to be relevant and
held under the seal by a court or under the injunction
of secrecy of a grand jury; and
(2) all departments and agencies of the United States
Government should cooperate in full with the Review
Board to seek the disclosure of all information
relevant to civil rights cold cases consistent with the
public interest.
SEC. 9. RULES OF CONSTRUCTION.
(a) PRECEDENCE OVER OTHER LAW.—
(1) IN GENERAL.—Subject to paragraph (2), when
this Act requires transmission of a record to the
Archivist or public disclosure, it shall take precedence
over any other law (except section 6103 of the Internal
Revenue Code of 1986), judicial decisions construing
such law, or common law doctrine that would
otherwise prohibit such transmission or disclosure
with the exception of deeds governing access to or
transfer or release of gifts and donations of records to
the United States Government.
(2) PERSONNEL AND MEDICAL FILES.—This Act
shall not require the public disclosure of information
that is exempt from disclosure under section 552(b)(6)
of title 5, United States Code.
(b) FREEDOM OF INFORMATION ACT.—Nothing
in this Act shall be construed to eliminate or limit any
right to file any requests with any executive agency or
seek judicial review of the decisions under section 552
of title 5, United States Code.
(c) JUDICIAL REVIEW.—Nothing in this Act shall be
construed to preclude judicial review, under chapter 7

187a
of title 5, United States Code, of final actions taken or
required to be taken under this Act.
(d) EXISTING AUTHORITY.—Nothing in this Act
revokes or limits the existing authority of the
President, any executive agency, the Senate, the
House of Representatives, or any other entity of the
Government to publicly disclose records in its
possession.
SEC. 10. FUNDING.
Until such time as funds are appropriated to carry out
this Act, the President shall use such sums as are
available for discretionary use to carry out this Act.
Approved January 8, 2019.

***

